No. _____

______________________________________________

IN THE SUPREME COURT OF THE UNITED STATES
______________________________________________

DANIEL LEWIS LEE,
PETITIONER,
V.

T.J. WATSON, WARDEN, AND UNITED STATES OF AMERICA,
RESPONDENTS.
____________________________________________

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

____________________________________________

APPENDIX TO PETITION FOR WRIT OF CERTIORARI
____________________________________________

MORRIS H. MOON

Counsel of Record
Member, Supreme Court Bar

GEORGE KOUROS
Federal Capital Habeas Project
Maryland Federal Defender
6411 Ivy Lane, Suite 710
Greenbelt, MD 20770
(713) 880-3556
Morris_Moon@fd.org

Counsel for Petitioner Daniel Lee

TABLE OF CONTENTS
Panel Order of the United States Court of Appeals for the Seventh Circuit
Denying Appeal (July 10, 2020)…………………………………………………....A1
Order of the United States District Court for the Southern District of Indiana
Denying Petition for Writ of Habeas Corpus Under 28 U.S.C. § 2241
(Mar. 20, 2020)…………………………………………………………....................A9
Order of the United States District Court for the Southern District of Indiana
Denying Motion to Alter or Amend (June 26, 2020)……………………..…...A17
Order of the United States District Court for the Southern District of Indiana
Staying Execution (Dec. 5, 2019)…………………………………………….…...A22
Order of the United States Court of Appeals for the Seventh Circuit Vacating
Stay of Execution (Dec. 6, 2019)………………………………………………….A48

United States v. Daniel Lee, 89 F.Supp.2d 1017 (E.D. Ark. Mar. 21, 2000)

(Order granting motion for new trial)…………………………………………...A51

United States v. Daniel Lee, No. 4:97-cr-243 (E.D. Ark. Dec. 22, 2010),

Dkt. 1180 (Order denying Rule 59(e) motion)………………………………….A74

United States v. Daniel Lee, 792 F.3d 1021 (8th Cir. 2015)

(Order affirming denial of Rule 60(b) motion)………………………………..…A80

United States v. Daniel Lee, 811 F.3d 272 (8th Cir. 2015)

(Kelly, J., dissent from denial of rehearing)………………………………..……A84

United States v. Daniel Lee, No. 4:97-cr-243 (E.D. Ark. Feb. 26, 2019),

Dkt. 1313 (Order denying second-in-time § 2255 motion)…………………....A87

United States v. Daniel Lee, No. 19-2432 (8th Cir. Nov. 4, 2019)

(Order denying COA; Kelly, J., dissenting)……………………………………A107

United States v. Daniel Lee, No. 20-2351 (8th Cir, July 12, 2020)

(Order denying COA; Kelly, J., dissenting)……………………………………A109

Fee Application, Oklahoma County District Court No. CF-90-5292………………A116

United States v. Daniel Lee, Trial Transcript Excerpt (p. 7470)…………………..A118
United States v. Daniel Lee, Trial Transcript Excerpt (p. 7963-64)………………A119
i

Fifth Amendment, United States Constitution………………………………………A121
Sixth Amendment, United States Constitution………………………………………A122
28 U.S.C. § 2255…………………………………………………………………………...A123
28 U.S.C. § 2241…………………………………………………………………………...A125
Fed. R. Civ. P. 60…………………………………………………………………………..A127

ii

Case: 20-2128

Document: 14

Filed: 07/10/2020

Pages: 8

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 20-2128
DANIEL LEWIS LEE,
Petitioner-Appellant,
v.
T. J. WATSON, Warden, and
UNITED STATES OF AMERICA,
Respondents-Appellees.
____________________
Appeal from the United States District Court
for the Southern District of Indiana, Terre Haute Division.
No. 2:19-CV-00468-JPH-DLP — James Patrick Hanlon, Judge.

____________________
SUBMITTED JULY 9, 2020 — DECIDED JULY 10, 2020
____________________
Before SYKES, Chief Judge, and EASTERBROOK and BARRETT,
Circuit Judges.
SYKES, Chief Judge. Daniel Lewis Lee and his codefendant,
Chevy Kehoe, were members of the Aryan Peoples’ Republic
(a/k/a Aryan Peoples’ Resistance), a white supremacist
organization founded for the purpose of establishing an
independent nation of white supremacists in the Pacific
Northwest. In January 1996 Lee and Kehoe traveled from the

A1

Case: 20-2128

Document: 14

Filed: 07/10/2020

Pages: 8

State of Washington to the Arkansas home of William
Mueller, a firearms dealer who owned a large collection of
guns and ammunition. There they overpowered Mueller and
his wife, Nancy, and questioned their eight-year-old daughter Sarah about the location of Mueller’s guns, ammunition,
and cash. After stealing about $30,000 worth of weapons and
$50,000 in cash and coins, Lee and Kehoe shot all three
victims with a stun gun, placed plastic bags over their heads,
and sealed the bags with duct tape to asphyxiate them. They
then taped rocks to the three victims and threw them into
the Illinois Bayou. The bodies were discovered six months
later in Lake Darnelle near Russellville, Arkansas. United
States v. Lee, 374 F.3d 637, 642 (8th Cir. 2004).
Lee and Kehoe were indicted in federal court in the
Eastern District of Arkansas on three counts of capital
murder in aid of racketeering, 18 U.S.C. § 1959(a)(1), and
related crimes. In May 1999 they were convicted by a jury in
a joint trial, and the district judge scheduled separate penalty phases. United States v. Lee, 274 F.3d 485, 488 (8th Cir.
2001). Kehoe’s case went first, and the jury returned a verdict of life in prison without release. Id. In Lee’s sentencing
proceeding, prosecutors introduced evidence of his involvement as a teenager in a 1990 murder in Oklahoma. In
that earlier homicide, Lee severely beat the victim and forced
him down a manhole into a sewer, then gave a knife to his
cousin, who repeatedly stabbed the victim and slit his throat.
Lee and his cousin were charged with first-degree murder,
but Lee’s case was resolved with a guilty plea to robbery
with a suspended sentence, which the government characterized in its argument to the jury as a “gift” from Oklahoma
prosecutors. Also, as relevant here, in cross-examination of
Lee’s psychological expert, the government elicited testimo-

A2

Case: 20-2128

Document: 14

Filed: 07/10/2020

Pages: 8

ny about Lee’s future dangerousness—specifically, a psychological test known as the Hare Psychopathy ChecklistRevised, which the government’s expert had administered to
Lee and yielded a score in the psychopathy range. Lee’s jury
returned a verdict of death.
The Eighth Circuit affirmed Lee’s convictions and death
sentence. 374 F.3d 637 (8th Cir. 2004); 274 F.3d 485 (8th Cir.
2001). Lee pursued a full round of collateral review under
28 U.S.C. § 2255 raising multiple grounds, including ineffective assistance of trial counsel. 715 F.3d 215 (8th Cir. 2013).
He filed many subsequent requests for collateral relief, but
all failed on the merits or for lack of the authorization required by 28 U.S.C. § 2244(b)(3) and § 2255(h). See, e.g.,
No. 4:97-cr-00243-02-KGB, 2020 WL 3625732 (E.D. Ark.
July 2, 2020); No. 4:97-cr-00243-02-KGB, 2020 WL 3618709
(E.D. Ark. July 2, 2020); 960 F.3d 1023 (8th Cir. 2020);
No. 19-2432 (8th Cir. Nov. 4, 2019); 792 F.3d 1021 (8th Cir.
2015).
In July 2019 the United States scheduled Lee’s execution
for December 9, 2019. Two months later he filed a petition
for a writ of habeas corpus under 28 U.S.C. § 2241 in the
Southern District of Indiana, where he is confined in the
Terre Haute federal prison. He requested a stay of execution
but later withdrew that request. The district judge nonetheless stayed Lee’s execution. We vacated the stay order
because § 2255(e) bars a § 2241 petition with a limited exception for claims for which a motion under § 2255 is “inadequate or ineffective to test the validity of” the prisoner’s
detention; the exception is customarily referred to as the
“Savings Clause.” Lee’s § 2241 petition raised two challenges

A3

Case: 20-2128

Document: 14

Filed: 07/10/2020

Pages: 8

to his death sentence: a Strickland claim 1 for ineffective
assistance of trial counsel during the sentencing phase and a
Brady/Napue claim 2 based on evidence that was supposedly
newly discovered. The former claim attacked counsel’s
failure to adequately object to the government’s crossexamination of the defense psychologist regarding the
psychopathology test; the latter was premised on a document in the court record in Lee’s 1990 Oklahoma murder
case that current counsel contends sheds some light on why
the case was resolved as a robbery.
In our order vacating the stay, we explained that Lee’s
likelihood of success on the merits was “slim” because both
claims—Brady claims alleging suppression of exculpatory
evidence and Strickland claims alleging ineffective assistance
of counsel—are “regularly made and resolved under
§ 2255,” so the remedy by motion cannot be called “inadequate or ineffective” for purposes of the Savings Clause. Lee
v. Watson, No. 19-3399, 2019 WL 6718924, at *1 (7th Cir.
Dec. 6, 2019). We considered and rejected the possibility that
Lee’s case might satisfy the standard established in Webster
v. Daniels, which holds that § 2255 may be inadequate or
ineffective if the provision for successive collateral attacks in
§ 2255(h) does not permit a prisoner to present newly discovered evidence that “existed before the time of the trial”
but was unavailable “despite diligence on the part of the
defense.” 784 F.3d 1123, 1140 (7th Cir. 2015) (en banc). In
Webster the newly discovered evidence had a bearing on
1

Strickland v. Washington, 466 U.S. 668 (1984).

Brady v. Maryland, 373 U.S. 83 (1963); Napue v. Illinois, 360 U.S.
264 (1959).
2

A4

Case: 20-2128

Document: 14

Filed: 07/10/2020

Pages: 8

whether the prisoner was “categorically and constitutionally
ineligible for the death penalty” under the Supreme Court’s
decisions in Atkins v. Virginia, 536 U.S. 304 (2002), and Hall v.
Florida, 572 U.S. 701 (2014), based on intellectual disability.
Webster, 784 F.3d at 1125. In our December 6 order, we held
that Lee’s § 2241 petition was not likely to succeed under
Webster because the evidence he claims is “newly discovered” was both known to him and publicly available in the
court record of his Oklahoma murder case and thus was
readily ascertainable with reasonable diligence and not
concealed by the prosecution.
Our order vacating the stay had no immediate effect because Lee’s sentence was subject to a separate injunction
entered in litigation in the district court for the District of
Columbia involving a broader challenge to the federal
execution protocol. While that litigation proceeded, the
district judge in this case denied Lee’s § 2241 petition as
barred by § 2255(e) for essentially the same reasons we
identified in our order vacating the stay. Lee v. Warden USP
Terre Haute, No. 2:19-cv-00468-JPH-DLP, 2020 WL 1317449
(S.D. Ind. Mar. 20, 2020). A week later the Court of Appeals
for the District of Columbia Circuit vacated the district
court’s injunction. In re Fed. Bureau of Prisons’ Execution
Protocol Cases, 955 F.3d 106 (D.C. Cir. 2020). In June Lee’s
execution date was rescheduled for July 13, 2020. On
June 26, 2020, the judge denied Lee’s Rule 59 motion to alter
or amend the judgment, Lee, No. 2:19-cv-00468-JPH-DLP,
2020 WL 3489355 (S.D. Ind. June 26, 2020), and Lee filed his
notice of appeal that same day.

A5

Case: 20-2128

Document: 14

Filed: 07/10/2020

Pages: 8

On June 29, 2020, the Supreme Court denied certiorari in
the Execution Protocol case under the name Bourgeois v. Barr,
No. 19-1348, 2020 WL 3492763. Three days later a panel of
this court issued a decision affirming the denial of a § 2241
petition by another death-row prisoner confined at the Terre
Haute prison. Purkey v. United States, No. 19-3318, 2020 WL
3603779 (7th Cir. July 2, 2020). Purkey squarely rejected the
arguments Lee raises here. On July 8 Lee moved for leave to
file an oversized appellate brief and tendered the brief with
the motion, but the brief makes scant mention of Purkey. We
granted the motion that same day and ordered the government to respond by 5 p.m. Central Time on July 9. It has
done so. Oral argument is unnecessary because under Purkey
and our December 6, 2019 order vacating the stay of execution, Lee’s arguments are frivolous.
Purkey holds unambiguously that under Webster and earlier circuit precedent, 3 a § 2241 petition may not proceed
under the Savings Clause absent “a compelling showing”
that it was “impossible” to use § 2255 to cure the defect
identified in the § 2241 petition; “[i]t is not enough that
proper use of the statute results in a denial of relief.” Id. at
*8. The Savings Clause, we explained, is a “narrow pathway
to the general habeas corpus statute,” id. at *5, and to proceed down that path there must be something “structurally
inadequate or ineffective about section 2255 as a vehicle” for
the arguments raised in the § 2241 petition, id. at *10. That is,
“the words ‘inadequate or ineffective,’ taken in context, must
mean something more than unsuccessful.” Id. at *8.

See Garza v. Lappin, 253 F.3d 918 (7th Cir. 2001); In re Davenport,
147 F.3d 605 (7th Cir. 1998).
3

A6

Case: 20-2128

Document: 14

Filed: 07/10/2020

Pages: 8

Wesley Purkey filed a § 2241 petition seeking to litigate
three new claims of ineffective assistance of counsel; he had
raised a Sixth Amendment claim for ineffective assistance of
trial counsel in his § 2255 motion, accusing his trial counsel
of ineffectiveness “in 17 different particulars” but had not
included the grounds raised in the § 2241 petition. Id. at *3.
Purkey attributed the omission to the ineffectiveness of his
postconviction counsel and maintained that “section 2255 is
structurally inadequate to test the legality of a conviction
and sentence any time a defendant receives ineffective
assistance of counsel in his one permitted motion.” Id. at *7.
We rejected that argument, explaining that “nothing
formally prevented [Purkey] from raising each of the three
errors” in his § 2255 motion. Id. at *8. “[T]he mechanisms of
section 2255 gave him an opportunity to complain about
ineffective assistance of trial counsel, and he took advantage
of that opportunity.” Id. at *10. In short, “[t]here was nothing
structurally inadequate or ineffective about section 2255 as a
vehicle to make those arguments.” Id. Purkey argued for the
extension of the Martinez/Trevino doctrine 4 to the Savings
Clause context. Martinez/Trevino addresses the circumstances
under which a state prisoner’s claim of ineffective assistance
of trial counsel can be raised on federal habeas review under
28 U.S.C. § 2254 despite a procedural default. We have
extended the Martinez/Trevino doctrine to federal prisoners.
Ramirez v. United States, 799 F.3d 845, 854 (7th Cir. 2015). But
in Purkey we flatly rejected its application in the Savings
Clause context, explaining that the case was governed by

Martinez v. Ryan, 566 U.S. 1 (2012); Trevino v. Thaler, 569 U.S. 413
(2013).

4

A7

Case: 20-2128

Document: 14

Filed: 07/10/2020

Pages: 8

statute, not federal common law. 2020 WL 3603779, at *11.
The “pertinent statute is 29 U.S.C. § 2255(e), a statute that
played no part in Ramirez.” Id.
This case is indistinguishable from Purkey. Lee raised a
claim of ineffective assistance of trial counsel in his § 2255
motion and now seeks to use § 2241 as a vehicle to raise a
new argument about trial counsel’s ineffectiveness. Under
Purkey the Savings Clause does not apply; there was nothing
structurally inadequate about § 2255 as a vehicle for this
argument. Like Wesley Purkey, Lee invokes the
Martinez/Trevino doctrine as interpreted in Ramirez. We
rejected this argument in Purkey and that decision controls
here.
Lee’s Brady/Napue claim fares no better. As we explained
in our December 6 order, the alleged “newly discovered”
evidence on which this claim rests was known to Lee and is
contained in the publicly available court record in Lee’s 1990
Oklahoma murder case and thus was available with reasonable diligence. Accordingly, the evidence is neither newly
discovered under Webster nor was suppressed within the
meaning of Brady. The Savings Clause does not apply; § 2255
was not structurally inadequate or ineffective to raise the
Brady/Napue claim.
In sum, it follows directly from Purkey and our earlier decision in this case that Lee’s § 2241 petition was properly
denied. We therefore affirm the judgment of the district
court. We also deny Lee’s motion for a stay of execution,
filed today, which relies on the same now-rejected merits
arguments.
Judgment AFFIRMED; stay motion DENIED.

A8

Case 2:19-cv-00468-JPH-DLP Document 35 Filed 03/20/20 Page 1 of 8 PageID #: 1337

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
DANIEL LEWIS LEE,
Petitioner,
v.
WARDEN USP TERRE HAUTE, et al.
Respondents.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00468-JPH-DLP

ORDER DENYING PETITION FOR A WRIT OF HABEAS CORPUS
Daniel Lewis Lee is a federal prisoner on death row at the United States
Penitentiary in Terre Haute, Indiana. He was sentenced to death 20 years ago
in the United States District Court for the Eastern District of Arkansas after a
jury found him guilty of murdering a gun dealer and the gun dealer’s family to
steal money and guns. The conviction and sentence were affirmed on direct
appeal and multiple requests for post-conviction relief were denied by the United
States Court of Appeals for the Eighth Circuit.
Mr. Lee seeks relief from this Court by way of a 28 U.S.C. § 2241 petition.
Mr. Lee first argues that his counsel was ineffective during the penalty phase of
his trial in violation of his Sixth Amendment rights. Mr. Lee next argues that
newly discovered evidence shows that the United States violated his due process
rights when it suppressed material evidence and misled the jury regarding the
nature of a prior conviction in Oklahoma. This Court stayed Mr. Lee’s execution
pending resolution of this action, but the Seventh Circuit granted the United
States’ motion to vacate the stay.

A9

Case 2:19-cv-00468-JPH-DLP Document 35 Filed 03/20/20 Page 2 of 8 PageID #: 1338

Based on that decision, Mr. Lee’s claims cannot proceed in this § 2241
action. The Court thus denies the petition for a writ of habeas corpus without
reaching the merits of the claims presented.
I.
In its Order staying Mr. Lee’s execution, the Court set forth the procedural
background of Mr. Lee’s conviction and challenges thereto. See Dkt. 27 at 2-5.
The Court incorporates by reference that background here, including that Mr.
Lee previously attempted to raise his current claims in his court of conviction
and in the Eighth Circuit.
First, Mr. Lee raised his ineffective assistance claim via a Rule 60(b) motion
in his 28 U.S.C. § 2255 proceeding. The District Court denied the motion, and
the Eighth Circuit affirmed. See United States v. Lee, 2014 WL 1093197
(E.D. Ark. Mar. 18, 2014); United States v. Lee, 792 F.3d 1021 (8th Cir. 2015).
Second, Mr. Lee raised his due process claims in another 28 U.S.C. § 2255
proceeding. The District Court denied the motion as an unauthorized second or
successive § 2255 motion, and the Eighth Circuit denied a certificate of
appealability.

See United States v. Lee, No. 4:97-cr-00243-KGB, Dkt. 1313

(E.D. Ark.); Lee v. United States, No. 19-2432 (8th Cir. Nov. 4, 2019).
II.
Mr. Lee’s § 2241 petition raises two claims. First, he argues that trial
counsel provided ineffective assistance by failing to use available evidence to
challenge the results of the Hare Psychopathy Checklist-Revised (“PCL-R”) that
was offered by the United States in support of an aggravating factor during the

A10

Case 2:19-cv-00468-JPH-DLP Document 35 Filed 03/20/20 Page 3 of 8 PageID #: 1339

penalty phase. Dkt. 1 at 11-46. The United States relied upon the PCL-R to
demonstrate, among other things, that Mr. Lee presents a risk of future
dangerousness. Dkt. 1 at 11-46.
Second, Mr. Lee advances two related due process claims under Brady v.
Maryland, 373 U.S. 83, 87 (1963), and Napue v. Illinois, 360 U.S. 264 (1959). 1
The due process claims focus on the degree of Mr. Lee’s involvement in the
murder of Joseph Wavra in Oklahoma when Mr. Lee was seventeen years old. In
support of its position that Mr. Lee presented a risk of future dangerousness and
deserved the death penalty, the United States argued that Mr. Lee was
responsible for Mr. Wavra’s murder. Mr. Lee maintains that the United States
violated Brady and Napue when it suppressed exculpatory evidence regarding
Mr. Wavra’s murder and presented evidence that created a false impression for
why Mr. Lee was not prosecuted for Mr. Wavra’s murder. Dkt. 1 at 46-68.
The United States argues that the Court cannot reach the merits of these
claims because Mr. Lee cannot raise them in a § 2241 petition. Dkt. 14. Mr. Lee
disagrees. In the end, the Court concludes that Mr. Lee’s claims cannot proceed
in this § 2241 action and thus denies the petition without reaching the merits of
the claims presented.

In Brady, the Supreme Court held that “the suppression by the prosecution of
evidence favorable to an accused upon request violates due process where the
evidence is material either to guilt or punishment, irrespective of the good faith
or bad faith of the prosecution.” 373 U.S. at 87. “Napue [v. Illinois, 360 U.S. 264
(1959)] and Giglio hold that a prosecutor may not offer testimony that the
prosecutor knows to be false.” Bland v. Hardy, 672 F.3d 445, 447 (7th Cir.
2012).
1

A11

Case 2:19-cv-00468-JPH-DLP Document 35 Filed 03/20/20 Page 4 of 8 PageID #: 1340

Whether Mr. Lee can bring his claims via § 2241 depends on whether he
meets the requirements of 28 U.S.C. § 2255(e)—commonly referred to as the
Savings Clause. See Webster v. Daniels, 784 F.3d 1123, 1135 (7th Cir. 2015)
(en banc). The Savings Clause permits claims to proceed in a § 2241 petition if
a petitioner can show that “the remedy by [§ 2255] motion is inadequate or
ineffective to test the legality of his detention.” 28 U.S.C. § 2255(e). The legal
standards governing the Savings Clause determination are set forth in the
Court’s Order staying Mr. Lee’s execution and its recent decision in Purkey v.
United States, No. 2:19-cv-00414-JPH-DLP (S.D. Ind. Nov. 20, 2019), Dkt. 76 at
8-15. Those legal standards are incorporated here by reference. See Dkt. 27 at
9-11; Purkey, No. 2:19-cv-00414-JPH-DLP, Dkt. 76 at 8-15.
Here, neither of Mr. Lee’s claims meet the Savings Clause.

Mr. Lee’s

ineffective assistance claim is—for purposes of the Savings Clause analysis—
essentially identical to a claim addressed in Purkey. Like Mr. Lee, Mr. Purkey
sought to bring ineffective assistance of trial counsel claims in his § 2241. Mr.
Purkey relied on similar legal arguments for why his ineffective assistance claims
meet the Savings Clause. Notably, both Mr. Lee and Mr. Purkey take the position
that the Martinez-Trevino doctrine, as extended in Ramirez v. United States, 799
F.3d 845 (7th Cir. 2015),2 permits them to raise ineffective assistance claims in
a § 2241 petition.
Martinez v. Ryan, 132 S. Ct. 1309 (2012), and Trevino v. Thaler, 133 S. Ct. 1911
(2013), establish an opportunity for 28 U.S.C. § 2254 petitioners challenging
state court judgments from some states to argue ineffective assistance of postconviction counsel as cause to excuse procedural default of their ineffective
assistance of trial counsel claims. Ramirez extended Martinez and Trevino to
2

A12

Case 2:19-cv-00468-JPH-DLP Document 35 Filed 03/20/20 Page 5 of 8 PageID #: 1341

The Court rejected this and other of Mr. Purkey’s arguments, concluding
that his ineffective assistance claim did not meet the Savings Clause. The Court
explained that neither the Martinez-Trevino doctrine nor Ramirez involve the
Savings Clause question, and that Ramirez has subsequently been narrowly
construed by the Seventh Circuit.

See Purkey, No. 2:19-cv-00414-JPH-DLP,

Dkt. 76 at 21-23. These factors led the Court to conclude that the Seventh
Circuit would likely not expand Ramirez, thus requiring the Court to decline to
do so.
The Court further reasoned that permitting ineffective assistance claims
to proceed in § 2241 actions would run counter to both Seventh Circuit
precedent and the statutory framework established in § 2255, which sought to
steer almost all post-conviction proceedings away from § 2241. Id. at 23-27; see
id. at 27 (“[U]nlike the relatively narrow categories of claims [the Seventh Circuit
has] allowed to proceed [in § 2241 petitions], ineffective assistance of trial claims
are ubiquitous.”). The Seventh Circuit set forth similar reasoning in reversing
this Court’s Order staying Mr. Lee’s execution. See Lee v. Watson, 2019 WL
6718924, *1 (7th Cir. Dec. 6, 2019) (stating that Mr. Lee’s likelihood of success
is “slim” because ineffective assistance claims “are regularly . . . resolved under
§ 2255”). For this reason and those set forth in Purkey, the Court concludes that
Mr. Lee’s ineffective assistance claim does not meet the Savings Clause and thus
cannot proceed in this § 2241 action.

28 U.S.C. § 2255 proceedings, allowing a petitioner to challenge § 2255 counsel’s
effectiveness in a Rule 60(b) motion. 790 F.3d at 854.

A13

Case 2:19-cv-00468-JPH-DLP Document 35 Filed 03/20/20 Page 6 of 8 PageID #: 1342

Mr. Lee’s due process claims similarly do not meet the Savings Clause.
The Court previously concluded that Mr. Lee’s due process claims likely meet
the Savings Clause. Dkt. 27 at 11-13. Among other things, the Court reasoned
that “if Mr. Lee is correct that his [due process] claims rest on newly discovered
evidence, he meets the core of the Savings Clause test as described by the
Seventh Circuit,” as he did not have this evidence during his § 2255 proceedings
and thus did not have “‘an unobstructed procedural shot at getting his sentence
vacated.’” Id. at 12 (quoting In re Davenport, 147 F.3d 605, 609 (7th Cir. 1998)).
The Court concluded that Mr. Lee had made a sufficient showing “that there is
newly discovered evidence to support his [due process] claims and that there
may be additional discoverable evidence to support them.” 3 Id. at 13.
The Seventh Circuit disagreed, concluding that Mr. Lee’s likelihood of
meeting the Savings Clause is “slim.” Lee, 2019 WL 6718924, at *1. The Seventh
Circuit reasoned that claims like Mr. Lee’s “are regularly made and resolved
under § 2255,” thus it is unlikely that § 2255 is inadequate or ineffective. Id.
The Seventh Circuit further noted that Webster v. Daniels, 784 F.3d 1123 (7th
Cir. 2015) (en banc), held that “§ 2255 may be deemed inadequate or ineffective
if the provision for successive collateral attacks in § 2255(h) does not permit a
prisoner to present factual developments that could not have been litigated
earlier.” Lee, 2019 WL 6718924, at *1. The Seventh Circuit concluded that the
evidence Mr. Lee designates as “newly discovered” is not so within the meaning
The Court emphasized that while it was unclear whether Mr. Lee could
ultimately demonstrate that the evidence was “newly discovered”, that
determination “should be made on a fully developed record.” Dkt. 27 at 13.
3

A14

Case 2:19-cv-00468-JPH-DLP Document 35 Filed 03/20/20 Page 7 of 8 PageID #: 1343

of Webster.

Because Mr. Lee was aware of it, the court reasoned, the evidence

was not “concealed or unavailable.” Id.; see id. (noting that evidence is not newly
discovered under Webster “if the defense could have accessed it with due
diligence.”).
Although the Seventh Circuit’s order in Lee did not hold that Mr. Lee’s due
process claims do not meet the Savings Clause, it provided specific reasons why
those claims were not likely to succeed.

Id. This Court therefore reads the

Seventh Circuit’s decision in Lee as having considered and rejected the several
reasons cited by this Court for granting the stay. 4

Those reasons—now

foreclosed—are the only reasons that could support a conclusion that the
Savings Clause is met. Thus, based on the Seventh Circuit’s order in Lee, the
Court concludes that Mr. Lee’s due process claims do not meet the Savings
Clause and thus cannot proceed in this § 2241 action.
III.
The claims Mr. Lee presents in his petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2241 are barred by the Savings Clause, 28 U.S.C.
§ 2255(e). His petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2241
is denied, and this action is dismissed with prejudice.
Because the Court has concluded that Mr. Lee’s claims are barred by the
Savings Clause, his pending motions for oral argument, dkt. [16], to stay this

For example, in its order granting a stay, this Court reasoned that Mr. Lee had
shown that discovery might uncover additional evidence to support his position
that his due process claims meet the Savings Clause and have merit. See Dkt.
27 at 12-13. The Seventh Circuit’s decision rejected this premise.
4

A15

Case 2:19-cv-00468-JPH-DLP Document 35 Filed 03/20/20 Page 8 of 8 PageID #: 1344

action, dkt. [17], and for discovery, dkt. [18], are denied.

Final Judgment

consistent with this Order shall issue.
SO ORDERED.
Date: 3/20/2020

Distribution:
Michael Scott Gordon
US Attorney's Office - Eastern District of Arkansas
michael.gordon@usdoj.gov
George Gust Kouros
FEDERAL CAPITAL HABEAS PROJECT
george_kouros@fd.org
Morris H. Moon
FEDERAL CAPITAL HABEAS PROJECT
Morris_Moon@fd.org
John M. Pellettieri
U.S. DEPARTMENT OF JUSTICE
john.pellettieri@usdoj.gov

A16

Case 2:19-cv-00468-JPH-DLP Document 45 Filed 06/26/20 Page 1 of 5 PageID #: 1464

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
DANIEL LEWIS LEE,
Petitioner,
v.
WARDEN USP TERRE HAUTE, et al.
Respondents.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00468-JPH-DLP

ORDER DENYING MOTION TO ALTER OR AMEND JUDGMENT
Daniel Lewis Lee filed a petition for a writ of habeas corpus pursuant to
28 U.S.C. § 2241 challenging his death sentence. This Court entered an order
staying Mr. Lee's execution. The Seventh Circuit vacated that order and on
remand, this Court denied Mr. Lee's § 2241 petition, holding that his claims are
barred by 28 U.S.C. § 2255(e). Mr. Lee filed a Rule 59(e) motion to alter or amend
judgment, and the motion is fully briefed. For the reasons that follow, Mr. Lee's
motion is denied. 1
To obtain relief under Rule 59(e), a movant must show "(1) that the court
committed a manifest error of law or fact, or (2) that newly discovered evidence
precluded entry of judgment." Blue v. Hartford Life & Acc. Ins. Co., 698 F.3d 587,
598 (7th Cir. 2012). Mr. Lee argues that the Court committed manifest errors of
law and fact by (1) concluding that his claim for relief was foreclosed by the
Seventh Circuit's order vacating the stay; (2) conflating the legal standard for
evaluating a motion for a stay of execution with the legal standard for evaluating

1

The government has reset Mr. Lee's execution date for July 13, 2020. Dkt. 43.

A17

Case 2:19-cv-00468-JPH-DLP Document 45 Filed 06/26/20 Page 2 of 5 PageID #: 1465

the merits of his petition; (3) denying him the ability to conduct discovery;
(4) finding that his ineffective assistance of counsel claim could not proceed
under Section 2241; and (5) failing to consider all of his arguments and claims.
Mr. Lee first argues that the Court erred in denying his § 2241 petition
without authorizing discovery on the question of whether his Napue and Brady
claims satisfy the § 2255(e) exception outlined in Webster v. Daniels, 784 F.3d
1123 (7th Cir. 2015) (en banc). Dkt. 37 at 2−10. He contends that the Court
applied the wrong legal standard and misunderstood the Seventh Circuit's order
vacating the stay.
To satisfy the § 2255(e) savings clause using the path outlined in Webster,
a petitioner must proffer newly discovered evidence. 784 F.3d at 1140. Mr. Lee
sought to discover allegedly suppressed evidence that would allow him to satisfy
§ 2255(e), which in turn would enable the Court to consider the merits of his
§ 2241 petition. Dkt. 37 at 11 ("Mr. Lee has asserted that the Government
suppressed—and continues to suppress—evidence in its possession showing that
it knew the details of the actual resolution of the Oklahoma case and that the
details of that resolution contain exculpatory information."). Mr. Lee argues that
this Court and the Seventh Circuit missed the point and mistakenly believed his
argument to be that the fee petition was the only newly discovered evidence.
But the Court understood Mr. Lee's position. See dkt. 27 at 18 (opinion
and order staying execution) ("Mr. Lee responds that the information
surrounding Mr. Lee’s guilty plea to the robbery charge, rather than the fee
application, is the Brady material. In other words, Mr. Lee says the fee

A18

Case 2:19-cv-00468-JPH-DLP Document 45 Filed 06/26/20 Page 3 of 5 PageID #: 1466

application is only evidence of a Brady violation."). The Seventh Circuit similarly
considered and rejected Mr. Lee's argument. There is no indication that the panel
did not understand or ignored this argument. The Seventh Circuit found that
the fee application cannot be considered "newly discovered" evidence under
Webster. Lee v. Watson, 2019 WL 6718924, at *1 (7th Cir. Dec. 6, 2019). Id. With
due diligence, counsel could have accessed the fee application and used it in
Mr. Lee's original § 2255 motion to bring Brady and Napue claims and to seek
the discovery that he now seeks in this § 2241 action. Because the fee
application was not concealed or unavailable, Mr. Lee cannot rely on it to satisfy
§ 2255(e)'s savings clause and litigate a § 2241 action to pursue other evidence
that he believes the government to possess, dkt. 37 at 11.
Mr. Lee also takes issue with the Seventh Circuit's application of the due
diligence standard, dkt. 37 at 13−15, but this Court is bound by the Seventh
Circuit with respect to this legal question. And Mr. Lee has not shown that this
Court committed a manifest error in applying the due diligence standard
articulated by the Seventh Circuit in assessing whether his evidence was "newly
discovered" under Webster. See dkt. 35 at 7 ("[E]vidence is not newly discovered
under Webster 'if the defense could have accessed it with due diligence.'" (quoting
Lee, 2019 WL 6718924, at *1)).
Unlike Webster, where new counsel uncovered and identified previously
unavailable evidence in the form of records, 784 F.3d at 1132, Mr. Lee argues
that there may exist some type of previously undisclosed evidence. Because
§ 2255 gave Mr. Lee a viable route to discovery of the evidence sought by his

A19

Case 2:19-cv-00468-JPH-DLP Document 45 Filed 06/26/20 Page 4 of 5 PageID #: 1467

petition, he cannot show that § 2255 was "inadequate or ineffective" or that the
Court committed manifest error by denying his Brady and Napue claims on
§ 2255(e) grounds.
Mr. Lee further argues that the Court committed manifest error when it
denied his ineffective assistance of counsel claim. The Seventh Circuit has
extended Martinez v. Ryan, 566 U.S. 1 (2012), to allow a federal prisoner to argue
in a Rule 60(b) motion that § 2255 counsel's ineffectiveness prevented the
prisoner from properly litigating trial counsel's effectiveness. Ramirez v. United
States, 799 F.3d 845, 854 (7th Cir. 2015). But neither the Seventh Circuit nor
the Supreme Court has held that a federal prisoner may rely on § 2255 counsel's
ineffectiveness to satisfy § 2255(e)'s savings clause. While the Seventh Circuit is
now considering that question, see dkt. 44-1 (transcripts of oral argument in
Purkey v. United States, No. 19-3318 (7th Cir.)), under existing law Mr. Lee
cannot show manifest error in the Court's holding that § 2255(e) bars his
ineffective assistance claim. Purkey v. United States, No. 2:19-cv-00414, dkt. 76
(Nov. 20, 2019) (collecting cases where courts considered and rejected the
argument that ineffective assistance of trial counsel claims relying on MartinezTrevino meet the Savings Clause).
Mr. Lee's last argument is that the Court erred in not addressing his claim
that applying § 2255(e) to bar his § 2241 petition would result in an
unconstitutional suspension of the writ of habeas corpus. Dkt. 37 at 18−19.
The Seventh Circuit has defined the scope of § 2255(e)'s savings clause to avoid
violation of the Constitution's Suspension Clause. See Worman v. Entzel, 953

A20

Case 2:19-cv-00468-JPH-DLP Document 45 Filed 06/26/20 Page 5 of 5 PageID #: 1468

F.3d 1004, 1008 (7th Cir. 2020); cf. Webster, 784 F.3d at 1152 (Easterbrook, J.,
dissenting) (citing United States v. Hayman, 342 U.S. 205 (1952)) (noting that
"if some application of § 2255 would conflict with the Suspension Clause, a
district court could [use § 2255(e)] to proceed under § 2241 without any need to
hold § 2255 unconstitutional"). The Court now makes explicit what was implicit
in its order denying relief: application of § 2255(e) to bar Mr. Lee's petition does
not violate the Suspension Clause.
Because Mr. Lee has failed to show that the Court's order denying relief
rests on a manifest error of law or fact, his motion to alter or amend judgment,
dkt. [37], is DENIED.
SO ORDERED.
Date: 6/26/2020

Distribution:
Michael Scott Gordon
US Attorney's Office - Eastern District of Arkansas
michael.gordon@usdoj.gov
George Gust Kouros
FEDERAL CAPITAL HABEAS PROJECT
george_kouros@fd.org
Morris H. Moon
FEDERAL CAPITAL HABEAS PROJECT
Morris_Moon@fd.org
John M. Pellettieri
U.S. DEPARTMENT OF JUSTICE
john.pellettieri@usdoj.gov

A21

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 1 of 26 PageID #: 1220

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
DANIEL LEWIS LEE,
Petitioner,
v.
WARDEN USP TERRE HAUTE, et al.
Respondents.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00468-JPH-DLP

OPINION AND ORDER STAYING EXECUTION OF DANIEL LEWIS LEE
Daniel Lewis Lee is a federal prisoner on death row at the United States
Penitentiary in Terre Haute, Indiana. He was sentenced to death 20 years ago
in the United States District Court for the Eastern District of Arkansas after a
jury found him guilty of murdering a gun dealer and the gun dealer’s family to
steal money and guns. The conviction and sentence were affirmed on direct
appeal.

Mr. Lee sought postconviction relief under 28 U.S.C. § 2255 in the

district court where he was convicted and sentenced. That request was denied
by the district court and the court of appeals affirmed. Mr. Lee filed further
§ 2255 motions challenging his death sentence in the district court of conviction,
but those challenges were denied on procedural grounds.
Mr. Lee now seeks relief from this Court by way of a 28 U.S.C. § 2241
petition alleging ineffective assistance of counsel and newly discovered evidence
as the basis for the relief sought. Mr. Lee first argues that his trial counsel was
ineffective during the penalty phase of his trial in violation of his Sixth
Amendment rights. Mr. Lee next argues that newly discovered evidence shows

A22

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 2 of 26 PageID #: 1221

that the United States violated his due process rights when it suppressed
material evidence and misled the jury regarding the nature of a prior conviction.
Mr. Lee seeks a stay of his execution and asks the Court to authorize him to
conduct discovery.
Mr. Lee is entitled to a stay of his execution based on his due process
claims. 1 While further factual development is needed for the Court to be able to
resolve the claims presented in Mr. Lee’s petition, he has shown there is a
significant possibility that he can bring these claims in a § 2241 action and
substantial grounds for the claims. The other factors necessary to obtain a stay
also weigh in Mr. Lee’s favor. Accordingly, Mr. Lee’s execution is stayed until
further order of this Court.
I.
The following procedural background focuses on the facts relevant to Mr.
Lee’s due process claims. 2
A. The Indictment and Trial
Mr. Lee and his co-defendant Chevie Kehoe were indicted in the United
States District Court for the Eastern District of Arkansas. See United States v.
Lee, No. 4:97-cr-00243-KGB-2 (E.D. Ark. Dec. 12, 1997), Dkt. 1. They were tried
The Court does not address or need to reach whether Mr. Lee’s ineffective
assistance claim warrants a stay.

1

A complete recitation of the facts and procedural background can be found in
the opinions issued by the United States Court of Appeals for the Eighth Circuit
following Mr. Lee’s appeals. See United States v. Lee, 274 F.3d 485 (8th Cir.
2001) (“Lee I”); United States v. Lee, 374 F.3d 637 (8th Cir. 2004) (“Lee II”); United
States v. Lee, 715 F.3d 215 (8th Cir. 2013) (“Lee III”); United States v. Lee, 792
F.3d 1021 (8th Cir. 2015) (“Lee IV”).

2

A23

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 3 of 26 PageID #: 1222

together and, following a two-month trial, the jury found both guilty of capital
murder and racketeering. Lee II, 374 F.3d at 643. Mr. Lee and Mr. Kehoe each
had a separate trial at the penalty phase.
Mr. Kehoe’s penalty phase trial was first, and the jury returned a verdict
of life in prison without the possibility of release. Lee I, 274 F.3d at 488. The
United States informed the District Court that, given this decision, it did not
intend to continue pursuing the death penalty for Mr. Lee. Id. As later explained
by the District Judge, “[t]here was no question that Kehoe was the more culpable
of the two with regard to the criminal acts charged in the indictment and proved
at trial.” Dkt. 1-2 at 3. But the Attorney General denied the United States
Attorney’s request to withdraw the death penalty with respect to Mr. Lee, Lee I,
274 F.3d at 488, so Mr. Lee’s penalty phase proceeded. The jury found that the
United States established four of the five aggravating factors it presented, Dkt.
1-10 at 5-8, and one or more jurors found that Mr. Lee established five of the
fourteen mitigating factors he presented, id. at 9-10. The jury returned a verdict
of death on May 14, 1999. Lee I, 274 F.3d at 488.
B. Mr. Lee’s Appeals and Collateral Attacks on His Conviction and
Sentence
Mr. Lee’s conviction and sentence were affirmed on direct appeal. Lee II,
374 F.3d at 643. He then filed a motion to vacate, set aside, or correct sentence
pursuant to 28 U.S.C. § 2255 in the United States District Court for the Eastern
District of Arkansas. That motion was denied, and the Eighth Circuit affirmed.
See Lee III, 715 F.3d at 217; United States v. Lee, 2008 WL 4079315 (E.D. Ark.

A24

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 4 of 26 PageID #: 1223

Aug. 28, 2008). Mr. Lee’s Rule 60(b) motion was also denied, and the Eighth
Circuit affirmed that decision as well. Lee IV, 792 F.3d at 1022; United States v.
Lee, 2014 WL 1093197, *5-6 (E.D. Ark. Mar. 18, 2014).
On September 10, 2018, Mr. Lee filed another § 2255 motion in the District
Court. United States v. Lee, No. 4:97-cr-00243-KGB, Dkt. 1297 (E.D. Ark. Sept.
10, 2018).

He argued that newly discovered evidence revealed that his due

process rights as set forth in Brady v. Maryland, 373 U.S. 83 (1963), Giglio v.
United States, 405 U.S. 150 (1972), and Napue v. Illinois, 360 U.S. 264 (1959)
(the “Brady and Napue claims”) were violated during the penalty phase of his
trial. These are the claims that Mr. Lee now raises in his § 2241 petition before
this Court. Neither claim was raised at the sentencing phase of his trial or in
his first § 2255 petition.
On February 26, 2019, the District Court denied the September 2018
§ 2255 motion as an unauthorized successive § 2255 motion and denied Mr. Lee
a certificate of appealability.

Lee, No. 4:97-cr-00243-KGB, Dkt. 1313.

The

District Court held that another § 2255 motion raising material Brady claims
constitutes a “second or successive” § 2255 motion, and thus Mr. Lee could not
proceed without authorization from the Eighth Circuit. Id. at 14-17. The parties
agree that § 2255(h) does not allow Mr. Lee to obtain this authorization. While
Mr. Lee’s § 2255 motion was not allowed to proceed, the District Court found
that the newly discovered evidence was material, specifically stating that had the
evidence been disclosed at trial “it is reasonably likely that . . . the outcome at
sentencing would have been different.” Id. at 14.

A25

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 5 of 26 PageID #: 1224

On July 25, 2019—while Mr. Lee’s request for a certificate of appealability
was pending before the Eighth Circuit—the Department of Justice set Mr. Lee’s
execution date for December 9, 2019. On November 4, 2019, the Eighth Circuit
denied Mr. Lee’s request for a certificate of appealability. Lee v. United States,
No. 19-2432 (8th Cir. Nov. 4, 2019).

Judge Kelly dissented, arguing that

reasonable jurists could disagree regarding whether a material Brady claim in a
second § 2255 motion qualifies as an impermissible second or successive § 2255
motion. Id. at 1-2.
C. Mr. Lee’s Petition in this Case
Mr. Lee filed the habeas petition in this case under 28 U.S.C. § 2241 on
September 26, 2019. Mr. Lee moved to stay his execution on November 8, 2019,
the same day his habeas petition was fully briefed. Mr. Lee’s discovery motion—
seeking to conduct additional discovery to support both of his claims—remains
pending.
II.
This case’s procedural posture is unique because Mr. Lee is a plaintiff in
a case pending in the United States District Court for the District of Columbia
(the “Execution Protocol Litigation”).

On November 20, 2019, while the stay

request was pending in this case, the United States District Court for the District
of Columbia stayed Mr. Lee’s execution. See In the Matter of the Federal Bureau
of Prisons’ Execution Protocol Cases, No. 1:19-mc-00145-TSC (D.D.C. Nov. 20,

A26

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 6 of 26 PageID #: 1225

2019), Dkt. 50, Dkt. 51. 3

Mr. Lee then moved to withdraw his motion to stay

his execution in this Court. Dkt. 22.
The United States has appealed the stay entered in the Execution Protocol
Litigation. Id., Dkt. 52. The appeal is pending before the United States Court of
Appeals for the District of Columbia Circuit. See In re FBOP Execution Protocol
Cases, No. 19-5322 (D.C. Cir. Nov. 22, 2019). The United States’ request to
vacate the stay issued in the Execution Protocol Litigation is pending before the
United States Supreme Court. See Barr, et al. v. Roane, et al., No. 19A615 (Dec.
2, 2019).
It is not known at this time whether the stay issued by the District Court
in the District of Columbia will stand or be vacated. But Mr. Lee’s motion for a
stay in this case is fully briefed, and considerations of the orderly administration
of justice make it appropriate for the Court to rule at this time on Mr. Lee’s
motion for a stay.
III.
The standards governing preliminary injunctions apply to motions to stay
executions in habeas proceedings. See Williams v. Chrans, 50 F.3d 1358, 1360
(7th Cir. 1995) (“The law governing stays of death sentences is, in general, the
same as that employed in other situations.”). “A plaintiff seeking a preliminary
injunction must establish that he is likely to succeed on the merits, that he is
likely to suffer irreparable harm in the absence of preliminary relief, that the
The Execution Protocol Litigation is a civil rights action involving Mr. Lee’s and
several other federal death row inmates’ challenges to the federal execution
protocol. It has been ongoing since 2005.
3

A27

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 7 of 26 PageID #: 1226

balance of equities tips in his favor, and that an injunction is in the public
interest.” Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7, 20 (2008); see Hill
v. McDonough, 547 U.S. 573, 584 (2006). Additionally, the Court must consider
“the extent to which the inmate has delayed unnecessarily in bringing the claim.”
Nelson v. Campbell, 541 U.S. 637, 649-50 (2004); see Lambert v. Buss, 498 F.3d
446, 451 (7th Cir. 2007).
In the death penalty context, a stay is warranted only upon “a showing of
a significant possibility of success on the merits.” Hill, 547 U.S. at 584. When,
as here, a habeas petition is not a prisoner’s first, a stay of execution “should be
granted only when there are ‘substantial grounds upon which relief might be
granted.’” Garza v. Lappin, 253 F.3d 918, 920-21 (7th Cir. 2001) (applying this
standard to a § 2241 petition).
A. Mr. Lee has Shown a Significant Possibility of Success on the
Merits of his Brady and Napue Claims
The Court begins with the factual background necessary to understand
Mr. Lee’s Brady and Napue claims. The District Court of conviction summarized
the background of Mr. Lee’s Brady and Napue claims before ruling that it could
not reach the merits:
To justify a death sentence for Lee when Kehoe had been sentenced
to life imprisonment, the Government’s penalty-phase case
emphasized the future-dangerousness aggravator. The Government
argued that Lee’s past conduct showed that he was violent and
volatile, and that he would present a danger in prison. Focusing on
the Wavra murder, the Government introduced evidence showing
Lee’s role in that crime. Brian Compton, who was at the party when
Wavra was killed by John David Patton, testified about Lee’s
involvement; the transcript of Lee’s testimony at John David Patton’s
Oklahoma preliminary hearing was read aloud; and the responding

A28

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 8 of 26 PageID #: 1227

Oklahoma detective and the forensic pathologist described Wavra’s
wounds and cause of death. The jury heard that, at a social
gathering in 1990, Lee, then age seventeen, and his cousin, John
David Patton, beat Wavra and forced him down a manhole into a
storm sewer; that Patton went down into the manhole with Wavra,
while Lee retrieved a plastic bag, rope, and knife that he handed
down to Patton; that Patton handed Wavra’s clothes up to Lee, who
put them in the plastic bag; and that Patton then used the knife to
repeatedly stab Wavra and slit his throat. Patton was convicted of
first-degree murder in an Oklahoma state court, while Lee pled to
deferred adjudication on a robbery charge. Other futuredangerousness evidence included (1) Lee’s threatening behavior
toward a sheriff’s deputy, while he was in jail awaiting trial, and (2)
a 1995 Florida conviction for carrying a concealed weapon.
In both opening and closing argument, the Government told the jury
that Lee “has an earlier murder under his belt.” It argued that, even
though Patton “wielded that knife,” Lee helped him by giving him the
knife and rope. The Government argued Lee knew what he was doing
when he gave the knife to Patton, and that he both “legally and
morally” had “the blood of Joey Wavra” on his hands. The
Government contended the robbery plea offer was a “gift” from the
Oklahoma prosecutor and an “incredible deal” – and a missed
opportunity for Lee to turn his life around. . . .
Both [the District Judge who presided over Mr. Lee’s trial] and the
Eighth Circuit recognized the Wavra evidence as an integral piece of
the Government’s penalty-phase case. In finding that Lee was not
unfairly prejudiced by expert testimony and then reinstating the
death penalty, the Eighth Circuit noted that, “none of the evidence
elicited from Dr. Cunningham was likely to inflame the jury as much
as testimony about Lee’s involvement in the murder of Joey Wavra,
which had been part of the government’s case.” Lee, 274 F.3d at
494. Similarly, in rejecting Lee’s argument that his trial lawyers
should have done more to investigate the Wavra murder, [the
District Court] acknowledged evidence of Lee’s participation in that
crime was “powerful and likely contributed to or influenced the
jury’s ultimate decision” in favor of a death sentence. Lee, 2008 WL
4079315, at *45.
Lee, No. 4:97-cr-00243-KGB, Dkt. 1313 at 7-9 (citations omitted).
For his Brady claim, Mr. Lee contends that the United States suppressed
exculpatory evidence regarding the legal proceedings associated with Mr.

A29

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 9 of 26 PageID #: 1228

Wavra’s murder. For his Napue claim, he contends that in the penalty phase of
his trial the United States created a false impression to the jury regarding his
conviction associated with Mr. Wavra’s murder. In support of these claims, Mr.
Lee presents as evidence, among other things, a fee application from the defense
attorney who represented Mr. Lee during the Oklahoma state court proceedings,
including the preliminary hearing on the murder charge. The fee application
states: “The matter came on for hearing before Judge Hall; District Attorney
called witness; hearing held; Court finds crime of Murder I not established by
evidence; Court recommends a Dismissal of Murder I charges and State consider
refiling on charge of Robbery I.” Dkt. 1-13 at 3. Mr. Lee contends the United
States withheld evidence that the murder charge was dropped due to a lack of
probable cause and falsely told the jury that Mr. Lee was “legally” responsible for
Mr. Wavra’s murder.
Because Mr. Lee brings his claims in a § 2241 petition, the Court must
first determine whether his claims can pass through the Savings Clause and
then evaluate whether he has a significant possibility of success on the merits of
his Brady and Napue claims. Garza, 253 F.3d at 920 (cautioning courts not to
conflate the two questions). Although these inquiries somewhat overlap in this
case, they are distinct. Id. at 923. The Court addresses each question in turn.
1.

Availability of § 2241 4

The undersigned recently confronted similar issues in Purkey v. United States,
No. 2:19-cv-00414-JPH-DLP (S.D. Ind. Nov. 20, 2019). Purkey also involved a
federal death row inmate with an upcoming execution date who sought to raise
constitutional claims via § 2241. Ultimately, the Court rejected Mr. Purkey’s
4

A30

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 10 of 26 PageID #: 1229

“As a general rule, a federal prisoner wishing to collaterally attack his
conviction or sentence must do so under § 2255.” Chazen v. Marske, 938 F.3d
851, 856 (7th Cir. 2019).

But Congress created the Savings Clause within

§ 2255 as a narrow exception to the “general rule” that requires a federal prisoner
to bring a collateral attack under § 2255. Determining whether the Savings
Clause is met is a “very knotty procedural issue” of “staggering” complexity.
Chazen, 938 F.3d at 855-56.

While it is “hard to identify exactly what [the

Savings Clause] requires,” id. at 863 (Barrett, J., concurring), several guiding
principles have emerged from the Seventh Circuit.
Under the Savings Clause, a prisoner can seek a writ of habeas corpus
through an action under § 2241 if the prisoner can show “that the remedy by
[§ 2255] motion is inadequate or ineffective to test the legality of his detention.”
28 U.S.C. § 2255(e). “Only in rare circumstances” is the Savings Clause met.
Light v. Caraway, 761 F.3d 809, 812 (7th Cir. 2014) (citations and quotations
omitted).

Section 2255 is inadequate or ineffective in a specific case only when

there is “some kind of structural problem with section 2255.” Webster, 784 F.3d
at 1136. A structural problem requires “something more than a lack of success
with a section 2255 motion.” Id. It must “foreclose[] even one round of effective
collateral review, unrelated to the petitioner’s own mistakes.” Poe v. LaRiva, 834
F.3d 770, 773 (7th Cir. 2016) (citation and quotation omitted). At bottom, the
Savings Clause is met when a structural problem with § 2255 prevented a federal

arguments, concluding that none of his claims could be brought in a § 2241
petition, and denied his petition. See id., Dkt. 76.

A31

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 11 of 26 PageID #: 1230

prisoner from having “‘a reasonable opportunity [in a prior § 2255 proceeding] to
obtain a reliable judicial determination of the fundamental legality of his
conviction and sentence.’” Chazen, 938 F.3d at 856 (alteration in original)
(quoting In re Davenport, 147 F.3d 605, 609 (7th Cir. 1998)); see Davenport, 147
F.3d at 609 (suggesting that § 2255 is inadequate or ineffective if the prisoner
did not have “an unobstructed procedural shot at getting his sentence vacated”).
There is a significant possibility that Mr. Lee has met this standard. First,
in all three circumstances where the Seventh Circuit has found the Savings
Clause met—Davenport, Garza, and Webster—it recognized that § 2241 is
available to challenge the “fundamental legality” of a sentence, not just a
conviction. See Webster, 784 F.3d at 1136 (discussing this holding in Davenport
and Garza). Mr. Lee seeks to challenge the fundamental legality of his death
sentence.
Second, as in Webster, Mr. Lee purports to rely on newly discovered
evidence to show that his death sentence is unconstitutional. Webster suggests
that the structure of § 2255 generally, and the language of the Savings Clause
in particular, encompasses such claims, especially since § 2255(h) does not
authorize raising such a claim in a second or successive § 2255 motion. See
Webster, 784 F.3d at 1138. If principles of statutory interpretation alone do not
lead to this conclusion, Webster instructs that the “next step would be to take
into account the fact that a core purpose of habeas corpus is to prevent a
custodian from inflicting an unconstitutional sentence,” which is what Mr. Lee
attempts to show here. Id. at 1139.

A32

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 12 of 26 PageID #: 1231

Third, and most importantly, if Mr. Lee is correct that his Brady and Napue
claims rest on newly discovered evidence, he meets the core of the Savings
Clause test as described by the Seventh Circuit. Mr. Lee could not have raised
these claims until the evidence was discovered, which he says was not until after
his initial § 2255 proceedings had concluded. His initial § 2255 thus did not
present him with a “‘reasonable opportunity . . . to obtain a reliable judicial
determination of the fundamental legality of his conviction and sentence,’”
Chazen, 938 F.3d at 856 (quoting Davenport, 147 F.3d at 609), or “an
unobstructed procedural shot at getting his sentence vacated,” Davenport, 147
F.3d at 609, based on these claims. Moreover, an opportunity to pursue these
claims is not available in the District Court of conviction. His attempts to raise
his Brady and Napue claims in that court were already denied on procedural
grounds, and § 2255(h) forecloses any further attempts to pursue them there.
See Lee v. United States, No. 19-2432 (8th Cir. Nov. 4, 2019); Lee, No. 4:97-cr00243-KGB, Dkt. 1313.
Applied to the facts presented in this case, the structure of § 2255 prevents
the District Court of conviction from hearing a claim based on newly discovered
evidence that the United States suppressed evidence and misled the jury during
Mr. Lee’s penalty phase.

This could result in an unconstitutional death

sentence. These considerations constitute the “something more” necessary to
meet the Savings Clause. Webster, 784 F.3d at 1136.
While the parties vigorously dispute whether the evidence identified by Mr.
Lee qualifies as “newly discovered”, this only reinforces the need to stay Mr. Lee’s

A33

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 13 of 26 PageID #: 1232

execution and permit additional discovery. 5 At this stage, Mr. Lee has shown
there is a significant possibility that there is newly discovered evidence to
support his claims and that there may be additional discoverable evidence to
support them. Whether Mr. Lee can ultimately prevail by demonstrating that
the evidence exists and is newly discovered is a question for another day. But
that determination, particularly in a death penalty case, should be made on a
fully developed record. See Dkt. 14 at 72 (the United States agreeing that “the
fee application does not exclude the possibility that the hearing took place as Lee
imagines”); id. at 77 (the United States acknowledging that “it is not clear
whether the [Oklahoma] court made that recommendation [to drop the murder
charge] at the request or with the acquiescence of the prosecutors as a part of a
negotiated plea disposition”).
Granting Mr. Lee limited relief, that is, a stay of execution without ruling
on the merits of his petition, is essentially what happened in Webster.

The

Seventh Circuit held that Mr. Webster’s claims were not “barred as a matter of
law” by the Savings Clause, but it remanded to the District Court for further
factual development to determine whether the Savings Clause was met. Webster,
784 F.3d at 1145-46 (ordering the District Court to hold a hearing to determine
whether certain facts are true that bear on whether the Savings Clause is met).
2.

Brady and Napue Claims

Mr. Lee’s motion for discovery is presently pending before the Court. The Court
will address this motion by separate order.

5

A34

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 14 of 26 PageID #: 1233

The Court turns next to whether there is a significant possibility that Mr.
Lee will be able to prevail with his Brady and Napue claims. Although Brady
and Napue claims are distinct, they are related and thus discussed together. See
Long v. Pfister, 874 F.3d 544, 549 (7th Cir. 2017) (en banc) (“The Napue-Giglio
rule is a cousin to the Brady doctrine.”) The Court begins by setting forth the
legal standards governing these claims before discussing whether Mr. Lee has
shown a significant possibility that they are meritorious.
The Supreme Court in Brady held that “the suppression by the
prosecution of evidence favorable to an accused upon request violates due
process where the evidence is material either to guilt or punishment, irrespective
of the good faith or bad faith of the prosecution.” 373 U.S. at 87; see Snow v.
Pfister, 880 F.3d 857, 867 (7th Cir. 2018) (“The failure to disclose [exculpatory]
evidence is a violation of the accused’s due process rights.”). To establish a
Brady violation, a petitioner must show three things: “first, that the evidence at
issue was favorable; second, that the evidence was suppressed; and third, that
it was material to his defense.” Socha v. Richardson, 874 F.3d 983, 987 (7th Cir.
2017).
In Giglio, the Supreme Court “made clear that deliberate deception of a
court and jurors by the presentation of known false evidence is incompatible
with rudimentary demands of justice.”

405 U.S. at 153.

Relatedly, “Napue

stands for the proposition that prosecutors may not suborn perjury, and holds
that a defendant’s due-process rights are violated when the government obtains
a conviction through the knowing use of false testimony.”

United States v.

A35

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 15 of 26 PageID #: 1234

Hilliard, 851 F.3d 768, 782 (7th Cir. 2017); see Bland v. Hardy, 672 F.3d 445,
447 (7th Cir. 2012) (“Napue and Giglio hold that a prosecutor may not offer
testimony that the prosecutor knows to be false.”). To establish a due-process
violation under Napue, Mr. Lee must show “‘(1) that there was false testimony;
(2) that the government knew or should have known it was false; and (3) that
there is a likelihood that the false testimony affected the judgment of the jury.’”
United States v. Cardena, 842 F.3d 959, 976-77 (7th Cir. 2016) (quoting United
States v. Freeman, 650 F.3d 673, 678 (7th Cir. 2011)). Together, the Brady and
Napue doctrines are “two manifestations of the principle that prosecutors must
expose material weaknesses in their positions.” Long, 874 F.3d at 549.
Mr. Lee asserts that he made two separate Brady requests—one shortly
after trial counsel was appointed and another after the United States moved to
amend its notice of intent to seek a death sentence. The United States does not
dispute this and responds that it complied with its obligations under Brady.
Mr. Lee argues that the United States violated Brady by not disclosing that
the Oklahoma judge in the Wavra case found probable cause did not exist to
support a murder charge against Mr. Lee. He argues that the United States then
violated Napue by falsely stating to the jury that Mr. Lee was legally responsible
for Mr. Wavra’s murder and that his robbery plea was a gift from the Oklahoma
prosecutor. Dkt. 1 at 46-64.
Some elements of Mr. Lee’s Brady and Napue claims are readily met while
others are not as clear.

But at this juncture, Mr. Lee’s obligation is not to

A36

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 16 of 26 PageID #: 1235

conclusively prove-up those claims. It is to show a significant possibility that he
can do so.
i. Materiality and Favorability Elements
The District Court of conviction previously found that the Brady evidence
was material (and thus favorable). Lee, No. 4:97-cr-00243-KGB, Dkt. 1313 at
14 (“[A]ssuming that the Oklahoma state court held at a preliminary hearing that
the evidence was insufficient to establish probable cause that Lee was guilty of
murdering Joey Wavra, that evidence is material. In light of the government’s
reliance on the Wavra murder during sentencing, it is reasonably likely that, if
it had been discovered at trial that the Oklahoma court found the evidence
insufficient to establish that Lee was guilty of murder, the outcome at sentencing
would have been different.”).

The Court sees no basis to disagree with that

finding at this stage of the proceedings.
As noted above, the Wavra murder was central to the United States’
penalty-phase case. And it was at least part of the United States’ argument for
why Mr. Lee should be sentenced to death even after the jury had sentenced his
more culpable co-defendant, Mr. Kehoe, to life. See, e.g., Dkt. 14-6 at 9 (the
United States arguing during closing that Mr. Lee’s involvement in “the Joey
Wavra murder . . . alone illustrates this drastic distinction on several levels
between Danny Lee and Chevie Kehoe”); id. at 11 (the United States arguing
during closing that Mr. Lee “has an earlier murder under his belt,” which the
jury “should consider in distinguishing Lee from Kehoe because Lee has been

A37

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 17 of 26 PageID #: 1236

here before”). There is thus a significant possibility Mr. Lee can establish the
materiality and favorability elements of his Brady claim.
ii. False Evidence that Affected the Judgment of Jury
Mr. Lee has also established a significant possibility that two of the Napue
elements are met. First, there is a significant possibility that Mr. Lee may be
able to show that the United States misled the jury when it stated during the
penalty phase that Mr. Lee was “legally” responsible for Mr. Wavra’s murder and
that his robbery plea was a “gift” from the Oklahoma prosecutor. Dkt. 14-6 at
10 (“I would suggest to you both legally and morally the blood of Joey Wavra’s
hands is on Danny Lee.”); Dkt. 14-2 at 45 (“[Mr. Lee] got a gift in [the Wavra]
case from the prosecutors in Oklahoma. They gave him a plea bargain. And this
allowed him to get off with just a robbery.”). The fee application alone—which
suggests that an Oklahoma judge determined that probable cause did not exist
to charge Mr. Lee with murder—casts significant doubt on whether these
statements were true.

Second, for the same reasons the Brady materiality

element is met, there is a significant possibility that Mr. Lee may be able to show
that this narrative affected the judgment of the jury.
iii. Was the Information Suppressed and Did the United States Knowingly
Make False Statements
This leaves two intensely disputed issues: whether the United States
suppressed information regarding the plea agreement (for the Brady claim) and
whether the United States knew or should have known that the statements at
issue were false (for the Napue claim). Beginning with the former, the United

A38

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 18 of 26 PageID #: 1237

States argues that this element cannot be met because publicly available
information is not considered suppressed for purposes of a Brady claim, and the
fee application was a “publicly-available document [that] was readily available to
Lee.” Dkt. 14 at 69; id. (“Lee’s lawyers were well aware that the government
intended to introduce evidence about the Wavra murder at Lee’s sentencing
hearing and easily could have obtained a copy of the fee application.”).
Mr. Lee responds that the information surrounding Mr. Lee’s guilty plea to
the robbery charge, rather than the fee application, is the Brady material. In
other words, Mr. Lee says the fee application is only evidence of a Brady violation.
See Dkt. 15 at 21 (“The Government consulted with detective from the Oklahoma
City Police Department who were involved with the [Wavra] case, who
interrogated the juvenile Danny Lee, and who testified at the preliminary hearing
of . . . David Patton [Mr. Lee’s cousin who was convicted of murdering Mr. Wavra].
Mr. Lee alleges that the Government, as part of these or other discussions, must
have learned of facts exculpatory to Mr. Lee and failed to disclose them. [Mr.
Lee’s] claim is that this information—i.e., the facts surrounding that plea—
constitutes Brady material.”).
While further factual development is necessary to resolve these issues, Mr.
Lee has presented substantial grounds for his claim that the United States
suppressed exculpatory information relating to Mr. Lee’s robbery plea.

The

evidence presented thus far demonstrates a significant possibility that Mr. Lee
may be able to show that the United States knew that the robbery plea was

A39

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 19 of 26 PageID #: 1238

offered to Mr. Lee after an Oklahoma judge determined that probable cause to
charge Mr. Lee with murder did not exist.
In addition to the fee application from the Oklahoma case file there is
evidence that Federal Bureau of Investigation (“FBI”) Agents traveled to
Oklahoma “to review and obtain all records” regarding Mr. Wavra’s murder, and
that they reviewed the local prosecutor’s file on the Wavra case. 6 See Dkt. 18-1;
Dkt. 18-2. The United States does not dispute Mr. Lee’s contention that none of
the information or records gained from this investigation was disclosed to Mr.
Lee. Moreover, the United States acknowledges it does not know much about
the circumstances surrounding Mr. Lee’s plea agreement in the Wavra case. The
United States agrees that “the fee application does not exclude the possibility
that the hearing took place as Lee imagines”—that is, that the Oklahoma judge
found there was no probable cause to charge Mr. Lee with murder. Dkt. 14 at
72. The United States further acknowledges that “it is not clear whether the
[Oklahoma] court made that recommendation at the request or with the
acquiescence of the prosecutors as a part of a negotiated plea disposition.” Id.
at 77.
The evidence presented by Mr. Lee, particularly when viewed in the context
of what the United States admittedly does not know, is sufficient to demonstrate
a significant possibility that Mr. Lee may be able to show that the United States
Mr. Lee also points out that one of the Oklahoma detectives who investigated
Mr. Wavra’s murder testified for the United States during its case-in-chief, Dkt.
14-2 at 51-52, and the United States also consulted with the Oklahoma detective
who interrogated Mr. Lee regarding the murder, id. at 11-12.

6

A40

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 20 of 26 PageID #: 1239

had exculpatory information regarding Mr. Lee’s robbery plea, and that it knew
or should have known the arguments and statements made at the penalty phase
regarding the circumstances surrounding Mr. Lee’s plea in the Wavra case were
misleading. 7
While further factual development is necessary for the Court to be able to
determine whether Mr. Lee is entitled to habeas relief, he has established
substantial grounds for his Brady and Napue claims. This is sufficient for the
immediate remedy he seeks, a stay of execution.
B. Irreparable Harm
The irreparable harm to Mr. Lee is clear: absent a stay, he could be
executed on December 9, 2019, before he can fully litigate his Brady and Napue
claims. See Williams v. Chrans, 50 F.3d 1358, 1360 (7th Cir. 1995) (holding that
“irreparable harm is taken as established in a capital case” because “[t]here can
be no doubt that a defendant facing the death penalty at the hands of the state
faces irreparable injury”). The United States rightfully concedes that Mr. Lee
faces irreparable harm. Dkt. 20 at 3.
C. Balance of Harms

As to the United States’ argument that publicly available evidence cannot be
suppressed under Brady, at best, more information is needed to determine
whether the alleged Brady information was publicly available at the time. All the
United States has offered is that the fee application “is listed on the public docket
sheet from the Oklahoma case and contained within the publicly-available court
file.” Dkt. 14 at 69. Whether or not this alone establishes that the fee application
was publicly available at the time of Mr. Lee’s trial, it says nothing about whether
the other alleged Brady material was publicly available.
7

A41

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 21 of 26 PageID #: 1240

The Court must next balance the harms to the parties. Again, absent a
stay, Mr. Lee could be executed even though there is a significant chance his
death sentence was obtained in violation of his constitutional rights. The harm
to the United States stems from its “strong interest” in “proceeding with its
judgment.” Lambert, 498 F.3d at 452. A stay will delay this outcome.
When considered in the full context of Mr. Lee’s challenges to the
constitutionality of his death sentence, the harm to Mr. Lee far outweighs the
harm to the United States. Much of the twenty-year delay in proceeding with
the judgment is attributable to the United States, which demonstrates that it
lacked urgency about proceeding with its judgment against Mr. Lee until very
recently.
Since he was sentenced to death in 1999, Mr. Lee has been consistently
challenging the constitutionality of his death sentence. During that litigation,
both Mr. Lee and the United States requested and received several unopposed
extensions of time. Significant delays in resolving this litigation, however, fall
solely upon the United States. For example, Mr. Lee petitioned the United States
Supreme Court for a writ of certiorari on April 13, 2016, and the United States
did not file its response until nearly a year later, having obtained nine extensions
of time. See Lee v. United States, No. 15-8942. This undermines its position
that any additional delay will cause significant harm to its interests.
Similarly, the United States waited eight years—from 2011 to 2019—to
adopt a new execution protocol.

See In re the Federal Bureau of Prisons’

Execution Protocol Cases, No. 1:19-mc-00145-TSC, Dkt. 50 at 14. Only after it

A42

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 22 of 26 PageID #: 1241

announced the new execution protocol and scheduled Mr. Lee’s execution has
the United States exhibited its current level of urgency to enforce its criminal
judgments.

This too undermines the notion that additional delay will cause

significant harm.
Finally, the United States has not acted with the necessary urgency even
in this litigation. Mr. Lee filed this action on September 26, 2019, when his
execution date was two-and-a-half months away. Given this, the Court gave
each party two weeks to file their respective briefs and warned both parties that
the Court did not “anticipate extending these deadlines absent extraordinary
circumstances.” Dkt. 6 at 1. Nevertheless, the United States requested (over
Mr. Lee’s objection) a twenty-eight-day extension of time because the attorneys
assigned to the matter “had previously-existing responsibilities that prevented
them from turning their full attention immediately to this case.” Dkt. 10 at 3.
Failing to adequately staff this case with counsel that could devote their full
attention to it such that Court-ordered deadlines must be extended further
undermines the notion that the harm to the United States of additional delay
would be significant.
Given that the United States has significantly contributed to delays in
scheduling Mr. Lee’s execution and resolving Mr. Lee’s legal challenges, the
Court concludes that the additional delay caused by a stay in Mr. Lee’s execution
will only minimally harm the United States. Such minimal harm is substantially
outweighed by the harm to Mr. Lee should a stay not issue. Accordingly, the
balance of harms strongly favors staying Mr. Lee’s execution.

A43

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 23 of 26 PageID #: 1242

D. Public Interest
While the public has an interest in the enforcement of Mr. Lee’s criminal
judgment, that interest is significantly diminished in this case. Mr. Lee has
presented substantial
unconstitutional.

grounds for

claims that

his death

sentence is

The public interest is not served by permitting the execution

of Mr. Lee when such potentially meritorious claims have not been evaluated by
any court. Furthermore, while not dispositive to the public interest prong of the
preliminary injunction test, several family members of the victims, the lead
prosecutor, and the District Judge who presided over the trial all oppose Mr. Lee
being executed. See Dkt. 1-2; Dkt. 17-1; Dkt. 17-2; Dkt. 17-3.
E. Unnecessary Delay
Before staying an execution, the Court must consider “the extent to which
the inmate has delayed unnecessarily in bringing the claim.” Nelson, 541 U.S.
at 649-50; see Lambert, 498 F.3d at 451.

“[T]here is a strong equitable

presumption against the grant of a stay where a claim could have been brought
at such a time as to allow consideration of the merits without requiring entry of
a stay.” Nelson, 541 U.S. at 650.
The United States contends that Mr. Lee could have brought his Brady
and Napue claims in 2014 when he was aware of the fee application forming the
basis of those claims. Dkt. 20 at 7. Mr. Lee maintains he has been diligently
and constantly litigating his claims in the Eighth Circuit, and he has been
specifically litigating his Brady and Napue claims long before he had an
execution date. Dkt. 21 at 1-2.

A44

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 24 of 26 PageID #: 1243

While it is certainly feasible that Mr. Lee could have raised his Brady and
Napue claims earlier than he did in the Eighth Circuit, when considered in the
context of the lengthy procedural history of this case, Mr. Lee has been diligently
pursing his claims. Mr. Lee’s direct appeal concluded in June 2005. See Lee v.
United States, 545 U.S. 1141 (2005). His § 2255 proceedings concluded over
nine years later, in October 2014. See Lee v. United States, 135 S. Ct. 72 (2014).
Before the § 2255 proceeding concluded, Mr. Lee had already begun litigating
the ineffective assistance claims he raises here by way of a post-judgment motion
in his original § 2255 proceeding. That litigation concluded in December 2015.
See United States v. Lee, 811 F.3d 272 (8th Cir. 2015).
Perhaps most importantly, Mr. Lee raised his Brady and Napue claims in
the District Court of conviction in September 2018, long before July 2019, when
his execution date was set. Moreover, he raised them in this § 2241 action before
he knew with certainty that he did not have an avenue to raise them via § 2255.
His application for a certificate of appealability was pending before the Eighth
Circuit when his execution date was announced, and it remained pending when
he filed this action.
The foregoing is important context for considering whether Mr. Lee has
unnecessarily delayed pursuing his claims. Given that (1) the United States has
not executed any federal death row prisoner for 16 years; (2) it did not adopt an
execution protocol under which it could execute Mr. Lee for 8 years; (3) during
the 20 years since Mr. Lee was sentenced to death he has been almost constantly
engaged in litigation regarding the constitutionality of his death sentence; (4) Mr.

A45

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 25 of 26 PageID #: 1244

Lee began litigating his Brady and Napue claims in his court of conviction well
before his execution date was set; and (5) that litigation remained pending when
Mr. Lee’s execute date was set and when Mr. Lee brought the instant § 2241
petition in this Court, the Court concludes that Mr. Lee has not unnecessarily
delayed in bringing his Brady and Napue claims such that a stay is unwarranted.
This is not a case where an inmate waited until an execution date was set or
until the eve of his execution to bring claims that could have been brought much
earlier. Cf. Dunn v. Price, 139 S. Ct. 1312, 1312 (2019); Price v. Dunn, 139 S. Ct.
1533, 1535-40 (2019) (Thomas, J., dissenting); Gomez v. United States Dist.
Court for Northern Dist. of Cal., 503 U.S. 653, 654 (1992) (per curiam).
IV.
For the reasons explained above, Daniel Lewis Lee’s execution scheduled
for December 9, 2019, is STAYED.

Mr. Lee has demonstrated substantial

grounds upon which to challenge the legality of his execution. Specifically, the
structure of § 2255 prevents the District Court of conviction from hearing his
claims that are based on newly discovered evidence.

Mr. Lee has also

demonstrated a significant possibility that he may be able to prevail on those
claims by showing that the United States suppressed evidence and misled the
jury during his penalty phase. In the end, Mr. Lee may not be able to make this
showing. For now, he must have a reasonable opportunity to obtain a reliable
judicial determination of these challenges to the fundamental legality of his
sentence.

A46

Case 2:19-cv-00468-JPH-DLP Document 27 Filed 12/05/19 Page 26 of 26 PageID #: 1245

Mr. Lee has also established that the other factors the Court must consider
before issuing a stay weigh in his favor. This includes the Court’s conclusion
that Mr. Lee has not unnecessarily delayed pursuing his claims.
pursuing these claims well before his execution date was set.

He was

There is no

concern that Mr. Lee waited to raise his claims on the eve of his execution simply
as a delay tactic.
A separate order staying Mr. Lee’s execution shall issue. Counsel for the
United States are responsible for ensuring that the Warden of the United States
Penitentiary in Terre Haute, Indiana, the United States Marshal for this District,
and all other officials who would have any involvement in Mr. Lee’s execution are
notified of this stay and comply with its requirements.
SO ORDERED.

Date: 12/5/2019

Distribution:
Michael Scott Gordon
US Attorney's Office - Eastern District of Arkansas
michael.gordon@usdoj.gov
George Gust Kouros
FEDERAL CAPITAL HABEAS PROJECT
george_kouros@fd.org
Morris H. Moon
FEDERAL CAPITAL HABEAS PROJECT
Morris_Moon@fd.org
John M. Pellettieri
U.S. DEPARTMENT OF JUSTICE
john.pellettieri@usdoj.gov

A47

Case: 19-3399

Document: 7

Filed: 12/06/2019

Pages: 3

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604

Submitted December 6, 2019
Decided December 6, 2019

Before
FRANK H. EASTERBROOK, Circuit Judge
DIANE S. SYKES, Circuit Judge
AMY C. BARRETT, Circuit Judge

No. 19-3399

Appeal from the United States
District Court for the Southern
District of Indiana, Terre Haute
Division.

DANIEL LEWIS LEE,
Petitioner-Appellant,
v.

No. 2:19-cv-00468-JPH-DLP
James Patrick Hanlon, Judge.

T. J. WATSON, Warden, et al.,
Respondents-Appellants.

Order
Daniel Lewis Lee has been convicted of three murders and sentenced to
death. His convictions and sentences have been affirmed by the Eighth Circuit,
and multiple requests for collateral relief under 28 U.S.C. §2255 have failed on
the merits or for lack of the authorization required by 28 U.S.C. §2244(b)(3) and
§2255(h). See 274 F.3d 485 (8th Cir. 2001); 374 F.3d 637 (8th Cir. 2004); 715 F.3d
215 (8th Cir. 2013); 792 F.3d 1021 (8th Cir. 2015); No. 19-2432 (8th Cir. Nov. 4,
2019).

A48

Case: 19-3399
No. 19-3399

Document: 7

Filed: 12/06/2019

Pages: 3
Page 2

In July 2019 the United States scheduled Lee’s execution for December 9,
2019. Two months later he filed a petition for a writ of habeas corpus under 28
U.S.C. §2241 in the Southern District of Indiana, where he is confined. He
requested a stay of execution but later withdrew that request. Yesterday,
notwithstanding the request’s withdrawal, a district judge stayed Lee’s
execution. The judge recognized that §2255(e) forecloses resort to §2241 unless a
motion under §2255 is inadequate or ineffective to test the validity of the
conviction and sentence. The district judge was not prepared to say that
§2255 is ineffective to test the validity of Lee’s death sentence; instead he wrote
that there is a “significant possibility” (slip op. 11) that Lee may be able to meet
the standard of §2255(e), that evaluating Lee’s arguments will take more time,
and that his execution therefore should be deferred.
This decision does not conclude that Lee has satisfied the standards for stays
prescribed in Nken v. Holder, 556 U.S. 418 (2009). Before receiving a stay, an
applicant must make a “strong showing” of probable success on the merits. Id. at
434. The prospect of irreparable injury is not itself enough. The district judge did
not conclude that Lee is likely to succeed on the merits or that he has a “strong”
prospect of doing so. As far as we can see, the likelihood of success is slim. Lee
makes two substantive arguments—that he received ineffective assistance of
counsel at sentencing and that the prosecutor concealed or suppressed
exculpatory or impeaching evidence. Arguments of those kinds are regularly
made and resolved under §2255.
Webster v. Daniels, 784 F.3d 1123 (7th Cir. 2015) (en banc), holds that §2255
may be deemed inadequate or ineffective if the provision for successive collateral
attacks in §2255(h) does not permit a prisoner to present factual developments
that could not have been litigated earlier. The district court stated that there is a
“significant possibility” that Lee “may” be able to satisfy the standard of Webster,
but the court did not conclude that there is a “strong showing” either
that Webster’s standard has been met or that Lee would be entitled to relief on the
merits if the issues he raises were relitigated. Indeed, the judge did not explain
why there is even a “significant possibility” that the supposedly newly
discovered evidence is in fact newly discovered, as Webster uses that phrase.
The principal “newly discovered” evidence on which Lee relies is a statement
made on the record by a judge decades ago and available from that state court.
Indeed, the statement was made in Lee’s presence, and although he may not
have understood its potential significance that is some distance from the
information being concealed or unavailable. See Webster, 784 F.3d at 1140

A49

Case: 19-3399
No. 19-3399

Document: 7

Filed: 12/06/2019

Pages: 3
Page 3

(explaining that evidence is not “newly discovered” if the defense could have
accessed it with due diligence); see also United States v. Shields, 789 F.3d 733, 746–
47 (7th Cir. 2015) (publicly available court records accessible with due diligence
are not Brady material).
One further observation. The grant of a stay entails equitable as well as legal
considerations. Lee did not attempt to use §2241 for more than four years after
the Eighth Circuit rejected the last of his contentions, and more than four years
after, by his own account, he obtained the evidence that he characterizes as
newly discovered. Even after an execution date was set, he waited a further two
months to seek a writ of habeas corpus. It is understandable that a district judge,
entertaining a request for relief from capital punishment, would want to take a
hard look at the matter, a look that may take more time than the impending
execution date permits. But someone who waits years before seeking a writ of
habeas corpus cannot, by the very act of delay, justify postponement of the
execution. See Nelson v. Campbell, 541 U.S. 637, 649–50 (2004).
The motion to vacate the stay of execution is granted.

A50

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

89 F.Supp.2d 1017
United States District Court,
E.D. Arkansas,
Western Division.
UNITED STATES of America
v.
Daniel Lewis LEE, a/k/a Daniel Lewis
Graham, D.L. Graham, and Danny Lee.
No. LR–CR–97–243(2).
|
March 21, 2000.
Synopsis
Defendant filed motion for a new sentencing phase trial,
and to require the Attorney General to follow the Death
Penalty Protocol found in the United States Attorney's
Manual before exercising her prosecutorial discretion in
deciding whether to withdraw or decertify the death penalty
notice in this case. The District Court, Eisele, J., held that:
(1) Government exceeded the permissible scope of crossexamination in its questioning of defendant's mental health
expert and in its examination of its rebuttal witness, and,
as a result, irreversibly compromised defendant's rights; (2)
defendant had right to enforce compliance with self-imposed
and internal procedures found in the Death Penalty Protocol;
and (3) Deputy Attorney General did not have the authority
under Death Penalty Protocol to make the final decision on the
U.S. Attorney's request to decertify the death penalty notice
for defendant.
Order in accordance with opinion.
Attorneys and Law Firms
*1018 Dan Stripling, Robert A. De La Cruz, U.S. Atty.'s
Office, E.D. Ark., Little Rock, AR, for U.S.
John T. Lassiter, Hatfield & Lassiter, Little Rock, AR,
Cathleen V. Compton, Little Rock, AR, for Defendants.

MEMORANDUM OPINION AND ORDER
REGARDING FUTURE DANGEROUSNESS
AND THE DEATH PENALTY PROTOCOL

There are two matters that are currently pending in Defendant
Danny Lee's case. First, Defendant Lee has filed a Motion
for a New Sentencing Phase Trial due to the improper
introduction of evidence regarding his alleged propensity for
future dangerousness. Second, this Court must resolve the
issue of whether Defendant Lee has the right to require the
Attorney General to follow the Death Penalty Protocol found
in the United States Attorney's Manual before exercising her
prosecutorial discretion in deciding whether to withdraw or
decertify the death penalty notice in this case. Each issue will
be considered separately.

FUTURE DANGEROUSNESS
I. Background
Defendant Lee and his co-defendant, Chevie Kehoe, were
convicted by a jury of participating in a pattern of racketeering
activity in violation of

18 U.S.C. § 1962(c), conspiring to

18 U.S.C.
violate the racketeering statute in violation of
§ 1962(d), and committing three violent acts in aid of
racketeering, namely three murders under Arkansas law, in
violation of 18 U.S.C. § 1959(a)(1). In separate sentencing
hearings, the same jury “recommended” that Defendant
Kehoe be sentenced to life without possibility of release for
each of the murders and that Defendant Lee be sentenced to
death for each of the three murders.
In its notice of intent to seek the death penalty against
Defendant Lee, the Government, as required by statute,
identified several aggravating factors that it anticipated using
at sentencing. For each of the murders, the Government
offered the following statutory aggravating factors: 1) that
Defendant Lee murdered each victim in expectation of the
receipt of anything of pecuniary value; 2) that Defendant
Lee murdered each victim after substantial planning and
premeditation; and 3) that Defendant Lee intentionally
killed or attempted to kill more than one person during
a single criminal episode. For the Sarah Powell murder,
the Government offered the additional statutory aggravating
factor that the victim was particularly vulnerable due to her
youth, that being eight years of age. For each of the murders,
the Government offered the non-statutory aggravating factor
of future dangerousness. It is the last of said factors, future
dangerousness, that is the subject of Defendant Lee's motion.

EISELE, District Judge.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A51

1

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

During the pre-trial stages of the case, Defendant Lee
retained a mental health expert to assist in his defense in the
event a sentencing hearing was necessary. The Government,
in turn, requested discovery from the Defendant as to
his mental health *1019 evidence so that it would be
able, if necessary, to rebut Defendant Lee's evidence. The
Government emphasized in its request:

The United States will not introduce
mental health evidence during its casein-chief in the penalty phase. Instead,
the United States would only use this
evidence to rebut any mental health
evidence introduced by the defendant
in his case-in-chief. If the defendant
does not introduce the evidence, the
United States will not introduce mental
health evidence.

Gov't Mot. for Disc. of Mental Health Evid. Re: Def. Lee,
Doc. No. 627, at 2 (emphasis in original). At that time,
the Government anticipated that Defendant Lee would use
his mental health expert to present mitigation evidence as
well as to rebut the Government's non-statutory aggravating
factor of future dangerousness. The Defendant objected to the
requested disclosure.
The Court, following the case of
United States v.
Beckford, 962 F.Supp. 748 (E.D.Va.1997), informed the
parties that it was inclined to grant the Government's request.
Consequently, the parties submitted to the Court a proposed
order, which the Court signed, setting forth a mental health
evidence disclosure process much like the procedure followed
in Beckford. See Order Re: Mental Health Issues–Defendant
Lee, Doc. No. 665, dated Mar. 31, 1999. Pursuant to the Order,
Defendant Lee was required to submit to an examination by
the Government's mental health expert.
As trial preparations continued, Defendant Lee and his
mental health expert, Dr. Mark Cunningham, a forensic
psychologist, ultimately decided not to attempt to rebut
the Government's evidence of future dangerousness. This
decision was based at least in part on the fact that pretrial rulings by United States Magistrate John F. Forster, Jr.,
prevented Dr. Cunningham from obtaining all the information
he felt necessary to complete a proper risk assessment. As

a result of said decision, Dr. Cunningham did not perform a
risk assessment for future dangerousness of Defendant Lee.
However, the Government's expert, Dr. Thomas Ryan, as part
of his examination of Defendant Lee, did perform a risk
assessment analysis.
During its case-in-chief at Defendant Lee's penalty phase
trial, the Government offered four factual instances in
support of its claim of future dangerousness. First, by way
of the testimony of Randall Yarbrough, Chai Choi, Brian
Compton, and Rochelle Ezzi, and the former testimony
of the Defendant, the Government presented evidence of
Defendant Lee's involvement in the murder of Joseph John
Wavra in Oklahoma when the Defendant was age seventeen.
Second, through the testimony of Nancy Cummings, the
Government presented evidence that Defendant Lee verbally
assaulted and threatened a Pulaski County Sheriff's Deputy
while incarcerated during the trial of this case. Third, the
Government offered into evidence a 1995 Florida conviction
record for Defendant Lee for the crime of carrying a concealed
weapon. Fourth, the Government presented evidence of
Defendant Lee's lack of remorse as evidenced by his
statements made to Gloria Kehoe. In sum, the Government's
case-in-chief was brief, covering only approximately eightytwo pages of transcript.
The Defendant offered the following mitigating factors in
his defense: 1) Defendant Lee's capacity to appreciate the
wrongfulness of his conduct or to conform his conduct to
the requirements of law was impaired, regardless of whether
his capacity was so impaired as to constitute a defense to
the charge; 2) Defendant Lee was under duress, regardless
of whether the duress was of such a degree as to constitute
a defense to the charge; 3) Defendant Lee does not have
a significant prior criminal record other than his juvenile
record; 4) Defendant Lee committed the killing or killings
under mental or emotional disturbance; 5) another person
equally culpable in the crimes will not be punished by *1020
death; 6) Defendant Lee was subjected to emotional and
physical abuse, abandonment and neglect as a child and
was deprived of the parental guidance and protection which
he needed; 7) Defendant Lee suffered from neurological
impairments that were identified and which could have been
treated when he was a child and adolescent; 8) Defendant Lee
suffers from brain dysfunction, which has gravely impaired
his ability to function in the absence of strong support
and guidance; 9) Defendant Lee was introduced to drugs
and alcohol while still a child; 10) Defendant Lee needs a
structured environment and would likely benefit from the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A52

2

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

structure of a prison; 11) Defendant Lee was only 22 years
old when the murders were committed; 12) Defendant Lee is
a follower and was under the influence of Chevie Kehoe and
possibly others at the time of the offense; 13) other persons
were involved in this racketeering enterprise and conspiracy
who will under the law receive no sentence or substantially
less punishment or were not prosecuted; and 14) Mr. Kirby
Kehoe was involved in the planning of the 1996 burglary of
the Muellers.
Defendant Lee presented exclusively mitigation evidence
in his defense; he did not attempt to rebut any of the
Government's evidence in support of aggravation. During
his defense, Defendant Lee presented the testimony of Dr.
Cunningham. Dr. Cunningham offered testimony concerning
Defendant Lee's life, concluding with his opinion of the
formative factors in Defendant Lee's life. Dr. Cunningham did
not offer risk assessment or future dangerousness testimony.
He limited his testimony to explaining Defendant Lee's
mitigators to the jury.
The Government's cross-examination of Dr. Cunningham was
extensive and the subject of much controversy. Finally, the
Government offered the testimony of Dr. Ryan in its rebuttal
case. Dr. Ryan's testimony is also the subject of dispute.
In his current Motion, Defendant Lee contends that he
was deprived of his right to a fair sentencing proceeding
in two respects. First, Defendant Lee contends that this
Court erred in permitting the Government to go as far as
it did during its cross-examination of Dr. Cunningham. In
particular, the Defendant asserts that the Government used its
cross-examination of Dr. Cunningham to improperly develop
new evidence of risk assessment and future dangerousness
that was neither permitted by the Court's instructions,
mentioned in the Government's case-in-chief, nor, reasonably
analyzed, covered in the Defendant's direct examination of
Dr. Cunningham. Second, Defendant Lee claims that the
Court erred in permitting the Government to go beyond the
scope of permissible rebuttal by questioning Dr. Ryan about
risk assessment and future dangerousness when such matters
were not raised by Defendant Lee in his defense, and further,
that such evidence of future dangerousness went beyond the
limits specifically set forth in the Court's instructions.

II. Discussion

A. Authority to Consider Motion
Before delving into the merits of these two arguments,
the Court must first decide if it has the authority to do so
upon Defendant Lee's post-conviction motion. Rule 33 of the
Federal Rules of Criminal Procedure provides, in relevant
part, that “the court may grant a new trial to th[e] defendant
if the interests of justice so require.” Furthermore, it is clear
that “[d]istrict courts have broad discretion in passing upon
motions for new trial and such rulings are subject to reversal
United States v.
only for a clear abuse of discretion.”
Saborit, 967 F.Supp. 1136, 1144 (N.D.Iowa 1997) (citing
Eighth Circuit cases).
Likewise,
Fed.R.Cr.P. 35(c) provides, in relevant part,
that “[t]he court, acting within 7 days after the imposition
of sentence, may correct a sentence that was imposed as a
result of arithmetical, technical, or other clear error.” Again,
such a ruling is left to the sound discretion of the *1021 trial
court. See United States v. Gruenberg, 53 F.3d 214, 215 (8th
Cir.1995) (considering
Rule 35(a) motion); United States
v. Jenkins, 105 F.3d 411, 411 (8th Cir.1997) (considering
Rule 35(b) motion); see also

United States v. Durham,

178 F.3d 796, 799 (6th Cir.1999) (considering
motion).

Rule 35(c)

The Government argues that the cited rules of criminal
procedure do not apply to a case under the Federal Death
Penalty Act of 1994 (“FDPA”). It contends that the trial
court has no post-sentencing authority other than to sentence
the Defendant as recommended by the jury and that the
Defendant's only method to obtain relief is on appeal as
provided in section 3595 of the FDPA. Clearly, the Federal
Rules of Criminal Procedure do not contemplate a case such
as Defendant Lee's because they were drafted long before the
FDPA came into existence. That is not to say, however, that
Congress, in drafting the FDPA, did not intend for the rules
of criminal procedure to apply. As the Fifth Circuit has aptly
stated:
The Federal Rules of Criminal Procedure apply to
sentencing hearings; Fed.R.Crim.P. 1 provides, “These
rules govern the procedure in all criminal proceedings in
the courts of the United States....” Rule 54, Fed.R.Crim.P.,
excludes certain proceedings, but not sentencing hearings.
Section 3593(c) waives rule 32(c)'s presentence report

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A53

3

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

requirement, which suggests the negative implication that
the Rules of Criminal Procedure usually do apply to
sentencing hearings under the FDPA.
United States v. Webster, 162 F.3d 308, 346 (5th Cir.1998),
cert. denied, 528 U.S. 829, 120 S.Ct. 83, 145 L.Ed.2d 70
(1999). Therefore, this Court has the authority it would have
in any other case to grant the Defendant post-sentencing or
post-conviction relief.
As a forethought, the Court acknowledges that Defendant
Lee's arguments are worthy of extremely careful scrutiny
because this is a death penalty case and, as such, Defendant
Lee's life is at stake. The court in
United States v. Pena–
Gonzalez, 62 F.Supp.2d 358, 360 (D.P.R.1999), appropriately
described decisions in death penalty cases as follows:

[This decision] entails the unique
gravity appropriate for capital cases.
Capital punishment is qualitatively
different from any other form of
criminal penalty we may impose.
Woodson v. North Carolina, 428
U.S. 280, 305, 96 S.Ct. 2978, 49
L.Ed.2d 944 (1976). With it, we
deny the convict any possibility of
rehabilitation and order instead his
execution, the most irrevocable of
sanctions.
Gregg v. Georgia, 428
U.S. 153, 187, 96 S.Ct. 2909, 49
L.Ed.2d 859 (1976). Its severity
demands a heightened need for
reliability in the determination that
death is the appropriate punishment
in a specific case.
Caldwell v.
Mississippi, 472 U.S. 320, 323, 105
S.Ct. 2633, 86 L.Ed.2d 231 (1985)
(citing
Woodson, 428 U.S. at 305,
96 S.Ct. 2978). We must be, therefore,
particularly sensitive to insure that
unique safeguards are in place
that comport with the constitutional
requirements of the Due Process
Clause of the Fourteenth Amendment

and the Eighth Amendment. Gregg,
428 U.S. at 187, 96 S.Ct. 2909.

Furthermore, it has been said that, “[i]n capital proceedings
generally, th [e] [Supreme] Court has demanded that
factfinding procedures aspire to a heightened standard of
reliability. This especial concern is a natural consequence of
the knowledge that execution is the most irremediable and
unfathomable of penalties; that death is different.”
Ford
v. Wainwright, 477 U.S. 399, 411, 106 S.Ct. 2595, 91 L.Ed.2d
335 (Marshall, J., plurality opinion) (citing
Spaziano v.
Florida, 468 U.S. 447, 456, 104 S.Ct. 3154, 82 L.Ed.2d 340
(1984); Woodson v. North Carolina, 428 U.S. 280, 305, 96
S.Ct. 2978, 49 L.Ed.2d 944 (1976)).

B. Examination of Dr. Cunningham
Turning to the merits, Defendant Lee first argues that
the Government exceeded the permissible scope of crossexamination *1022 in its questioning of Dr. Cunningham.
Section 3593 of the FDPA sets forth the procedure for a
death penalty sentencing hearing under the act:

At the sentencing hearing, information
may be presented as to any matter
relevant to the sentence, including
any mitigating or aggravating
factor permitted or required to
be considered under
section
3592.... The defendant may present
any information relevant to a
mitigating factor. The government
may present any information relevant
to an aggravating factor for which
notice has been provided ....
Information is admissible regardless
of its admissibility under the rules
governing admission of evidence at
criminal trials except that information
may be excluded if its probative
value is outweighed by the danger
of creating unfair prejudice, confusing
the issues, or misleading the jury....

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A54

4

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

Lee's life, how they treated him, what problems they
themselves had, and how their actions affected Defendant
Lee. Dr. Cunningham also testified about problems Defendant
Lee experienced growing up, such as medical problems,
problems in school, and substance abuse problems. In sum,
Dr. Cunningham's testimony amounts to an attempt to
explain to the jury how Defendant Lee's involvement in
the crimes for which he was convicted was affected by
external factors beyond the Defendant's control. Ultimately,
Dr. Cunningham declared that “My opinion is that Danny
Lee experienced many traumatic and adverse life experiences
that fundamentally shaped him. It shaped him neurologically,
psychologically, socially, emotionally and ethically, and that
I think contributed to his involvement in this offense.” Tr. at
7742.

The government and the defendant
shall be permitted to rebut any
information received at the hearing,
and shall be given fair opportunity to
present argument as to the adequacy
of the information to establish
the existence of any aggravating
or mitigating factor, and as to
the appropriateness in the case of
imposing a sentence of death. The
government shall open the argument.
The defendant shall be permitted to
reply. The government shall then be
permitted to reply in rebuttal. The
burden of establishing the existence
of any aggravating factor is on
the government, and is not satisfied
unless the existence of such a factor
is established beyond a reasonable
doubt. The burden of establishing the
existence of any mitigating factor is
on the defendant, and is not satisfied
unless the existence of such a factor is
established by a preponderance of the
information.

18 U.S.C. § 3593(c) (Supp.1999).
Rule 611(b) of the Federal Rules of Evidence provides
that “[c]ross-examination should be limited to the subject
matter of the direct examination and matters affecting the
credibility of the witness. The court may, in the exercise
of discretion, permit inquiry into additional matters as
if on direct examination.” Generally, the scope of crossexamination is limited to matters testified to on direct plus
matters bearing upon the credibility of the witness. United
States v. Thomas, 58 F.3d 1318, 1322 (8th Cir.1995);
Fed.R.Evid. 611 advisory committee's note. Furthermore,
restriction of the scope of cross-examination is a matter
committed to the sound discretion of the trial court.
States v. Lee, 743 F.2d 1240, 1249 (8th Cir.1984).

United

The Court has reviewed Dr. Cunningham's direct testimony
in painstaking detail. Dr. Cunningham, in large part, served
as a narrator for the events in Defendant Lee's troubled
life until he reached the age of seventeen or eighteen. 1 He
told the jury about the individuals involved in Defendant

Admittedly, Dr. Cunningham mentioned that Defendant Lee
exhibits anger, acting out, a lack of trust, and rebellious
behavior. *1023 He even stated that persons with histories
similar to that of Defendant Lee would be at risk for violence
in adulthood. However, Dr. Cunningham was very careful not
to offer any opinion on Defendant Lee's future dangerousness.
Indeed, as Dr. Cunningham himself stated, “the focus of
my evaluation ... was on formative factors that brought [the
defendant] to this place and was not specifically oriented
toward what is his diagnosis at this time.” Tr. at 7744. The
Government itself acknowledges that “Dr. Cunningham did
not make any diagnosis. Rather, he identified features of
Lee's life that made him at risk for a variety of psychological
conditions.” Gov't Briefre: Alleged Punishment Phase Error
Supplemental, Doc. No. 939, at 2 (emphasis omitted).
The Government, on the other hand, focused almost
exclusively on future dangerousness in its cross-examination
of Dr. Cunningham. The first substantive question posed by
the Government to Dr. Cunningham was “Do you have an
opinion whether or not Mr. Lee is a dangerous person, a
violent person, as he sits here today?” Tr. at 7745. The next
substantive question was “During [my] opening statement I
said to the jury that Mr. Lee is a violent man. Is that true?”
Tr. at 7745. At that point, counsel for Defendant Lee asked
to approach and made a motion in limine to exclude any
questioning as to risk assessment or future dangerousness: 2
MS. COMPTON: Actually I meant to make a motion
in limine at the end of my direct examination of
Dr. Cunningham. This becomes very important. Dr.
Cunningham did not perform a risk assessment on Danny

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A55

5

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

Lee. He did not come here and testify as to his future
dangerousness or lack thereof. Now, admittedly, in the
affidavit that he gave to the Court, he said that he might go
there. However, we did not do that. And I don't think that
Dr. Cunningham is going to be prepared to talk about risk
assessment and future dangerousness given the fact that he
and I decided not to go into that after [the Magistrate Judge]
overruled us on some of the issues that we had asked about
and additional tours of the Bureau of Prisons, additional
information that Dr. Cunningham was going to need if we
were going to do risk assessment and future dangerousness.
We are not.

Tr. at 7746–48. 3
When the Government resumed questioning, it again focused
on violence. The following is a complete list of the questions
posed by the Government to Dr. Cunningham from the time
of the aforementioned bench conference to the Court's recess
for the day on Wednesday, May 12, 1999:

Dr. Cunningham is doing strictly mitigation. I would
move in limine to keep the government from going into
an area which has not been brought out in direct and
which isn't going to be. His assessment is strictly as
to mitigation and not as to risk assessment of future
dangerousness. We are not prepared to go there.

Q. Is there a feature of his personality that he is a person
who likes violence? (Tr. at 7749).

THE COURT: I gather the report, which I have not seen,
does go beyond what you used on direct?
MS. COMPTON: No, sir.

—at some point I may feel that it's diminishing returns
here.

BY MR. LIROFF:
Q. Is this man, your client, Mr. Lee, is he a dangerous man?
(Tr. at 7748).

Q. This is, this offense is isolated in terms of the violence
that was displayed? Is that your answer? (Tr. at 7749).
Q. His record is replete with evidence of violence. (Tr. at
7750).

THE COURT: It does not?

*1025 Q. In terms of the contextual situation, it is across
the board. He has committed violence in institutions? (Tr.
at 7750).

MS. COMPTON: We don't do any risk assessment or
future dangerousness. It is strictly within mitigation and
psychological factors as has been testified to on direct.

Q. He has committed violence in institutions against peers?
(Tr. at 7750).

THE COURT: Well, he has identified himself as a
clinical and forensic psychologist with a Ph.D. degree.
He has had an intimate investigation of the Defendant, so
I think Mr. Liroff should be able to ask him in his opinion
if he is dangerous. Now, he can handle himself. If it's in
the area of his expertise and considering what has been
revealed about his intimate knowledge of the man, he can
inquire. I think the expert is fully capable of explaining
why he can't answer certain of these questions.

Q. I should say that in a more straightforward language.
While incarcerated, while in custody, he had assaulted other
patients or inmates? (Tr. at 7750).

*1024 MS. COMPTON: All right.

Q. Did you hear the comment he made a moment ago?
(Tr. at 7751, referring to the defendant's having stated
“Bullshit” in response to one of Mr. Liroff's questions).

THE COURT: He is in effect making him his own
witness, is he not, when he goes out of the realm of what
you've questioned him about. He runs somewhat of a
risk. But as far as just saying, no, you can't do that, I don't
think I'm in a position to do that. It's up to the witness
to say I'm not prepared to handle that, or I don't have
enough information to do it, or I need more studies or
whatever. So I'm going to let him inquire. The witness

Q. Are you aware that while incarcerated in this case
pending trial he assaulted other inmates? (Tr. at 7750–51).
Q. Doctor, I will get back to that. You answered that you
don't recall. He has no understanding or appreciation of the
enormity of this situation, does he? (Tr. at 7751).

Q. Do you know that's not the first time? (Tr. at 7751).
Q. Do you know that he regularly states pejorative obscene
insults to the lawyers in this case? (Tr. at 7751).
Q. Is that a sign of paranoia? (Tr. at 7751).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A56

6

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

Q. Let's talk about his violence. He has been violent in
institutions against staff? (Tr. at 7752).
Q. And recently there was an attempt or at least an
expression of threat of violence against staff? (Tr. at 7752).

Q. Were you aware of an incident where she tore up his
photograph of Adolph Hitler and he attacked her and the
police had to be called?
A. I heard that described. Yes, I did.

Q. This is the type of thing, one aspect, that suggests if
incarcerated he will continue to be a threat, present a threat
of violence? Yes? (Tr. at 7752).

Q. In your review of the records there is [sic] other
instances of violence, behavior, violent behavior by Mr.
Lee?

Q. So what you are saying is we have to see if he actually
hurts somebody first to see if he will hurt somebody? (Tr.
at 7753).

A. Yes, there is.

Q. You've testified, I believe today, that he exercises poor
judgment? (Tr. at 7753).
Q. Do you know of a study, scientific study, that says those
features go away when you enter a prison? (Tr. at 7753).
Q. Yesterday I used a term “psychopath.” The question is,
is that a psychological term? (Tr. at 7754).
Q. Do you recognize it? (Tr. at 7754).
Q. And does it come from a test, a psychological instrument
prepared by a Dr. Hare? (Tr. at 7754).
In this seven-page section alone, the Government used a
form of the word “violence” nine times and was able to
elicit from Dr. Cunningham in his responses fifteen mentions
of some form of the word “violence.” The next morning,
the Government continued to elicit testimony from Dr.
Cunningham relating to Defendant Lee's violent tendencies:

Q. Was there substantial discussion, excuse me, discussion
of the fact that Mr. Lee assaulted his sister, his younger
sister Carrie?
A. There was a reference to that as well, on a single
occasion as I recall.
*1026 Q. Was there, and I'm not sure how accurate it is,
I don't know if you were able to ascertain anything about
it, but there was also a reference of Mr. Lee assaulting his
mother?
******
Q. And there was also discussion in the record relating to
burglary offenses?
A. That's correct.
Q. That Mr. Lee broke into homes and took things?
A. There was a burglary II charge as I recall.

BY MR. LIROFF:

Q. Several?

Q. In the investigation in this case did you learn that during
the course of that relationship that Mr. Lee partook of
domestic violence as against Jennifer?

A. There's at least a single one and I think there's more than
one. I can look at my—

A. Yes, I did.
Q. And you learned that Mr. Lee in fact abused her
physically when she was pregnant with his child.
A. I heard testimony to that effect, that's correct.
Q. And in fact that there was a point when—have you seen
a police report relating to an incident of domestic violence
between Jennifer and Mr. Lee?
******

Q. That's fine. Will you agree there's more than one?
A. I believe that's the case.
Q. An arson offense?
A. That's correct.
Q. Threatening a state witness?
A. That's correct.
******

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A57

7

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

Q. And while Mr. Lee is at these facilities he's assaulting
other patients or inmates?
A. I don't know if the word assault is usually the case. They
talk about discharging him because of violence, they talk
about him being aggressive with staff and other patients
and making threats or being intimidating. There is not—I'm
hesitant to—“assault” has a connotation of a more serious
kind of attack or injury. I don't recall a description from the
records of an attack that was noted in the detail where they
said he did this, he really hurt somebody.

(Tr. at 7819). Ultimately, the Government, through Dr.
Cunningham, advised the jury that Dr. Ryan had diagnosed
Defendant Lee as a psychopath. Tr. at 7826.

C. Examination of Dr. Ryan
Defendant Lee also raises the issue of whether Dr. Ryan's
testimony was proper rebuttal. Prior to Dr. Ryan's testifying,
the Court limited the scope of said testimony as follows:

Q. Is it true that in the records they refer to a facility known
as D.H.S. and indicate that no, excuse me, that he was
placed at Wesleyan, W–E–S–L–E–Y–A–N and while there
he instigated an assault involving a staff member?

THE COURT: ... I'm going to grant the
Defendant Lee's motion in limine with
respect to the issue of psychopathy,
the Hare psychopathy test, and any
reference to the defendant being a,
quote, *1027 psychopath, unquote,
on the basis that such would not be
proper rebuttal.

A. It does indicate that he was—that's correct he was
admitted there on February 22, 1989, dismissed on March
10th as being unacceptable to their program because of
aggressiveness.
Q. And for example, while he was at St. Anthony's Hospital
he couldn't be kept there because they didn't feel that they
could treat him because of his aggressive behavior?
A. That's correct.
Q. He's described otherwise as intimidating and harassing
other patients?
A. That's correct.
Q. Physically abusive to patients?
A. Again, that's my general recollection. I don't have that
particular part of the chart in front of me.
Q. There's a reference that he was picked up on a string of
armed robberies?
Tr. at 7777–82.
From there, the Government's questioning of Dr. Cunningham
turned to the subject of psychopathy. Through the crossexamination of Dr. Cunningham, the Government was able
to define psychopathy and describe the characteristics of a
psychopath for the jury. Among the characteristics described
were lack of remorse (Tr. at 7805), impulsivity (Tr. at 7805),
poor behavioral control (Tr. at 7805), increased incidence of
predatory violence (Tr. at 7807), increased risk of violent
recidivism (Tr. at 7809), and not being amenable to treatment

Tr. at 7836. Despite said ruling, the Court is troubled by
several aspects of Dr. Ryan's direct testimony because of their
focus on Defendant Lee's alleged violent nature.
Q. Did your examination suggest that Mr. Lee was a person
who was suspicious?
A. Yes.
Q. Distrustful?
A. Yes.
Q. Angry?
A. Yes.
Q. There was a suggestion by Dr. Cunningham of a
particular test you performed called an MMPI and that he
talked about an elevated something, and he used the word
“paranoia.”
A. Yes.
Q. Could you explain what your tests showed in that area?
A. That test is a personality test. In fact, it's the most widely
used personality test in the world, and it looks at a variety
of personality features. It looks at anxiety, depression,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A58

8

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

psychopathic deviancy. It looks at heightened levels of
energy, what we call mania. It also looks at someone's level
of suspiciousness, and that is called paranoia scale. And he
was slightly elevated on the paranoia scale ....
Tr. at 7917–18.
Q. You told us you talked to Mr. Lee about his life. For
example, did you ask him how he became involved in the
skinhead movement?
A. Yes, I did.
Q. What did he say?
A. He told me that he got involved because he could have
sex with a lot of women, drink a lot of beer, and get in a
lot of fights.
Q. Did you talk to Mr. Lee about fights?
A. Yes.
Q. It's not so much how much, but did he talk to you about
why he fought?
A. Well, he told me that he drank a lot and would get
himself in trouble, but that he enjoyed the fighting.
Q. He enjoyed it?
A. Yes. He liked the stimulation.
Q. Did he seem impulsive to you? Mr. Lee.
A. Yes, he did.
Q. Tell me what your thoughts were on that.
A. All right. There was an incident when some lunch trays
were coming through, and the guard wouldn't let him have
the lunch right away, and he immediately just jumped out of
his chair and became extremely angry at the guard, arguing
and using profanity as to why he couldn't get his lunch right
then and there, and I thought that was a great example of
impulsivity.
Tr. at 7919–20.
Q. Did he react to various people that would walk by?
A. Yes. It was striking the way that he reacted differently.
For example, I noticed that when black guards and black
inmates went by, he had a lot of negative things to say and

used a lot of profanity, talking about things that they were
doing in jail and that sort of thing that offended him.
On the other hand, when white guards were there, he was
friendly as could be. He was waving, smiling. Same thing
with other inmates when they were walking by. I thought
that was rather striking. It was such a dichotomy.
Tr. at 7925.

D. Impropriety of the Examinations
Upon reflection, the Court sees numerous problems in the
Government's cross-examination of Dr. Cunningham and in
Dr. Ryan's “rebuttal” testimony. First, with respect to Dr.
Cunningham, the Court erred in ever assuming that the
Government could properly make Dr. Cunningham its own
witness on the subject of Defendant Lee's mental health.
See Tr. at 7748. The Government had affirmatively *1028
stated to Defendant Lee and the Court that it would not
introduce mental health evidence in its case-in-chief. Thus,
the Government was wrong to allow the Court to proceed
on the mistaken assumption that, despite such representation,
Dr. Cunningham could testify on the Government's behalf
“as its witness.” Equally, the Court was at fault for not
noting that this would violate the representation made by the
Government and in not acting promptly to nip the improper
tactic in the bud. More important is the fact that Defendant
Lee was entitled to notice of the aggravating evidence to
be introduced against him so that he could prepare for his
mitigation defense. The introduction of such aggravating
evidence against Defendant Lee through his own mental
health expert during his “defense” was fundamentally unfair
in that Defendant Lee had no opportunity to respond thereto.
Second, the Government several times elicited testimony
from Dr. Cunningham and Dr. Ryan regarding past bad acts of
the Defendant that were not brought out in the Government's
case-in-chief or in the direct examination of Dr. Cunningham.
Examples include physical abuse of a girlfriend (Tr. at 7777),
assault of his sister (Tr. at 7779–80), burglary and arson
offenses (Tr. at 7780–81), assaulting inmates and patients
at various facilities (Tr. at 7781), becoming violent in the
lunch line (Tr. at 7920), and treating blacks differently than
whites (Tr. at 7925). The Government even emphasized
some of these factual instances to the jury in its closing
argument. See Tr. at 7960, 7968. These factual instances were,
pure and simple, aggravating evidence in support of future
dangerousness and should have come in, if at all, in the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A59

9

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

Government's case-in-chief. Defendant Lee was entitled to
notice that these factual instances would be offered against
him as well as an opportunity to defend against them before
the jury. 4 However, because the Government introduced
them through the “back door,” Defendant Lee had no notice
or meaningful opportunity to defend.
Third, and perhaps most importantly, the Government's crossexamination of Dr. Cunningham and its presentation of Dr.
Ryan as a rebuttal witness focused far too much on Defendant
Lee's tendency for violence and his purported diagnosis as
a “psychopath.” Dr. Cunningham's direct testimony focused
exclusively on mitigation evidence. Dr. Cunningham put it
best:

What I was trying to measure is
what formative factors shaped him.
I wasn't attempting to label just
exactly what are we going to call
him at this point, a dysthymic
disorder, explosive disorder, antisocial
personality disorder, is he borderline?
I wasn't trying to label him with
the conclusion. I was attempting to
evaluate what factors were formative
in nature, and so I structured my
evaluation accordingly. I didn't do a lot
of things that I would have done if I
was trying to label him out here. I was
attempting to look at how do we get
here, what happened that brought us to
this point.

Tr. at 7829. 5 The Government's questioning of Dr.
Cunningham went well beyond the mitigation evidence raised
by Dr. Cunningham on direct and ultimately became an
expanded encore presentation of the Government's case for
future dangerousness. Dr. Ryan's testimony also improperly
focused on Defendant Lee's violent character traits. The Court
erred in failing to restrain the Government in these respects
despite Defendant Lee's insistence that the questioning was
improper. 6 *1029 As a result, Defendant Lee's rights were
irreversibly compromised.
The Government argues that, because the defense explored
Defendant Lee's violence on direct-examination, it opened

the door to additional discussion of the nature of that
violence. By analogy, the Government asserts that, if a
doctor testifies that a patient is at risk for cancer, crossexamination should be permitted to determine whether the
patient has cancer, and if so, how severe it is. If Defendant
Lee's violence is the cancer used in the Government's
analogy, then the cross-examination at issue was clearly
improper. Essentially, the Government in its case-in-chief
offered evidence that Defendant Lee has cancer, and it offered
factual instances to support that allegation, such as a biopsy
that revealed cancerous tissue. In putting on Dr. Cunningham
as a mitigation witness, Defendant Lee for all intents and
purposes admitted the cancer, but attempted to explain the
cancer's presence by showing that it was a result of external
factors. It does not follow that, on cross-examination, the
Government could inquire into the nature or severity of the
cancer. Defendant Lee had admitted to the cancer's presence,
and Dr. Cunningham did not go into the nature or severity
thereof. Rather, proper cross-examination should have been
limited to the methods and techniques used by the doctor
in arriving at his conclusions. Admittedly, this did not leave
the Government with much room on cross-examination, but
the Court must conclude that this was a product of a careful
strategy on Defendant Lee's part in choosing to limit Dr.
Cunningham's testimony as he did.
The Government's analogy also fails with respect to Dr.
Ryan's rebuttal testimony. Dr. Ryan did not look at the same
factors in Defendant Lee's life as Dr. Cunningham did. To
the contrary, Dr. Ryan's evaluation of Defendant Lee focused
almost entirely on risk assessment evidence. Thus, many of
the opinions Dr. Ryan had to offer on Defendant Lee were
improper rebuttal. As the Court said during the sentencing
hearing:

THE COURT: If they are both looking
at the same thing and come up with
a different diagnosis, I think you are
right, but if one of them is looking at
one thing and one of them is looking at
something else and says these factors
indicate cancer and the other one says
these factors indicate pneumonia then
the trains miss.

Tr. at 46 (May 13, 1999, Volume 46, under seal). 7

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A60 10

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

The Government incorrectly relies on portions of Dr.
Cunningham's direct testimony as justification for its crossexamination. It cites the following passage from the doctor's
direct testimony as evidence that Dr. Cunningham addressed
the issue of remorse, thus opening the door for exploration of
that issue on cross-examination:

Here they are diagnosing him with an
intermittent explosive disorder. That
means that the person goes along and
then has an outburst of anger and rage
that's much out of proportion to the
stimulus, to the situation that should
be causing, then often afterwards feels
kind of embarrassed or ashamed or
regretful about what happened there.

Tr. at 7730. When placed in context, it is clear that Dr.
Cunningham was not referring to his own opinion or diagnosis
of Defendant Lee but, rather, he was reciting the diagnosis
and opinion of some other doctor or expert who had seen
the Defendant during his teenage years. The Government did
not choose to bring such other experts to testify in its own
case, and those experts therefore were not subject to crossexamination. The unfairness is patent.
Turning to the issue of the Government's cross-examination
on the subject of psychopathy, it is clear that this evidence
was improper. While the psychopath evidence may, to a
certain extent, have been *1030 proper cross-examination
as it was an alternate explanation for the Defendant's alleged
violence, the presentation of the psychopath evidence turned
into future dangerousness and risk assessment evidence, thus
going beyond the scope of proper cross-examination.
The Government contends that it was Dr. Cunningham who
first raised the issue of psychopathy on direct:

DR. CUNNINGHAM: For example,
if somebody is a psychopath, that's
down at one end of the continuum. At
the other end of the continuum is a
borderline personality disorder. Both
of them have attachment problems.
This guy doesn't attach at all. This
one attaches, but in an unstable

and tense way. So they are both
attachment disorders, different ends of
the continuum.

Tr. at 7729 (emphasis added). Here, Dr. Cunningham was
reviewing for the jury the Defendant's psychiatric records
from the Oneida Baptist Institute when the Defendant
was fifteen years old. The records indicated a “rule
out of borderline personality disorder.” Tr. at 7728. Dr.
Cunningham was, in the quoted passage where he mentions
a “psychopath,” trying to explain a borderline personality
disorder to the jury. The doctor did not offer any opinion
or diagnosis of Defendant Lee on the subject of borderline
personality disorder or psychopathy. It can hardly be said that
the doctor's mere mention of the word “psychopath” opened
the issue for intense cross-examination by the Government.
Although it did not register to the Court at the time, it now
appears that from the outset, the Government intended to
use Defendant Lee's mental health evidence as part of its
own case for future dangerousness. In opening statements, the
Government stated:
MR. LIROFF: ... The evidence that will be presented in
this trial is going to help you understand that Mr. Lee, this
man who sits right here in this courtroom, is a violent and
dangerous man. He thrives on this stuff. That is part of his
profile. Even if you sent him to prison for the rest of his
life, he will be a threat for a long, long time.
In the end, what the evidence that will be presented will
establish is that Mr. Lee is a psychopath. I don't mean that
in a common term. I do mean that in the medical use.
******
We will prove in this case to you that Mr. Lee, because
of his psychological profile, who he is and who he will be
for years to come, is dangerous and will continue to be
dangerous.
Tr. at 7381, 7383 (emphasis added). In questioning Dr.
Cunningham, the Government highlighted to the jury that
psychopathy is a clear indication of future dangerousness:
Q. And do you agree with their statement that the Hare
psychopathy check list is the single most promising
recent development in risk assessment of correctional and

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A61 11

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

forensic populations, has been the psychopathy check list
revised. Do you agree with that?
******
Q. Is it fair to say that the psychopathy check list serves
a purpose other than violence assessment, violence risk
assessment?
Tr. at 7812.
Introduction of the psychopathy evidence was error
because it improperly emphasized Defendant Lee's future
dangerousness. Defendant Lee chose neither to perform a risk
assessment analysis nor to present rebuttal evidence on the
future dangerousness aggravating factor. He was therefore
ill-equipped to handle the Government's discussion of
8

psychopathy. *1031 In failing to restrict the Government's
statements and inquires regarding psychopathy more than it
did, the Court erred, and, as a result, Defendant Lee did not
receive a fair sentencing hearing.
In sum, it is now apparent from the Government's opening
statement and the brevity of its own direct case on the
issue of future dangerousness that the Government intended
from the beginning to make its most compelling showing
of future dangerousness through its cross-examination of
Dr. Cunningham and its “rebuttal” testimony of Dr. Ryan.
Hence, the Court must ask: Would this jury have given
Defendant Kehoe life without parole and Defendant Lee
the death penalty if: 1) the Government had not used Dr.
Cunningham at all, or, 2) if the Government had not been
permitted to open up an area on cross-examination that Dr.
Cunningham had not addressed during direct-examination?
The Court concludes that it is very questionable whether
the jury would have given Defendant Lee the death penalty
based upon the Government's direct case, a properly confined
cross-examination of Dr. Cunningham, and a properly limited
rebuttal by the Government.
The Government also clearly exceeded the proper scope of
evidence permitted by the Court's instruction on the nonstatutory aggravating factor of “future dangerousness.” That
instruction states:
The non-statutory aggravating factor alleged by the
Government is that Daniel Lewis Lee would be a danger
in the future to the lives and safety of other persons, as
evidenced by:

(a) his involvement in the murder of Joseph John Wavra on
or about July 24, 1990, in Oklahoma City, Oklahoma;
(b) misdemeanor conviction of carrying a concealed in [sic]
weapon in Martin County, Florida, on May 3, 1995; and
(c) lack of remorse, as evidenced by his statements made
to Gloria Kehoe.
You are not being asked, nor are you permitted, to impose
any form of punishment for the activities described above.
You are only asked to consider whether the activities
described above prove beyond a reasonable doubt that
Daniel Lewis Lee would be a danger in the future to the
lives and safety of other persons.
Docket No. 815. This instruction specifically limited the
evidence the Government was permitted to introduce in
support of this aggravating factor.
In its June 22, 1999 brief captioned “Government's Brief
Regarding Alleged Punishment Phase Error, Supplemental,”
the Government notes that the above instruction, as given
to the jury in Defendant Lee's penalty phase trial, did
not list the threat allegedly made by Defendant Lee
against the Pulaski County Deputy Sheriff as an evidentiary
basis for supporting the non-statutory aggravator for future
dangerousness although the Court had specifically granted
the Government's earlier motion to include that threat. The
Government is correct in that assertion.
The instructions utilized by the Court were submitted before
or during the guilt phase of the trial and were agreed to
by the parties. The actual punishment phase instructions
were submitted to both the Government and the Defendant
immediately before the penalty phase argument, and neither
party noted this omission. The Government was permitted to
put on evidence of the threat during the penalty phase of the
trial. The Government concludes its argument on this point
as follows:

If the jurors had been correctly
instructed, they would have been
permitted to consider the threat Lee
made against the deputy sheriff.
Because the instructions prevented the
jury from effectively considering the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A62 12

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

threat, the only party disadvantaged by
this error, was the Government.

Docket No. 939 at pgs. 4–5. Because the Court permitted
evidence of the threat to the deputy sheriff to be introduced
and argued, it is likely that the jury took that evidence into
consideration in spite of the omission in the instructions.
Nevertheless, *1032 upon retrial, this mistake can be
corrected. The main point here, however, is that the
accuracy and specificity with which the permitted evidence
supporting non-statutory aggravating factors are set forth in
the instructions will not prevent unfairness if the Court's
evidentiary rulings let in proof that goes beyond the evidence
specified.
Accordingly, the Court concludes that it was error to allow
the introduction of the aforementioned evidence regarding
future dangerousness during the penalty phase of Defendant
Lee's trial. The implications of this ruling and its possible
interaction with the Court's ruling on the Protocol issue will
be discussed at the conclusion of this Order.

DEATH PENALTY PROTOCOL
I. Background
On May 4, 1999, a jury convicted Defendants Chevie Kehoe
and Danny Lee of several RICO offenses involving inter
alia the robbery and murder of the Mueller family in Tilley,
Arkansas. 9 Shortly thereafter, separate penalty phase trials
were scheduled for the two Defendants. Defendant Kehoe's
penalty trial occurred first. On May 10, 1999, immediately
before the penalty verdict was returned in Defendant Kehoe's
case, the Government announced in camera that if the jury
sentenced Defendant Kehoe to life imprisonment, it would
not pursue the death penalty for Defendant Lee. May 10,
1999 Transcript (under seal) at 3–6,(Docket No. 824). The
Government then explained that it would have to contact
the Department of Justice (“DOJ”) to obtain permission to
withdraw or decertify the death penalty notice. Id.
Around 10:45 a.m., the jury sentenced Defendant Kehoe
to life imprisonment without the possibility of parole.
Accordingly, the Government again indicated during a second
in camera conference that it would contact the DOJ and
request permission to decertify or withdraw the death penalty

notice for Defendant Lee. May 10, 1999 Transcript (under
seal) at 2–7, (Docket No. 825). The Court then asked the
Government if it would be able to do so by noon, but the
Government requested more time. Id. It was then decided that
the Court would meet with counsel at 3:00 that afternoon. Id.
The parties reconvened in chambers at 3:00 p.m. Id. at
7. When the Court asked the United States Attorney, Ms.
Paula Casey, whether the Government intended to seek the
death penalty for Defendant Lee, she responded, “I've not
spoken with the Attorney General, but with the Deputy
Attorney General. The Department is not decertifying the
death request.” Id. at 8. The parties then announced that they
were ready to proceed with the penalty phase of the trial
the following morning. Id. Importantly, at no time did the
Government ask for additional time to deal with the requested
decertification of the death penalty for Defendant Lee. If
such request had been made, this Court would naturally
have granted it. The penalty phase of Defendant Lee's trial
commenced the next *1033 morning, at the conclusion of
which, the jury returned with a verdict of death.
Defendant Lee subsequently asked that the verdict be set
aside because the Attorney General failed to follow the Death
Penalty Protocol (“Protocol”), which is set forth in § 9–10.000
et seq. of the United States Attorney's Manual (“Manual”).
That Protocol requires the Attorney General to make the final
decision whether to decertify or withdraw a death penalty
notice. 10 The relevant provision of the Protocol provides
that:
Once the Attorney General has authorized the United
States Attorney to seek the death penalty, a notice of
intention to seek the death penalty filed with the court
shall not be withdrawn unless authorized by the Attorney
General or approved by the United States Attorney as a
condition of a plea agreement. If the United States Attorney
wishes to withdraw the notice and proceed to trial, the
United States Attorney shall Advise the Assistant Attorney
General for the Criminal Division of the reason for that
request, including the changes in facts or circumstances.
Any request to withdraw a notice shall be reviewed by
the Committee [known as the Review Committee on
Capital Cases] appointed by the Attorney General, which
will make a recommendation to the Attorney General.
The Attorney General shall make the final decision.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A63 13

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

United States Attorney's Manual § 9–10.090 (emphasis
added).
In response to Defendant Lee's allegations, Mr. Robert A. De
La Cruz, an attorney for the Department of Justice, sent the
Court a letter explaining that:

The United States Attorney was
required to seek the Attorney General's
authorization to withdraw the notice
of intent to seek a death penalty. The
United States Attorney attempted to do
that, after consultation with members
of this trial team. The Attorney
General was unavailable during the
time allotted to the government by the
Court, and Deputy Attorney General
Eric Holder decided not to withdraw
the Attorney General's previouslygiven authority to seek the death
penalty. The Attorney General did not
authorize the United States Attorney
to withdraw the notice of intent to
seek the death penalty. Accordingly,
the United States was compelled to
proceed with the sentencing phase of
defendant Lee's trial, and the trial
attorneys were under a continuing
obligation to represent the interests of
the United States, without regard to
personal views.

Docket No. 840 at 9–10 (emphasis added). 11 The
Government also submitted the affidavit of Mr. Kevin V.
DiGregory, who was the member of the Attorney General's
Review Committee on Capital Cases that received U.S.
Attorney Casey's May 10, 1999, telephone call requesting
permission to withdraw the death penalty notice for
Defendant Lee. In his affidavit, Mr. DiGregory averred that:
4. At the time of Ms. Casey's telephone call to me, Attorney
General Janet Reno was attending a meeting at the White
House in Washington, D.C. Until such time as Attorney
General Reno returned to her office at the Department,
she was unavailable to decide the issue posed by United
States Attorney *1034 Casey. Since the Attorney General

was not available, we sought out Deputy Attorney General
Eric H. Holder, Jr., as the decision-maker because I was
concerned about affording the decision-maker sufficient
time to meet with the Committee, confer with the United
States Attorney Casey, and make a decision prior to the
3:00 p.m. CDT deadline.
5. At approximately 2:30 p.m. EDT 12 , the Committee
met with Deputy Attorney General Holder and, via
telephone, with the United States Attorney Casey. In the
course of that meeting, Deputy Attorney General Holder
decided that the notice of intention to seek the death
penalty should not be withdrawn, and that decision was
communicated to United States Attorney Casey.
Docket No. 887 (emphasis added). 13
Defendant Lee then subpoenaed Attorney General Reno and
Deputy Attorney General Holder in an effort to further
determine what transpired on May 10, 1999, and the
Government filed a Motion to Quash those subpoenas. This
Court denied the Government's Motion on July 22, 1999.
Docket No. 885. In that Order, this Court ruled that the
subpoenas were necessary to determine: 1) Attorney General
Reno's whereabouts on May 10, 1999; 2) the extent of her
knowledge of, or participation in, the Protocol; 3) whether
Defendant Lee had an adequate opportunity to be heard;
4) whether a recommendation was in fact made by the
Committee; 5) whether the recommendation was conveyed
to the individual vested with “final” authority; 6) whether
Attorney General Reno was “legally absent” on that date;
7) whether Attorney General Reno specifically authorized
Deputy Attorney General Holder to act in her stead in
this case; and 8) whether, after the fact, Attorney General
Reno reviewed the procedures and the decision of Deputy
Attorney General Holder and approved or disapproved of the
procedures used and with his ultimate decision to seek the
death penalty. Id.
After the Order was entered, the Government filed a Petition
for a Writ of Mandamus asking the Eighth Circuit to prevent
the issuance of the subpoenas. The Eighth Circuit granted
the petition because of its decision that Defendant Lee
failed to establish “exceptional circumstances” justifying the
issuance of subpoenas to high government officials, such
as the Attorney General and her Deputy. See In re United
States of America, 197 F.3d 310 (8th Cir.1999). 14 During
oral arguments before the Eighth Circuit, Defendant Lee
conceded that in order to prevail on his motion to set aside

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A64 14

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

the death verdict, he need only establish that: “Reno did not
participate in or approve the decision not to withdraw the
death notice in this case, that Reno did not know of Casey's
request to withdraw the notice, and that the death penalty
protocol was not followed.” Id. at 314 (emphasis added). So,
in addition to a lack of exceptional circumstances, the Eighth
Circuit reasoned that the Reno and Holder subpoenas were
unnecessary because “[t]he record as developed at the June
29 hearing and in the DiGregory affidavit contains sufficient
evidence to establish each of these facts, none of which
appears to be disputed by the government.” Id. (emphasis
added).
Accordingly, this Court will now presume that the Protocol,
as stated in United States Attorney's Manual § 9–10.090,
was in fact violated because Attorney General Reno did
not participate in, or approve of, *1035 Deputy Attorney
General Holder's decision not to withdraw the death penalty
notice, and further, she did not even know of the U.S.
Attorney's request to withdraw the notice at anytime before
that decision was made and conveyed to this Court.
Furthermore, although Defendant Lee has not been permitted
to establish this as a fact (because of the decision by the Eighth
Circuit), this Court will assume that the Attorney General
could easily have been contacted 15 about this serious issue
before 3:00 p.m. on May 10, 1999, and that, in any event, time
was not a factor because the parties could have requested and
received additional time to accommodate the convenience of
Attorney General Reno. Hence, this Court must now resolve
the issues of: 1) whether Defendant Lee has a right to enforce
compliance with the procedures found in the Protocol before
the Attorney General makes the final decision on the U.S.
Attorney's request to decertify the death penalty notice in this
case; and 2) whether, under the circumstances stated, Deputy
Attorney General Holder had authority to act in Attorney
General Reno's stead. 16

II. Discussion
A. Right to Enforce the Protocol
The first issue this Court must resolve is whether Defendant
Lee has a right to enforce compliance with the procedures
found in Attorney General Reno's Death Penalty Protocol.
When considering the Government's petition for mandamus,
the Eighth Circuit seemed to surmise, in dicta, that perhaps
Defendant Lee had no such right. See In re United States of

America, 197 F.3d at 315–16. Upon careful consideration,
this Court respectfully disagrees. *1036 The basic premise
from which the Eighth Circuit rightfully began its analysis
is the Accardi doctrine, which, in sum, provides that an
administrative agency must follow its own procedural rules if
Accardi
those rules will affect an individual's rights. See
v. Shaughnessy, 347 U.S. 260, 74 S.Ct. 499, 98 L.Ed. 681
(1954). Because the Accardi doctrine cases are particularly
applicable to the facts at hand, they warrant considerable
discussion.
In Accardi, section 19(c) of the Immigration Act of 1917 gave
the Attorney General discretion to suspend the deportation
Id.
of an illegal alien if certain criteria were established.
at 262–633, 74 S.Ct. 499. The Attorney General, however,
passed regulations that delegated this discretionary decision
to the Board of Immigration Appeals. 17
Id. at 266,
74 S.Ct. 499. The respondent, Mr. Accardi, argued that
the decision to deport him was invalid because the Board
and the Attorney General failed to follow the procedures
mandated by those regulations.
Id. at 266–67, 74 S.Ct.
499. The Supreme Court held that although Mr. Accardi
did not have the right to interfere with the Board's or the
Attorney General's discretion by questioning their ultimate
and substantive decision to deport him, he did have a right
to require them to follow their self-imposed procedures when
making that determination. Id. In this respect, the Court
explained:
It is important to emphasize that we are not here reviewing
and reversing the manner in which discretion was
exercised. If such were the case we would be discussing
the evidence in the record supporting or undermining the
alien's claim to discretionary relief. Rather, we object to
the Board's alleged failure to exercise its own discretion,
contrary to valid regulations.
Id. at 268,
74 S.Ct. 499. Hence, the Court ruled that if
Mr. Accardi could establish that the procedures were in fact
violated, he would be entitled to a new deportation hearing.
Id.
The Accardi doctrine was further expanded during the
McCarthy era when actions were taken against individuals
for their alleged association with the Communist party. For
example, in
Service v. Dulles, 354 U.S. 363, 370, 77 S.Ct.
1152, 1 L.Ed.2d 1403 (1957), a statute commonly referred to
as the “McCarran Rider” gave the Secretary of State “absolute

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A65 15

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

discretion” to terminate any employee of the Department of
State or of the Foreign Service “whenever he shall deem
such termination necessary or advisable in the interests of the
United States” (quoting Pub.L. No. 82–188, § 103, 65 Stat.
581). The Secretary of State, however, enacted self-imposed
regulations that established an elaborate procedure to be
followed when deciding whether to terminate an employee for
disloyalty. Id. at 383–87, 77 S.Ct. 1152. The petitioner,
Mr. Service, argued that pursuant to Accardi, the Secretary's
decision to terminate him was invalid because the Secretary
did not follow the procedures mandated by those regulations.
Id. at 372,
77 S.Ct. 1152. The Supreme Court agreed
and gave the following explanation:

limitation promulgated by the Bureau.
Id. at 205, 94 S.Ct.
1055. On appeal, the respondents claimed that the geographic
regulation was invalid because it was not published in
the Federal Register or Code of Federal Regulations as
required by the Bureau's “internal-operations brochure.”
Id. at 235–36, 94 S.Ct. 1055. The Supreme Court held
that the geographic limitation was invalid, not because of the
substance of that regulation, but because the BIA failed to
publish it in compliance with their self-imposed rule requiring
them to do so. Id. In reaching this conclusion, the Court said:

While it is of course true that under
the McCarran Rider the Secretary was
not obligated to impose upon himself
these more rigorous substantive and
procedural standards, neither was he
prohibited from doing so, as we have
already held, and having done so he
could not, so long as the Regulations
remained unchanged, proceed without
regard to them.

Id. at 388, 77 S.Ct. 1152. Accordingly, the Court
invalidated the Secretary's decision to terminate Mr. Service
and remanded the case for further consideration.
388–89, 77 S.Ct. 1152.

Finally, and most relevant here, is the case of
Morton
v. Ruiz, 415 U.S. 199, 94 S.Ct. 1055, 39 L.Ed.2d 270
(1974), where the Supreme Court held that the Accardi
doctrine also applied to procedural rules found in an agency's
internal manual. In Morton, the Bureau of Indian Affairs
(“BIA”) denied the respondents' request for general assistance
benefits because the respondents failed to satisfy a geographic

Id. at

Over the next six years, the Supreme Court held in other
McCarthy era cases that an individual had the right to
force an agency to comply with its self-imposed procedural
rules or regulations when making *1037 a substantive and
discretionary decision. See Yellin v. United States, 374 U.S.
109, 83 S.Ct. 1828, 10 L.Ed.2d 778 (1963)(holding that an
individual had the right to force the House Committee on
Un–American Activities to abide by its own procedural rules
during an investigatory hearing);
Vitarelli v. Seaton, 359
U.S. 535, 79 S.Ct. 968, 3 L.Ed.2d 1012 (1959)(holding that,
although Congress gave the Secretary of Interior absolute
discretion to terminate an employee in the name of national
security, the Secretary was nevertheless required to follow its
own procedural rules when making such a determination).

Where the rights of individuals are
affected, it is incumbent upon agencies
to follow their own procedures.
This is so even where the internal
procedures are possibly more rigorous
than otherwise would be required....
Before the BIA may extinguish the
entitlement of these otherwise eligible
beneficiaries, it must comply, at
a minimum, with its own internal
procedures.

Id. at 235, 94 S.Ct. 1055 (internal citations omitted)
(emphasis added).
Likewise, the Eighth Circuit has held on numerous occasions
that pursuant to the Accardi doctrine an agency must
follow its self-imposed procedural rules when making
discretionary decisions that affect an individual's rights. See,
e.g.,
Munnelly v. United States Postal Serv., 805 F.2d 295,
302 (8th Cir.1986) (acknowledging that the Postal Service
had to abide by its self-imposed procedural rules, which were
printed in an internal postal manual, when deciding whether
Oglala Sioux Tribe v. Andrus,
to terminate an employee);
603 F.2d 707, 721 (8th Cir.1979) (recognizing that an Indian

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A66 16

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

tribe must follow its own procedural rules before transferring
a superintendent).

In fact, unlike the Death Penalty Protocol, the Petite Policy
contains no procedural components.

From these cases, it is abundantly clear that an individual has

The Government, however, is correct that other jurisdictions
have held that defendants do not have a protected interest

18

the right to force an administrative agency
to follow its
own procedural rules, even when those rules are contained
in an internal manual and are more stringent than the
broad authority given to that agency, if the decision made
under those rules will affect the individual's rights. In the
aforementioned cases, the courts applied this doctrine when
the individual rights affected were citizenship, employment,
and eligibility for general assistance benefits. In the present
case, the right affected is the most fundamental right—
the right to life. Hence, this Court concludes that because
Defendant Lee's right to life will be affected 19 by the
Attorney General's decision *1038 whether to withdraw or
decertify the death penalty notice, he has a right to require
the Attorney General to follow her self-imposed procedures
found in the Protocol before she makes that substantive
decision. This Court wishes to emphasize, as the Supreme
Court did in Accardi, that this ruling in no way impinges
upon the Attorney General's broad discretion to make this
substantive decision yea or ney, as she alone decides in
this case. Although this Court does not have the authority
to review, or look behind, the Attorney General's ultimate
decision, the aforementioned cases clearly establish that this
Court can require her to follow her procedural Protocol before
making that decision.
In reaching this conclusion, the Court is not unmindful of
the Government's assertion that the Attorney General and
her U.S. Attorneys are somehow exempt from the Accardi
doctrine because it is impermissible for a court to impinge
upon their broad prosecutorial discretion. As illustrative of
this point, the Government points to several Eighth Circuit
cases holding that the accused has no right to enforce the
Petite Policy, 20 which, similar to the Death Penalty Protocol,
is an internal policy found in the U.S. Attorney's Manual.
See, e.g.,
United States v. Basile, 109 F.3d 1304, 1308
(8th Cir.1997), cert. denied, 522 U.S. 873, 118 S.Ct. 189, 139
L.Ed.2d 128 (1997);

United States v. Lester, 992 F.2d 174,

176 (8th Cir.1993);
United States v. Moore, 822 F.2d 35,
38 (8th Cir.1987). However, the Government's argument is
flawed because in each of those cases the accused tried to
challenge the Government's ultimate and substantive decision
whether to pursue a successive prosecution instead of the
procedures the DOJ followed when making those decisions.

in the Death Penalty Protocol. See

United States v.

Feliciano, 998 F.Supp. 166 (D.Conn.1998);

United States

v. McVeigh, 944 F.Supp. 1478 (D.Colo.1996);

Nichols v.

Reno, 931 F.Supp. 748 (D.Colo.1996), aff'd,

124 F.3d

1376 (1997);

United States v. Boyd, 931 F.Supp. 968

(D.R.I.1996), cert. denied,

528 U.S. 1098, 120 S.Ct. 842,

United States v. Roman, 931
145 L.Ed.2d 708 (2000);
F.Supp. 960 (D.R.I.1996), cert. denied, 528 U.S. 1127, 120
S.Ct. 960, 145 L.Ed.2d 833 (2000);
Walker v. Reno, 925
F.Supp. 124 (N.D.N.Y.1995). Again, these cases are factually
distinguishable from the case at hand.
For instance, in the cases arising out of the bombing of
the Oklahoma City federal building, the courts rejected
Defendant Nichols' and McVeigh's substantive challenges
*1039 to Attorney General Reno's ultimate decision to seek
the death penalty. McVeigh, 944 F.Supp. 1478; Nichols,
931 F.Supp. 748. Importantly, in those cases the DOJ had
in fact followed the procedures mandated by the Protocol,
and hence such procedural compliance was not an issue. See
McVeigh, 944 F.Supp. at 1483. 21 Likewise in Feliciano,
Boyd, and Roman, the defendants asked the courts to force
the Government to disclose the mitigating and aggravating
factors provided to the Attorney General's Capital Case
Review Committee even though no such procedural rights
were found in or mandated by the Protocol.

Feliciano,

998 F.Supp. 166;
Boyd, 931 F.Supp. 968;
Roman, 931
F.Supp. 960. Hence, this Court concludes that these cases
have no bearing on its conclusion that Defendant Lee has
a right to require the DOJ and the Attorney General to
follow their procedural Protocol when making the substantive
decision whether or not to seek the death penalty in his case.
Finally, and most persuasive, is the case of
Walker v.
Reno, 925 F.Supp. 124 (N.D.N.Y.1995). In that case, the
court concluded, as does this Court, that a defendant does
not have a right to challenge the Attorney General's ultimate
and substantive decision to seek the death penalty. However,
the Walker court declared, albeit in dicta, that pursuant to

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A67 17

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

the Accardi doctrine, a defendant would have a right to force
the DOJ and the Attorney General to follow the procedural
Protocol found in the DOJ Manual. On this matter, the Court
explained:

substantive decision whether to decertify the death penalty
notice in his case.

B. Deputy Attorney General Holder's Authority to Act
In this case, plaintiffs' Complaint
contains no allegation that defendant
Reno
ignored
the
procedures
contained in her Protocol. Indeed,
from all appearances defendant
Reno scrupulously followed her
self-prescribed Protocol procedures.
Plaintiff has not alleged, for instance,
that the U.S. Attorney sought the
death penalty without the prior written
authorization of the Attorney General,
Protocol at § 9–10.000(A), or failed
to submit a prosecution memorandum
to the Attorney General, Id. at § 9–
10.000(A); or that plaintiff's counsel
were denied a reasonable opportunity
to present matters in opposition
to capital punishment to the U.S.
Attorney and DOJ, Id. § 9–10.000(B),
(D); or that the Attorney General
failed to appoint a special committee
to review all submissions, Id. § 9–
10.000(D), or failed to receive a
recommendation from that committee.
Id. Under the foregoing cases, such
allegations might well provide a basis
for this Court to set aside defendant
Reno's determination and remand
the matter to the Attorney General
for reconsideration pursuant to the
procedures she has prescribed for
herself in the Protocol.

Walker, 925 F.Supp. at 132–33 (emphasis added)(footnotes
omitted).
Based on the foregoing analysis, this Court concludes that
pursuant to the Accardi doctrine, Defendant Lee has a right
to require the DOJ and the Attorney General to comply with
its self-imposed and internal procedures found in the Death
Penalty Protocol before the Attorney General makes the final

Hence, this Court must now decide whether the Protocol
was in fact violated on May 10, 1999, when the U.S.
Attorney submitted her decertification request to the Attorney
General's Office. In light of the Eighth Circuit's holding, as
explained above, this Court must assume that the Protocol
was in fact violated because Attorney General Reno did
not participate in, or approve of, Deputy Attorney General
Holder's decision not to withdraw the *1040 death penalty
notice, and further, she did not even know of the U.S.
Attorney's request to withdraw the notice at anytime before
that decision was made and conveyed to this Court. In
response to these assumptions, the Government argues
that the Protocol was not violated because, under the
circumstances of this case, Deputy Attorney General Holder
had the authority to act in Attorney General's stead and make
the ultimate decision to not withdraw the death penalty notice
as to Defendant Lee. This Court disagrees for two reasons.
First, this Court concludes that Deputy Attorney General
Holder did not have the authority to make the final decision
on the U.S. Attorney's request to decertify the death penalty
notice for Defendant Lee because Attorney General Reno was
not legally absent. Congress anticipated that there might be
some instances where the Deputy Attorney General might
need to act on behalf of the Attorney General. Accordingly,
Congress passed an act that provides, in relevant part, that:
“In case of a vacancy in the office of Attorney General, or of
his absence or disability, the Deputy Attorney General may
exercise all the duties of that office, and for the purpose of
section 3345 of title 5 the Deputy Attorney General is the
first assistant to the Attorney General.” 28 U.S.C. § 508(a)
(emphasis added). Likewise, the relevant regulation declares
that: “In case of vacancy in the office of the Attorney General,
or of his absence or disability, the Deputy Attorney General
shall, pursuant to 28 U.S.C. § 508(a) perform the functions
and duties of and act as the Attorney General.” 28 C.F.R. §
0.132(a) (emphasis added). Unfortunately, neither the Act nor
the Regulation define the word “absence.”
The Government argues that on May 10, 1999, Attorney
General Reno was legally absent, as contemplated by the Act
and Regulation, because she was a few blocks away attending
a conference at the White House. The Court finds this

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A68 18

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

argument unconvincing because, if accepted, the implication
would be that the Deputy Attorney General could act in the
Attorney General's stead whenever she was temporarily away
from the office, such as if she had gone to lunch or left
for the evening. Surely such a result would be preposterous,
especially, where as here the most fundamental right—the
right to life—is at issue and contact with the Attorney General
could have been easily established. 22 Furthermore, neither
the parties nor this Court could find any cases where the word
“absence” has been given such a broad construction. In fact,
the only cases applying 28 U.S.C. § 508(a) have involved
the Deputy Attorney General's or the Solicitor General's
authority to act when the Attorney General had resigned,
and was not merely temporarily out-of-pocket, as in this
United States v. Pellicci, 504 F.2d 1106 (1st
case. See
Cir.1974), cert. denied, 419 U.S. 1122, 95 S.Ct. 805, 42
L.Ed.2d 821 (1975); United States v. Halmo, 386 F.Supp. 593
(E.D.Wis.1974); United States v. Curreri, 363 F.Supp. 430
(D.Md.1973). Accordingly, the Court concludes that Deputy
Attorney General Holder did not have the authority to act
in Attorney General Reno's stead on the theory that she was
legally absent as contemplated by either 28 U.S.C. § 508(a)
or 28 C.F.R. § 0.132.
Second, the Court concludes that Deputy Attorney General
Holder did not have authority to act in Attorney General
Reno's stead because the specific language of the Protocol
provides that the final decision to decertify a death penalty
notice must be made by the Attorney General personally.
In support of this conclusion, *1041 the Court turns to
28 C.F.R. § 0.15(a), which provides that: “The Deputy
Attorney General is authorized to exercise all the power and
authority of the Attorney General, unless any such power or
authority is required by law to be exercised by the Attorney
General personally.” (Emphasis added.) This same language
can also be found in Section 1–2.102 of the U.S. Attorney's
Manual. As previously mentioned, the Death Penalty Protocol
unequivocally declares that “the Attorney General shall make
the final decision” whether to decertify a death penalty notice.
U.S. Attorney's Manual § 9–10.090 (emphasis added). The
Government argues that Section 9–10.090 does not have the
force of law as required by 28 C.F.R. § 0.15 and Section 1–
2.102. This Court, however, has already held that pursuant
to the Accardi doctrine, procedural statements found in the
U.S. Attorney's Manual have the force of law if they affect
an individual's rights. Here, it is clear that the Attorney
General mandated by her own Protocol that she alone would
make a final determination whether to withdraw a death

penalty notice. Hence, Deputy Attorney General Holder had
no right to usurp Attorney General Reno's clear reservation
of exclusive authority merely because she was temporarily
away from her office. Furthermore, it is clear that the
Attorney General can revoke any general grant of authority
to the Deputy Attorney General, and it appears that Attorney
General Reno did exactly that when she promulgated Section
9–10.090, which unequivocally declares that she, personally,
will make the final decision on a request to decertify a death
penalty notice. So, assuming that before the promulgation of
the Protocol the Deputy Attorney General had such general
authority, it is clear that the Attorney General removed that
general authority when she place the Protocol in effect.
For these reasons, this Court rules that Deputy Attorney
General Holder did not have the authority, under the facts
of this case, to make the final and substantive decision to
deny the U.S. Attorney's request to decertify or withdraw the
death penalty notice in Defendant Lee's case. Accordingly, the
Court concludes that the Death Penalty Protocol was in fact
violated in this case, and that Defendant Lee has a right to
require the Attorney General and the DOJ to properly comply
with the procedures established in the Protocol before the
Attorney General makes the “final decision” to withdraw or
not withdraw the death penalty notice. Therefore, the Court
sets aside as a nullity Deputy Attorney General Holder's
decision and remands the matter to Attorney General Reno for
consideration pursuant to the procedures she has prescribed
for herself in the Protocol. See

Walker, 925 F.Supp. at 133.

CONSEQUENCES OF COURT'S RULING
The Court must now determine the disposition of this
case in light of the rulings entered herein on the future
dangerousness and Protocol issues. The Court interprets its
ruling on the Protocol issue as requiring the Government
to “turn-the-clock-back” to that moment immediately after
the Government announced its intention to seek the
decertification of the death penalty notice. The Department of
Justice and the Attorney General must then fully and properly
comply with the procedural terms of the Death Penalty
Protocol, to-wit: 1) the request to withdraw the death penalty
notice will be reviewed by the Review Committee on Capital
Cases; 2) the Committee will make its recommendation
to Attorney General Reno; and 3) Attorney General Reno,
herself, will then make the final decision whether to decertify
or withdraw the death penalty notice as to Defendant Lee.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A69 19

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

If the Attorney General decides to grant the U.S. Attorney's
request to decertify the death penalty notice, this Court
will impose the sentence of life without the possibility
of release. 23 In contrast, if the *1042 Attorney General
decides not to decertify the death penalty notice, then both of
the Court's rulings, i.e., its ruling on the Protocol issue and its
ruling that it was error to introduce certain evidence of future
dangerousness, will require that Defendant Lee be given a
new penalty phase trial. A new jury will have to be selected
for this purpose. Furthermore, a new penalty phase trial might
require the presentation of most of the evidence introduced
during the guilt phase of the trial because Defendant Lee
contends that the jury should be made aware of Defendant
Kehoe's greater and more culpable role in the RICO crimes
which nevertheless resulted in Defendant Kehoe receiving
a sentence of life imprisonment without the possibility of
release. Of course, elaborate stipulations might shorten the
trial to some degree. The Court will determine the specific
procedures for conducting a new penalty phase trial if and
when the occasion arises.

IT IS THEREFORE ORDERED THAT the Department of
Justice and the Attorney General be, and they are hereby,
ordered to properly review and act upon the U.S. Attorney's
request to decertify or withdraw the death penalty notice
in Defendant Lee's case in accordance with the procedures
mandated by the Death Penalty Protocol before the Attorney
General, herself, makes the final decision whether to grant or
deny that request.
IT IS THEREFORE FURTHER ORDERED THAT
Defendant Lee's Motion for a New Penalty Phase Trial be, and
it is, hereby GRANTED. Accordingly, if the Attorney General
denies the request to decertify or withdraw the death penalty
notice, then the Court will hold a new penalty phase trial for
Defendant Lee. If the Attorney General grants the request to
decertify or withdraw the death penalty notice, then the Order
for a new penalty phase trial will be moot, and the Court
will sentence Defendant Lee to life imprisonment without the
possibility of release.
All Citations

CONCLUSION

89 F.Supp.2d 1017

Footnotes
1

2

3

Dr. Cunningham was able to testify for others in his narrator role because of

section 3593(c)'s relaxed

United States v. Jones, 132 F.3d 232, 241 (5th Cir.1998), aff'd,
527 U.S.
evidentiary standard. See
373, 119 S.Ct. 2090, 144 L.Ed.2d 370 (1999) (stating that sentencing hearing is not governed by traditional
evidentiary restraints).
The Court believes this motion to be a proper objection by Defendant Lee to improper cross-examination
by the Government, contrary to the Government's argument that Defendant Lee did not timely object and
therefore had waived any claim of error. In addition, counsel for Defendant Lee later stated, “I was assuming
that I had an ongoing objection because of my motion so I didn't stand up and object every time.” Tr. at
7832. The Court responded, “That's true, I understood that. In fact, we talked about that before the evening
recess.” Tr. at 7832.
This colloquy makes clear the Court's assumptions and reasoning which led it into error. The Court had in
mind a common situation with respect to such expert psychological or psychiatric testimony, i.e., where the
expert covers, say, two completely separate relevant areas thoroughly in his or her pre-trial examination and
analysis of a defendant but, then, because the result of the expert's examination into one of those areas
is not favorable to the defendant, the expert attempts to limit his or her testimony solely to the other area
which, assumedly, is favorable to the defendant. If the expert witness acknowledges on cross-examination
that he is thoroughly prepared on both areas, then it has been this Court's practice to permit the Government
to develop such information and opinions on cross-examination.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A70 20

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

4

5
6

7
8

9

Here, since the Court did not understand clearly just what areas into which Dr. Cunningham had gone
in his pretrial studies of Defendant Lee, it opted to let the Government tentatively explore the situation.
Therefore, at the very least, the Court should have cut off the examination as soon as it became apparent
that the Government was going into areas into which Dr. Cunningham had not qualified himself to render
any opinion—the area of future dangerousness.
On February 18, 2000, Defendant Lee submitted (attached to Brief) the affidavit of Dr. Cunningham. It
clearly shows the experience and expertise Dr. Cunningham has in the area of “future dangerousness.”
However, because of the circumstances, it was decided not to examine Defendant Lee and make the other
studies necessary in attempt to refute the Government's aggravating factor of future dangerousness. In
this connection, the Court's notes paragraph 9 (page 7) of the affidavit, to wit:
In preparation to individualize the violence risk assessment to Mr. Lee, I requested specific statistical
data and procedures, including the rate of assaults among white supremacists in BOP. Mr. Lane Liroff
did not provide this and other important data. I additionally requested that I be allowed a tour of several
U.S. Penitentiaries and a more detailed tour of ADX Florence, such as had been provided to Dr.
Thomas Ryan, the Government's expert in U.S. v. Danny Lee. These tours would have allowed me
additional specific perspectives regarding confinement, rehabilitation, and treatment programs for Mr.
Lee. Mr. Liroff strongly protested these tours in appearing before Judge Forster, asserting that such
tours were against BOP policy and would seriously compromise the security of the U.S. Penitentiaries.
However, I subsequently discovered correspondence in my files that would seem to dispute Mr. Liroff's
representations. This correspondence was from a prior federal capital case (U.S. v. LaFawn Bobbitt )
where prison tours had been ordered, but could not be accomplished before trial. In this correspondence
(attached), Mr. Rick Schott (Attorney, U.S. Department of Justice, Federal Bureau of Prisons, U.S.
Penitentiary) detailed that my proposed tour of U.S. Terre Haute would be the same as that afforded
the general public. In the absence of the requested data, I could not sufficiently and reliably individualize
my risk assessment of Mr. Lee.
The agreed instructions, indeed, set forth the evidence upon which the Government would rely to establish
that “Daniel Lewis Lee would be a danger in the future to the lives and safety of other persons....” See pg.
1031, infra.
See also note 3, supra.
At the conclusion of Dr. Cunningham's testimony, the Court knew it had a made a mistake: “THE COURT: ...
First, I am convinced that I probably permitted the Government to go much farther on cross-examination than
is proper.” Tr. at 7836.
See note 3, supra.
As Defendant Lee states in his reply brief, “Had Dr. Cunningham and the defense made the decision to
address future dangerousness and risk assessment, Dr. Cunningham would have explained to the jury how
the BOP handles violence and violent offenders within its system.” Reply Brief, Doc. No. 856, at 3.
The Government has maintained throughout the pre-trial, trial and post-trial periods that Chevie Kehoe was
the leader of the RICO enterprise and that Danny Lee and others were his subordinates. The proof at trial was
consistent with those contentions. In fact, Defendant Lee was implicated in only a few of the numerous RICO
acts alleged in the Indictment, and he was acquitted of at least two of the acts in which he was implicated. To
be sure, he was found guilty of the RICO acts relating to the robbery and murders of the Mueller family, but
even with respect to those crimes, the testimony was that Defendant Lee played a lesser role in their planning
and commission. With respect to the murder of Sarah Powell, the principal testimony offered to establish the
details of the crime was that of Chevie Kehoe's mother, Gloria Kehoe. Ms. Kehoe testified that she was told
by Chevie Kehoe that Danny Lee could not participate in that murder and that he (Chevie Kehoe) had to
carry it out alone. Moreover, the proof as a whole left the definite impression that Defendant Kehoe was the
orchestrator of the entire RICO operation, and that Defendant Lee served as his subordinate for only a brief
portion of the lengthy multi-state conspiracy.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A71 21

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

10
11

12
13

14

15

16

Defendant Lee does not contend that the Government failed to follow the Protocol when it initially obtained
the Attorney General's permission for seek the death penalty for Defendant Lee.
The Court takes strong exception to Mr. De La Cruz's suggestion that it is responsible for the U.S. Attorney's
inability to obtain a decision on this most serious issue. At the time, the Court was unaware of the Protocol,
and the procedures contained therein for obtaining permission to withdraw a death penalty notice. If the Court
had been so advised and a request for an extension of time had been made, this Court would have certainly
granted the parties' request in order to permit the Attorney General to personally attend to this most serious
matter as provided in that Protocol. Indeed, continuing the penalty phase for a day or two, if necessary, would
not have created more than a minor inconvenience.
Which would be 1:30 CDT.
The Protocol requires that the request to withdraw the death penalty notice “shall be reviewed by” the Review
Committee on Capital Cases, and that the Committee “will make a recommendation to the Attorney General.”
U.S. Attorney's Manual § 9–10.090. Mr. DiGregory's affidavit does not state whether the Committee reviewed
the request, or if the Committee made any recommendation thereon to the Attorney General.
Defendant Lee has filed a petition for a writ of certiorari asking the United States Supreme Court to review
that decision. The Court has decided, with the parties' permission, to go forward with this matter without
waiting for the Supreme Court's decision.
This Court's conclusion that Attorney General Reno could have been easily contacted is bolstered by a former
Committee member's statement that, “[t]he Review Committee operates informally, with no set schedule and
with virtually immediate access to the Attorney General when necessary.” Rory K. Little, The Federal Death
Penalty: History and Some Thoughts About the Department of Justice, 26 FORDHAM URB. L.J. 347, 421
(1999) (emphasis added).
Defendant Lee argues that Congress gave the United States Attorney, and not the Attorney General, the
authority to decide whether to seek the death penalty in a particular case. The relevant provision of the
Federal Death Penalty Act provides that:
If, in a case involving an offense described in section 3591, the attorney for the government believes
that the circumstances of the offense are such that a sentence of death is justified under this chapter,
the attorney shall, a reasonable time before the trial or before acceptance by the court of a plea of guilty,
sign and file with the court, and serve on the defendant, a notice [to seek the death penalty] ....
18 U.S.C. § 3593(a)(emphasis added). The Act does not define the phrase “attorney for the
government,” but the Court agrees with the court in
Nichols v. Reno, 124 F.3d 1376 (10th Cir.1997), as
will be explained herein, that the quoted language refers to United States Attorneys.
Generally, the duty to “prosecute for all offenses against the United States” is allocated to the United States
Attorneys. 28 U.S.C. § 547(a). However, the same title specifically gives the Attorney General the authority
to “supervise all litigation to which the United States, an agency, or officer thereof is a party, and shall
direct all United States attorneys, assistant United States attorneys, and special attorneys appointed under
section 543 of this title in the discharge of their respective duties.” 28 U.S.C. § 519. The Tenth Circuit
has interpreted these three statutory provisions as giving the Attorney General the authority to enact the
Protocol which, in turn, gives her, and not the United States Attorneys, the final decision whether to seek
the death penalty in a particular case. See

Nichols, 124 F.3d at 1377 (10th Cir.1997) (affirming the

same conclusion reached by the District Court of Colorado in
Nichols v. Reno, 931 F.Supp. 748, 750
(D.Col.1996)).
The Court agrees with this reasoning, and therefore, rules that Attorney General Reno, and not United
States Attorney Casey, has the authority to make the final decision whether to seek the death penalty in
Defendant Lee's case. Nevertheless, this is a serious issue since, absent the adoption of the Protocol or
some other directive or intervention by the Attorney General, exercise of this responsibility would be vested
in the U.S. Attorneys involved and the decision of United States Attorney Casey here would have resulted
in the withdrawal of the death penalty notice in Defendant Lee's case.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A72 22

U.S. v. Lee, 89 F.Supp.2d 1017 (2000)

17
18
19

20

21

22

23

The Board's decision was reviewable by the Attorney General only in certain circumstances listed in 8 C.F.R
§ 90.12 (1949) and 8 C.F.R. § 6.1(h)(1) (Rev.1952). Id. at 266.
Walker v. Reno, 925
It is undisputed that the Department of Justice is an executive agency. See also
F.Supp. 124, 126 (N.D.N.Y.1995) (holding that the DOJ is an executive agency).
In a law review article written by a former member of the Attorney General's Capital Case Review Committee,
the author explains that:
The U.S. Attorney's recommendation carries great, although not dispositive, weight with the Committee.
This is particularly so when the recommendation is against seeking death in death-eligible case. Such
“no death” recommendations are almost always accepted, not just because of the traditional autonomy of
the U.S. Attorneys, but also because the U.S. Attorneys generally exercise great care in submitting their
recommendations and are presumed to know their local communities, jury pools, judges, and the overall
strengths and weakness of their particular case far better than Main Justice personnel.... On the other
hand, a recommendation from a U.S. Attorney in favor of seeking the death penalty receives somewhat
less deference at Main Justice. Here is where the goal of national uniformity in administering the federal
death penalty often outweighs the localized perspective of field offices.
Rory K. Little, The Federal Death Penalty: History and Some Thoughts About the Department of Justice's
Role, 26 FORDHAM URB. L.J. 347, 422–23 (1999) (emphasis added). In light of this proclamation, it is
readily apparent that Defendant Lee's right to life was adversely affected by the DOJ's failure to follow its
procedural Protocol when considering the U.S. Attorney's recommendation to decertify the death penalty
notice in this case.
The Petite Policy provides that U.S. Attorneys shall not prosecute any person for allegedly criminal behavior
that was an ingredient of a previous state prosecution, unless the subsequent federal prosecution is
specifically authorized in advance by the “appropriate Assistant Attorney General.” See U.S. Attorney's
Manual § 9–2.031. The Petite Policy also establishes three substantive criteria the Assistant Attorney General
must consider when making that determination. Id.
Instead, Defendants McVeigh and Nichols claimed that the Attorney General's ultimate and substantive
decision to seek the death penalty was invalid because she publicly announced her decision to do so before
a suspect was even identified, and that her decision was improperly influenced by President Clinton's public
pledge that the death penalty would be sought.
McVeigh, 944 F.Supp. at 1483;
Nichols, 931 F.Supp.
at 750.
Defendant Lee offered to establish this theory through the testimony of Attorney General Reno and Deputy
Attorney General Holder. However, because these subpoenas were quashed, no record could be made on
the ease with which the Attorney General may have been contacted with regard to such a serious matter.
Assuming this is not a matter of judicial notice, the Court must nevertheless assume that the Attorney General
could have been easily contacted.
The Court heard, reviewed, and otherwise experienced all of the evidence in the guilt phase of the trial.
Assuming that it has, under the law, the discretion under such circumstances to impose some other penalty
than life without the possibility of release (such as life), the Court would nevertheless impose on Defendant
Lee the sentence of life without the possibility of release.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A73 23

U.S. v. Lee, Not Reported in F.Supp.2d (2010)

2010 WL 5347174
Only the Westlaw citation is currently available.
United States District Court,
E.D. Arkansas,
Western Division.
UNITED STATES of America, Plaintiff/Respondent
v.
Daniel Lewis LEE, Defendant/Movant.
No. 4:06–CV–1608 GTE.
|
Criminal No. 4:97–CR–243–02 GTE.
|
Dec. 22, 2010.
Attorneys and Law Firms
David A. Ruhnke, Ruhnke & Barrett, Montclair, NJ, for
Defendant/Movant.

ORDER DENYING POST–JUDGMENT RELIEF
EISELE, District Judge.
*1 Currently before this Court is Petitioner's Amended
Motion to Alter or Amend Judgment pursuant to Fed.R.Civ.P.
59(e) (“Rule 59 motion”). 1 Respondent opposes the motion,
contending that it is a successive petition the Eighth
Circuit Court of Appeals has not authorized. Alternatively,
Respondent contends that the Rule 59 motion, to the extent it
is not successive, is completely lacking in merit. The issues
presented have been fully briefed. In addition to the Rule
59 motion, the record includes: Respondent's Response; 2

evidence.”
United States v. Metropolitan St. Louis Sewer
Dist., 440 F.3d 930, 933 (8th Cir.2006) (omitting internal
quotation marks and additional citation). “Such motions
cannot be used to introduce new evidence, tender new legal
theories, or raise arguments which could have been offered or
raised prior to entry of judgment.” Id. “A Rule 59(e) motion
cannot be used to raise arguments which could, and should,
have been made before the trial court entered final judgment.”
Bannister v. Armontrout, 4 F.3d 1434, 1440 (8th Cir.1993)
(omitting internal quotations); see also Williams v. Norris,
461 F.3d 999, 1004 (8th Cir.2006) (citing Bannister and
observing that its holding is not weakened by the fact that it
is a pre-AEDPA case). Finally, in the habeas context, a Rule
59(e) motion is subject to the well established restrictions
on filing successive motions for postconviction relief. United
States v. Lambros, 404 F.3d 1034, 1036, 1037 (8th Cir.2005),
cert. denied, 516 U.S. 1135 (2005) (affirming the district
court's dismissal of petitioner's Rule 59(e) motion as an
effort to file a successive motion for post-conviction relief,
observing that motion “sought ultimately to resurrect the
denial of his earlier § 2255 motion”).
It seems clear, based on existing case law and despite
Petitioner's arguments to the contrary, that a district court
should examine a Rule 59(e) motion filed in a § 2255
proceeding preliminarily, just as it would a Rule 60(b) motion,
to ensure that it is not a successive petition. And it further
seems clear that the substance of the allegations contained
in the motion, rather than its caption, controls whether such
allegations are deemed successive. See, e.g., United States
v. Nelson, 465 F.3d 1145, 1149 (10th Cir.2006) (collecting
cases) (“It is the relief sought, not [petitioner's] pleading's
title, that determines whether the pleading is a § 2255
motion.”).

Petitioner's Reply; 3 Petitioner's Motion to Supplement
the Record; 4 Affidavit of Petitioner Lee; 5 Respondent's
6

Response to Affidavit; and Petitioner's Notice of Additional
Authority.

7

After carefully considering the issues presented, the Court
concludes that Petitioner's motion must be DENIED.
I. Rule 59(e) Motion
“Rule 59(e) motions serve the limited function of correcting
manifest errors of law or fact or to present newly discovered

II. PETITIONER'S ARGUMENTS
A. Failure to Have Evidentiary Hearing
*2 Petitioner Lee argues that the Court committed legal
error when it denied his § 2255 motion without indulging
his request for an evidentiary hearing. Lee further contends
that such denial raises to the level of a defect in the integrity
of the habeas proceeding within the meaning of
Gonzalez
v. Crosby, 545 U.S. 524, 125 S.Ct. 2641, 162 L.Ed.2d 480
(2005) 8 and may not therefore be considered successive. 9
Although the issue of whether this should be considered a
successive argument is not free from doubt, 10 the Court will

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A74

1

U.S. v. Lee, Not Reported in F.Supp.2d (2010)

address this argument on the merits as Petitioner contends the
Court applied the wrong standard in determining whether an
evidentiary hearing was warranted.
An evidentiary hearing is required “unless the motion and
the files and records of the case conclusively show that
the prisoner is entitled to no relief.” 28 U.S.C. § 2255.
It is appropriate to deny § 2255 relief without a hearing
if: (1) petitioner's allegations, if accepted as true, would
not entitle petitioner to relief; or (2) the allegations cannot
be accepted as true because they are contradicted by the
record, are inherently incredible, or are conclusions rather
than statements of fact. Delgado v. United States, 162 F.3d
981, 983 (1998). In Delgado, the denial of a hearing was
affirmed. Delgado's ineffective assistance claims failed on
both the performance and prejudice prongs because he “made
no showing of what other witnesses were available, how they
would have testified, and why such additional evidence would
likely have affected the result.” Id.
The Court was purposefully lenient in permitting the parties
to expand the record as they wished before taking up the
merits of Petitioner's motion. The Court permitted Petitioner
to conduct any and all discovery that he requested prior to
ruling on the § 2255 motion. For example, the Court granted
Petitioner's request to conduct mitochondrial DNA testing
11

(mtDNA) on a hair sample. Later, in an Order dated May
15, 2008, the Court sought to clarify the record as to one
of Petitioner's ineffective assistance allegations. The Court
pointed out that the record was unclear as to whether an
alleged tape-recorded interview of Gloria Kehoe existed and
directed Petitioner to produce the interview referenced, but
not produced. 12 Finally, in an Order dated May 22, 2008,
the Court provided Petitioner with “one final opportunity to
put before the Court additional legal authority or argument
in support of the grounds for relief currently before the
Court.”

13

The Court considered the entire record, as expanded, in
making its ruling. The Court gave Petitioner the benefit of all
allegations of fact, that is, the Court assumed that Petitioner
could prove the substance of any factual assertion. The Court
did not, however, engage in speculation about what witnesses,
if called to testify, might have said. Nor did the Court credit
Petitioner's conclusions. Because the Court concluded on
the basis of all the submissions that Petitioner had failed
to establish any legally cognizable basis for post-conviction
relief, it declined to have an evidentiary hearing.

*3 Petitioner Lee raises numerous objections to the Court's
failure to provide an evidentiary hearing. Petitioner contends
that the Court erroneously grafted an “affidavit requirement”
onto the standard for obtaining an evidentiary hearing. The
Court agrees with Petitioner that there is no such requirement
in the Eighth Circuit. That is, affidavits are one way, but not
the only way, that a petitioner may present facts to support a
claim that his counsel was constitutionally deficient.
Petitioner's obligation, however, is greater than simply
placing the Court on notice of claims alleged to merit postconviction relief. At the time he filed his petition for § 2255
relief, Petitioner was obligated to “specify all the grounds
for relief available to the petitioner ... and state the facts
supporting each ground.” Rule 2(b) of the Rules Governing
Section 2255 Proceedings. “Habeas corpus petitions must
meet heightened pleading requirements.”
McFarland v.
Scott, 512 U.S. 849, 856, 114 S.Ct. 2568, 129 L.Ed.2d 666
(1994) (citing Rule 2(c) of the Rules Governing Section 2254
Proceedings, which is identical to Rule 2(b) of the Rules
Governing Section 2255 Cases);
Mayle v. Felix, 545 U.S.
644, 655, 125 S.Ct. 2562, 162 L.Ed.2d 582 (2005) (also citing
Rule 2(c)).
In the context of his ineffective assistance of counsel claims,
Petitioner was obliged to state the facts showing both
that his counsel's performance was deficient and explaining
how such deficiencies prejudiced his defense. Petitioner
failed to adequately present facts sufficient to support
his ineffective assistance of counsel claims. For example,
Petitioner contended that his trial counsel were ineffective
in failing to locate, interview, effectively examine or present
a total of 19 witnesses. The Court noted in denying § 2255
relief that Petitioner “failed to include supporting affidavits or
other independent support ” in connection with some of these
witnesses. 14 Some of Petitioner's contentions were too vague
to raise any issue about either his counsel's performance
or prejudice as a result thereof. For example, Petitioner
identified Peter Langan as a member of the Aryan Republican
Army serving a life sentence in federal prison. Petitioner
alleged that “efforts should have been made to locate and
interview Mr. Langan who was, throughout most of the period
leading up to this trial, incarcerated on federal charges.” 15
Petitioner made no effort to explain how Langan possessed
information relevant to the charges against him or how such
information, if presented at trial, could have altered the
outcome. Similarly, with respect to numerous other witnesses,
Petitioner merely presented conclusory allegations.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A75

2

U.S. v. Lee, Not Reported in F.Supp.2d (2010)

The Court's point was simply that it was incumbent upon
Petitioner to provide sufficient information about the alleged
substance of any omitted testimony to permit the Court
to evaluate both the performance and prejudice prongs of
the Strickland ineffective assistance standard.
Strickland
v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d
674 (1984); see also Williams v. United States, 452 F.3d
1009, 1012 (8th Cir.2006) (referencing both Strickland
requirements as necessary to prove ineffective assistance of
counsel claims).
*4 In
Paul v. United States, 534 F.3d 832 (8th Cir.2008),
the Eighth Circuit affirmed the district court's denial of
a § 2255 petition in a death penalty case. The district
court rejected the petitioner's ineffective assistance claims
based on trial counsel's failure to call witnesses to bolster
his defense, both at the guilt and sentencing phases. The
Government in opposing the motion did not offer an affidavit
from petitioner's trial counsel. Instead, it defended counsel's
competence by observing that counsel had persuaded the
jury to find several mitigating factors and proffering its
own strategic reasons defense counsel might have declined
to call witnesses. The district court denied § 2255 relief
without conducting an evidentiary hearing. The Eighth
Circuit affirmed the ruling even though the record on appeal
was “not developed concerning counsel's contemporaneous
rationale for the actions that [petitioner] now challenges.”
Id., at 837. Paul reaffirms that ineffective assistance claims
may be resolved without an evidentiary hearing or even
an affidavit from trial counsel where “the record shows
conclusively that [petitioner] did not suffer prejudice from
what he now alleges was deficient performance by counsel.”
Id. at 838.
The Court did not apply an affidavit requirement in
considering whether there was a need for an evidentiary
hearing. Rather, it applied well established Eighth Circuit law.
See, e.g., Delgado, supra, 162 F.3d at 983 (no evidentiary
hearing necessary for Petitioner who “made no showing of
what other witnesses were available, how they would have
testified, and why such additional evidence would likely have
affected the result.”).
Petitioner's contention that the Court “never put Mr. Lee on
notice that affidavits or other alternative measures would be
considered, or imposed any scheduling order requiring that
affidavits be submitted” rings hollow. Petitioner's counsel

was on notice of the law and pleading requirements for §
2255 motions. The Court specifically advised that it would
determine based on the submissions whether an evidentiary
hearing was required. 16 Subsequently, the Court directed
Petitioner to produce certain information related to Gloria
Kehoe because the Court recognized its potential importance.
Finally, before ruling, the Court provided Petitioner with yet
another opportunity to submit anything he wished in support
of his Petition.
Additionally, Petitioner Lee argues the Court also improperly
credited the affidavits proffered by counsel. The Court
disagrees. The Government obtained and submitted affidavits
from defense counsel. 17 Therein, counsel explained why
they elected not to call certain witnesses, described matters
that they investigated and provided other insights into trial
strategies. 18 The Court evaluated all assertions made by
both parties to determine whether there was any need for
an evidentiary hearing. The Court did not weigh evidence
or make credibility findings. There was no need to do so
because Petitioner failed to present any facts which, if true,
would have entitled him to relief. Petitioner's obligation was
to present facts to demonstrate the need for an evidentiary
hearing. He failed to do so. Petitioner failed completely to
demonstrate that he suffered any prejudice as a result of his
counsel's alleged deficiencies. There simply were no issues of
fact that needed to be resolved in order to dispose of his postconviction motion. Even without reviewing the affidavits
proffered by trial counsel, the Court still would have found no
need for an evidentiary hearing.
*5 In support of his Rule 59 motion, Petitioner has
attached numerous affidavits, presented in 65 pages. Such
affidavits are submitted by: (1) a private investigator, Daniel
Clark, regarding his investigation into potential witnesses
Faron Lovelace and Jeff Brown; (2) Kevin McNally, an
attorney, opining on the jury selection strategy used by
defense counsel; (3) Dr. Thomas Ryan, disavowing the
use of PCL–R 19 for measuring future dangerousness and
psychopathy; (4) John Edens, Ph.D., a licensed psychologist,
opining on inappropriateness of using PCL–R to predict
future dangerousness; (5) a group of 5 experts opining on
the inappropriateness of relying on the PCL–R to predict
future dangerousness, allegedly filed with a motion in limine
seeking to exclude Dr. Ryan's testimony in another federal
capital case; 20 and (6) Russell Stetler, an attorney, outlining
deficiencies in defense counsel during the sentencing phase
and their failure to develop mitigation evidence.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A76

3

U.S. v. Lee, Not Reported in F.Supp.2d (2010)

Petitioner offers no explanation for why such affidavits or
other supporting information were not provided to the Court
before it ruled on his original motion for § 2255 relief.
Had they been, the Court might have determined that an
evidentiary hearing was required. However, the Court is
foreclosed by existing legal principles from considering the
information now, absent permission and direction from the
Eighth Circuit to do so.
B. Ineffective Assistance of Counsel Standard
The Court rejects Petitioner's argument that it applied the
wrong standard in resolving his ineffective assistance of
counsel claims. Additionally, the Court finds that all other
arguments related to such claims are successive.
Petitioner failed, both in his original petition and his Rule
59(e) petition, to make a sufficient showing that absent
counsel's deficient conduct there is “a reasonable probability
that at least one juror would have struck a different balance.”
Wiggins v. Smith, 539 U.S. 510, 537, 123 S.Ct. 2527, 156
L.Ed.2d 471(2003)(discussing that prejudice occurred when
counsel failed to put into evidence Wiggins' “excruciating
life history” during sentencing). Petitioner failed to make
a sufficient showing that counsel's actions prejudiced him.
He also failed to show what the evidence would have been
had counsel completed further investigation or placed certain
persons on the witness stand. He failed to show what the
testimony would have been, the availability of persons and
evidence, or whether the potential witnesses and evidence
were credible.
The Court did not apply an incorrect standard. Petitioner
simply failed to produce facts sufficient to warrant any relief.
C. Recanted Testimony of Dr. Ryan
The Court comments specifically on Petitioner's arguments
related to Dr. Ryan, Although such contentions should, in the
Court's view, be deemed successive, they are also lacking in
merit.
Petitioner contends that his counsel was ineffective for failing
to fully and adequately object to the psychopathy evidence
presented during the cross-examination of defense expert
Dr. Mark Cunningham. The Government questioned Dr.
Cunningham about the fact that Dr. Thomas Ryan, an expert
for the prosecution, had concluded that Petitioner was a

psychopath based upon his answers to the Hare Psychopathy
Checklist–Revised (or PCL–R). Petitioner claims that Dr.
Ryan later disavowed the use of the PCL–R in capital cases.
Petitioner further claims that “the basis for challenging the
use of psychopathy evidence as a valid predictor for further
dangerousness existed at least as early as September of
1998” 21
*6 Lee's original § 2255 Petition included only one sentence
referencing this argument. That lone reference appeared in a
footnote and read:

At a hearing, Movant's counsel
are prepared to offer evidence that
Dr. Ryan, in sworn testimony and
affidavits filed after his testimony
in this case, has stated that the
Hare Psychopathy Checklist is not an
appropriate instrument to be utilized in
evaluating the future danger of capital
defendants and that he no longer stands
by such testimony or analysis. 22

Petitioner now devotes over 25 pages to this argument. 23
Clearly, the theory is much more developed now than the
cursory reference made in requesting 2255 relief. Again,
Petitioner does not explain why the information he now
includes was not included in connection with his original
petition. Petitioner's conclusory statement that Dr. Ryan,
subsequent to his testimony in this case, stopped using the
PCL–R to evaluate future dangerousness was not sufficient to
place the Court on notice of the full argument that Petitioner
now presents.
However, the claim, even if considered on the merits,
is problematic. Dr. Ryan's recently submitted declaration
describes how, in the Spring of 2000, he concluded that it
was inappropriate to rely on the PCL–R to assess the future
dangerousness of capital defendants. The jury returned its
verdict of death against Petitioner on May 14, 1999. Petitioner
has not explained how counsel could have been expected,
almost one year before Dr. Ryan himself rejected the PCL–
R as an effective predictor of future conduct, to challenge the
scientific underpinnings for his testimony.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A77

4

U.S. v. Lee, Not Reported in F.Supp.2d (2010)

III. CONCLUSION
The Court rejects Petitioner's contention that it applied
incorrect legal standards or committed error which rises
to the level of a defect in the integrity of the federal
habeas proceedings. Nor has Petitioner presented anything
that would require the Court to revisit a previously asserted
claim, such as showing manifest errors of law or fact. The
remainder of Petitioner's contentions are successive. They
are either reiterations of previous arguments or attempts to
introduce new evidence or legal theories which could have
been raised prior to the entry of judgment.
The Court is required by the 2009 Amendments to Rule 11(a)
of the Rules Governing 2255 Proceedings to “issue or deny a
certificate of appealability when it issues a final order adverse
to the applicant.” 24 After considering the matter, the Court
concludes that Petitioner has failed to make a substantial

showing of the denial of a constitutional right. 28 U.S.C. §
2253(c). The Court therefore declines to grant a certificate of
appealability.
For the reasons stated above,
IT IS HEREBY ORDERED THAT Petitioner's Rule 59
motion (Doc. 1165) be, and it is hereby, DENIED.
IT IS FURTHER ORDERED that Petitioner is hereby denied
a certificate of appealability as to all claims for relief.
IT IS SO ORDERED.
All Citations
Not Reported in F.Supp.2d, 2010 WL 5347174

Footnotes
1
2
3
4
5
6
7
8
9
10

11
12
13
14

15
16
17

Doc. 1165. All references to docket entries (“Doc.# ”) refer to filings in this case, Case No. 4:97–CR–00243
(2) GTE.
Doc. 1170.
Doc. 1172.
Doc. 1174.
Doc. 1178.
Doc. 1181.
Doc. 1182.
Assuming Gonzalez applies to Rule 59(e) motions in § 2255 proceedings, which Petitioner disputes.
See Petitioner's Reply, Doc. No. 1172, at 14–16.
See, e.g.,
In re Lindsey, 582 F.3d 1173, 1175–76 (10th Cir .2009) (per curiam) (holding that Rule 60(b)
challenge that district court erred in denying § 2255 motion without an evidentiary hearing necessarily was
an attack on court's analysis of the merits and therefore successive).
See Petitioner's motion, Doc. 1118, at 20 (“This Court has recently approved a request by Movant's present
counsel to fund mtDNA testing and arrangements are being made” for such testing).
Order, Doc. 1154.
Order, Doc. 1156.
Order denying § 2255 relief, Doc. 1163, at 18 (emphasis added). The Court subsequently stated that
Petitioner's failure to provide affidavits was an “arguably fatal” omission. This was probably overstated, but
in the context of the entire opinion it was or should have been clear that the Court did not reject Petitioner's
contentions without a hearing solely because he failed to include affidavits.
Original petition, Doc. 1118, at 14.
Order dated February 29, 2008, Doc. 1153.
The Government submitted two affidavits, one from an attorney for Petitioner Lee and another from an
attorney for co-defendant Chevie Kehoe. See Exhibits C and D to Government's response, doc. 1126.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A78

5

U.S. v. Lee, Not Reported in F.Supp.2d (2010)

18
19

20
21
22
23
24

Because of these affidavits, the record in this case is far more developed than in Paul, where the Government
defended counsel's trial strategy and no affidavits were tendered.
The PCL–R refers to the Hare Pscyhopathy Checklist–Revised. “The PCL–R is a 20–item instrument intended
to assess traits associated with the construct of psychopathy.” See Affidavit of John Edens, at ¶ 5, attached
to Rule 59 motion, Doc. No. 1165.
Petitioner contends the affidavits were submitted in support of a motion in limine filed in the case of United
States v. Willis Haynes, No. PJM–98–0520 (D.Md.) On May 24, 2000.
Petitioner's Rule 59 motion, Doc. 1165 at 22.
Petitioner's Motion, Doc. 1118 at 34, n. 14.
Petitioner's Rule 56 motion, Doc. 1165 at 19–45.
This rule was not in effect at the time the Court entered Judgment denying Petitioner's § 2255 motion.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A79

6

U.S. v. Lee, 792 F.3d 1021 (2015)

792 F.3d 1021
United States Court of Appeals,
Eighth Circuit.
UNITED STATES of America, Plaintiff–Appellee
v.
Daniel Lewis LEE, also known as Daniel
Lewis Graham, also known as Danny Lee, also
known as D L Graham, Defendant–Appellant.
No. 14–2853.
|
Submitted: April 16, 2015.
|
Filed: July 13, 2015.
|
Corrected: Dec. 14, 2015.
Synopsis
Background: Following denial of federal inmate's motion
to vacate, set aside, or correct sentence, 2008 WL 4079315,
the United States District Court for the Eastern District
of Arkansas, J. Leon Holmes, J., 2014 WL 1093197,
denied inmate's motion for relief from judgment, and inmate
appealed.

Opinion
MURPHY, Circuit Judge.
Daniel Lewis Lee appeals the district court's denial of his
Rule 60(b) motion seeking relief from the final judgment
entered in his 28 U.S.C. § 2255 habeas petition. In his initial
habeas petition, Lee had asserted that his trial counsel was
ineffective, but he failed to attach any evidence to support that
claim. The petition was denied, and Lee subsequently filed
a Rule 60(b) motion arguing that his initial habeas counsel
had been ineffective for failing to present available evidence.
The district court 1 characterized Lee's motion as a second or
successive habeas motion *1022 filed without the required
precertification by our court, see 28 U.S.C. § 2255(h), and
denied it. Lee appeals, and we affirm.

I.
Lee and codefendant Chevie Kehoe, members of a white
supremacist group, killed a gun dealer, his wife, and their
eight year old daughter during a robbery in January 1996. Lee
was convicted on four racketeering charges, including three
murders in aid of racketeering, and was sentenced by a jury
to death. We affirmed his conviction and sentence.
States v. Lee, 374 F.3d 637 (8th Cir.2004).

The Court of Appeals, Murphy, Circuit Judge, held that
inmate's motion was second or successive motion that had to
be certified by Court of Appeals.
Affirmed.
Procedural Posture(s): On Appeal.
Attorneys and Law Firms
*1021 George G. Kouros, AFPD, argued, Chicago, IL (Karl
Schwartz, AFPD, Wilmington, DE, Morris H. Moon, AFPD,
on the briefs, Houston, TX) for Defendant–Appellant.

United

In 2006, Lee moved for postconviction relief under 28 U.S.C.
§ 2255. Lee's § 2255 petition alleged that his trial counsel had
provided ineffective assistance during the penalty phase by
not adequately objecting to testimony by government expert
witness Dr. Thomas Ryan, and to Dr. Ryan's report regarding
the Hare Psychopathy Check List-Revised. Evidence based
on the checklist had been introduced at the penalty phase
of Lee's trial and that evidence had indicated he was a
“psychopath” and a future danger in prison if he were
to receive life imprisonment. A footnote in Lee's habeas
petition stated that Dr. Ryan had signed a sworn declaration
repudiating his reliance on the Hare checklist, but neither that
declaration nor supporting exhibits were attached to the §

John Michael Pellettieri, argued, Washington, DC, for
Plaintiff–Appellee.

2255 petition. The district court 2 denied the § 2255 petition
without granting an evidentiary hearing.

Before MURPHY, COLLOTON, and KELLY, Circuit
Judges.

After Lee's § 2255 petition was denied, he filed a Rule
59(e) motion for reconsideration in 2008. Attached for
the first time were affidavits supporting his ineffective
assistance claim. They purport to show that the Hare checklist

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A80

1

U.S. v. Lee, 792 F.3d 1021 (2015)

was scientifically invalid and unreliable for predicting
future dangerousness in prison. Also included was a sworn
declaration of Dr. Ryan stating that he should not have relied
on the Hare checklist in his expert assessment of another
defendant, and indicating that the basis for challenging
that evidence had been available in 1998, before Lee's
1999 trial. Although Judge Eisele denied the motion for
reconsideration, he commented that had counsel timely
presented these affidavits, the court “might have determined
that an evidentiary hearing was required.” Our court denied
Lee's request for a certificate of appealability on whether he
had “received ineffective assistance of counsel relating to
the submission of aggravating factors to the jury to support
his death sentence.” United States v. Lee, 715 F.3d 215, 221
(8th Cir.2013). We also affirmed the denial of Lee's § 2255
petition. Id. at 217.
Lee filed this Rule 60(b) motion in 2013 seeking relief
from the judgment in his § 2255 case. He argued that under
Trevino v. Thaler, –––
the Supreme Court decisions in
U.S. ––––, 133 S.Ct. 1911, 185 L.Ed.2d 1044 (2013), and
Martinez v. Ryan, ––– U.S. ––––, 132 S.Ct. 1309, 182
L.Ed.2d 272 (2012), he was entitled to challenge the denial
of his habeas claim that trial counsel had been ineffective
for failing to make an adequate challenge to the use of the
Hare checklist at sentencing. The district court decided that
it lacked jurisdiction to hear the 60(b) motion because it was
a second or successive § 2255 motion filed without appellate
authorization, but granted Lee a certificate of appealability
on the issue of whether Lee's 60(b) motion was a second
or successive habeas petition. Lee now appeals the district
court's denial of his Rule 60(b) motion.

*1023 II.
After concluding that Lee's Rule 60(b) motion was a second
or successive habeas petition, the district court denied the
motion without prejudice because Lee had not obtained the
required precertification from our court. Lee now presents
the same issue to our court—was his motion a second or
successive habeas petition?
The Antiterrorism and Effective Death Penalty Act of
1996 (AEDPA),
28 U.S.C. § 2244(b), imposes three
requirements on second or successive habeas petitions. First,
any claim “that was presented in a prior application shall be

dismissed.”

Id. at § 2244(b)(1). If a claim was not already

adjudicated,
§ 2244(b)(2) requires its dismissal unless it
relies on “a new and retroactive rule of constitutional law or
new facts showing a high probability of actual innocence.”
Gonzalez v. Crosby, 545 U.S. 524, 530, 125 S.Ct. 2641,
162 L.Ed.2d 480 (2005). Finally, before filing a second or
successive petition in district court, a habeas applicant must
receive an order authorizing it from the court of appeals.
Id. at § 2244(b)(3). Under the statutory scheme, a second
or successive habeas motion filed by someone in federal
custody must also “be certified as provided in section 2244
by a panel of the appropriate court of appeals.” 28 U.S.C. §
2255(h).
The Supreme Court has decided that AEDPA's procedural
requirements for second or successive habeas petitions apply
to motions for relief from a judgment filed under
Rule of Civil Procedure 60(b).

Federal

Gonzalez, 545 U.S. at 531,

125 S.Ct. 2641. The Gonzalez Court explained that
Rule
60(b) motions often contain claims which are “in substance a
successive habeas petition and should be treated accordingly.”
545 U.S. at 530–31, 125 S.Ct. 2641. The Court gave
examples of such motions, one being an assertion that
owing to excusable neglect “the movant's habeas petition had
omitted a claim of constitutional error” and an accompanying
request to present the claim. Id., citing
Harris v. United
States, 367 F.3d 74, 80–81 (2d Cir.2004). Another example
is a motion attacking a “previous resolution of a claim on
the merits ”
original).

545 U.S. at 532, 125 S.Ct. 2641 (emphasis in

A Rule 60(b) motion is not treated as second or successive
under AEDPA, however, if it does not raise a merits challenge
to the resolution of a claim in a prior habeas proceeding, but
instead attacks “some defect in the integrity of the federal
habeas proceedings.”

Gonzalez, 545 U.S. at 532–33, 125

S.Ct. 2641. Thus, the
Rule 60(b) motion in Gonzalez
which sought to challenge a statute of limitations ruling which
had prevented review of an initial habeas petition, did not
require precertification under

§ 2244(b)(3).

Id. at 533,

538, 125 S.Ct. 2641. Lee argues that his Rule 60(b) motion
was wrongly denied because it sought to remedy a defect in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A81

2

U.S. v. Lee, 792 F.3d 1021 (2015)

the initial habeas proceeding caused by counsel's having not
adequately raised trial counsel's ineffectiveness.

1319. A federal habeas court will normally not entertain such
defaulted claims on a § 2254 motion, but a default may be
overcome if the habeas applicant is able to show cause and

Rule 60(b)
After consideration, we conclude that Lee's
motion was correctly denied for lack of precertification since
it was seeking to reopen a claim which had been raised in
his initial habeas petition and decided by the district court.

prejudice for it.
Id. at 1316. Under the Martinez rule, state
collateral counsel's ineffectiveness in failing to raise a viable
claim of ineffective assistance by trial counsel can serve as

See
Gonzalez, 545 U.S. at 532, 125 S.Ct. 2641. Lee
acknowledges that his counsel made the claim in his initial §
2255 petition, but he points out that counsel had omitted the
required evidentiary support to establish prejudice. We have
previously interpreted Gonzalez to provide that omissions
by federal habeas counsel are not procedural defects. In
Ward v. Norris, 577 F.3d 925, 931 (8th Cir.2009), the
appellant had filed a
Rule 60(b) motion asserting that
he had been incompetent at the time of his earlier *1024
habeas proceeding. He contended that his incompetency
claim concerned a defect in his earlier habeas proceeding
Id. at 932.
rather than a challenge to a merits resolution.
Although evidence of the alleged incompetency had been
available at that stage, habeas counsel had not moved for
a stay.
Id. at 934. We concluded that “the substance of
Ward's motion [wa]s a claim for ineffective assistance of
federal habeas counsel, and thus was correctly dismissed
by the district court.” Id. Dismissal was proper given the
Supreme Court's teaching that “the movant's own conduct, or
his habeas counsel's omissions, ordinarily does not go to the
integrity of the proceedings, but in effect asks for a second
chance to have the merits determined favorably.”

Id. at

933, quoting
Gonzalez, 545 U.S. at 532 n. 5, 125 S.Ct.
2641 (internal quotation marks omitted).
None of the cases Lee relies upon would save him from a
dismissal. His primary focus is on
Trevino v. Thaler, –––
U.S. ––––, 133 S.Ct. 1911, 185 L.Ed.2d 1044 (2013), and
Martinez v. Ryan, ––– U.S. ––––, 132 S.Ct. 1309, 182
L.Ed.2d 272 (2012), which he argues permitted the district
court to have acted on his
Rule 60(b) motion. Those cases
are inapposite, however, since they involved federal habeas
review of state court decisions under § 2254. In Martinez,
the Supreme Court carved out a “limited qualification” to
procedural default, explaining that a procedural default occurs
when a state court declines to hear a claim based on a party's
failure to comply with state procedural rules.

Id. at 1316,

Id. at 1315. If
cause to overcome the procedural default.
the habeas claimant can also show prejudice, the procedural
default may be excused and the merits of the trial level
ineffectiveness claim may be reached by the habeas court.
Id. at 1320.
The Court limited its ruling in Martinez to state jurisdictions
where ineffective assistance claims must be raised on initial
collateral proceedings rather than on a direct appeal from
a conviction.
132 S.Ct. at 1320. In Trevino, the Court
expanded this concept to cover state review processes which
make it “virtually impossible” to present a claim of improper
assistance of trial counsel on direct appeal.
133 S.Ct. at
1915 (internal quotation marks omitted). Our court concluded
after Martinez that a Rule 60(b) motion seeking relief from
a judgment on the grounds that a claim was not reached in an
earlier federal habeas due to state court procedural default is
not second or successive. Williams v. Delo, No. 13–2058 (8th
Cir. Sept. 23, 2013).
Lee argues for an extension of Trevino and Martinez to federal
review of claims not adequately raised in an initial § 2255
proceeding. He relies on the concern expressed in Trevino
that failure to overcome a procedural default in a § 2254
proceeding may deprive a petitioner “of any opportunity
at all for review” of a claim for ineffective assistance of
trial counsel.

Trevino, 133 S.Ct. at 1921. According to

Lee, his current
Rule 60(b) motion alleges a procedural
defect in his initial habeas proceeding caused by counsel's
ineffectiveness by not attaching important affidavits and other
supporting evidence to his § 2255 petition.
These arguments fail. In both Trevino and Martinez,
the habeas petitioners adequately raised their claims of
ineffective assistance of trial counsel in their initial
federal habeas petitions.

Trevino, 133 S.Ct. at 1915–16;

Martinez, 132 S.Ct. at 1314. Here in contrast, Lee's § 2255
motion *1025 did not have supporting evidence to establish
prejudice, but only indicated in a footnote that such evidence

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A82

3

U.S. v. Lee, 792 F.3d 1021 (2015)

could be provided at a later date. The district court went on
to reach and deny Lee's claim on the merits. The subsequent
denial of Lee's Rule 59(e) motion did not involve a procedural
default of the type discussed in Trevino and Martinez. Rather,
in denying the motion the district court relied upon our circuit
rule that “Rule 59(e) motions cannot be used to introduce new
evidence ... which could have been offered or raised prior to
the entry of judgment,”
United States v. Metro. St. Louis
Sewer Dist., 440 F.3d 930, 934 (8th Cir.2006). It also denied
a certificate of appealability as did our court.

No evidentiary omission by counsel in Lee's first § 2255
petition amounted to a procedural defect in the integrity of
his habeas proceeding, see Gonzalez, 545 U.S. at 532, 125
S.Ct. 2641, and any attempt to relitigate the merits denial of
the petition would count as a second or successive petition
subject to AEDPA's precertification demands, 28 U.S.C. §
2255(h). For all these reasons, the judgment of the district
court is affirmed.
All Citations
792 F.3d 1021

Footnotes
1
2

The Honorable J. Leon Holmes, United States District Judge for the Eastern District of Arkansas.
At that time the case was before the Honorable G. Thomas Eisele, United States District Judge for the Eastern
District of Arkansas.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A83

4

U.S. v. Lee, 811 F.3d 272 (2015)

811 F.3d 272
United States Court of Appeals,
Eighth Circuit.
UNITED STATES of America, Appellee
v.
Daniel Lewis LEE, also known as Daniel
Lewis Graham, also known as Danny Lee,
also known as D L Graham, Appellant.
No. 14–2853.
|
Dec. 14, 2015.
Appeal from U.S. District Court for the Eastern District of
Arkansas–Little Rock (4:06–cv–01608–GTE).
Attorneys and Law Firms
George G. Kouros, Asst. Fed. Public Defender, argued,
Chicago, IL (Karl Schwartz, Asst. Fed. Public Defender,
Wilmington, DE, Morris H. Moon, Asst. Fed. Public
Defender, on the briefs, Houston, TX), for appellant.
*273 John Michael Pellettieri, argued, Washington, DC, for
appellee.

ORDER
The petition for rehearing by the panel is denied. Judge Kelly
dissents from the denial of the petition for rehearing by the
panel.

KELLY, Circuit Judge, dissenting from the denial of panel
rehearing.
I respectfully dissent from the denial of Lee's petition for
rehearing by the panel, because the petition—and the recent
Seventh Circuit decision it brings to our attention—provide
convincing reasons for us to revisit the issues raised in this
case. See
Ramirez v. United States, 799 F.3d 845 (7th
Cir.2015). In particular, I think it is appropriate to reconsider
whether

Martinez v. Ryan, ––– U.S. ––––, 132 S.Ct. 1309,

182 L.Ed.2d 272 (2012), and
Trevino v. Thaler, ––– U.S.
––––, 133 S.Ct. 1911, 185 L.Ed.2d 1044 (2013), should be
limited to petitions for post-conviction relief filed by state

prisoners under
28 U.S.C. § 2254, or whether, perhaps
under limited circumstances, these two cases may also apply
to similar petitions filed by federal prisoners under 28 U.S.C.
§ 2255.
If Martinez and Trevino have an animating principle, it is that
a prisoner must have at least one opportunity to present a
claim that trial counsel was ineffective—and to present it with
the assistance of effective counsel. Martinez pointed out that
“if counsel's errors in an initial-review collateral proceeding
do not establish cause to excuse [a] procedural default in a
federal habeas proceeding, no court will review the prisoner's
132 S.Ct. at 1316, and Trevino reiterated that
claims,”
“failure to consider a lawyer's ‘ineffectiveness' during an
initial-review collateral proceeding as a potential ‘cause’ for
excusing a procedural default will deprive the defendant of
any opportunity at all for review of an ineffective-assistanceof-trial-counsel claim,”
133 S.Ct. at 1921. In this case, if
one grants that Lee's § 2255 counsel was ineffective in failing
to attach the evidence in support of his ineffectiveness claim
to his petition, Lee will have completed his journey through
the court system without ever having had a chance to present
a colorable ineffective assistance of trial counsel claim to a
court with the aid of an effective lawyer—which seems to
be exactly the problem that Martinez and Trevino sought to
remedy.
Whether the concerns that motivated Martinez and Trevino
apply equally to the post-conviction procedures afforded
to federal prisoners is a question worth examining. See
Ramirez, 799 F.3d at 854. Like the state systems
that Trevino discussed, the federal system also strongly
discourages ineffectiveness of trial counsel claims on direct
appeal. See
Ramirez, 799 F.3d at 852–53. In our circuit,
“[w]e only review ineffective assistance of counsel claims
on direct appeal in ‘exceptional cases.’ ” United States v.
Mathison, 760 F.3d 828, 831 (8th Cir.2014). As a result,
the § 2255 motion Lee brought was effectively his first
opportunity to bring an ineffective assistance of trial counsel
claim. Martinez was clear that habeas review for similarlysituated prisoners convicted in state court should not be
foreclosed unless the prisoners had the benefit of attorney
representation in bringing their ineffectiveness claims, and
that representation was effective.
Martinez, 132 S.Ct. at
1317 (“To present a claim of ineffective assistance at trial in

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A84

1

U.S. v. Lee, 811 F.3d 272 (2015)

accordance with the State's procedures, ... a prisoner likely
needs an effective attorney.”). 1

support his ineffectiveness of trial counsel claims). 3

*274 How the doctrine outlined in Martinez and Trevino
would apply as a practical matter in the federal context is
the next question. Unlike state collateral review proceedings,
§ 2255 proceedings lack a subsequent layer of review by
another judicial system. Lee filed a Rule 60(b) motion,
but treating his Rule 60(b) motion as the equivalent of a
state prisoner's
§ 2254 petition potentially implicates the
restrictions placed on such motions in the habeas context
Gonzalez v. Crosby.
by the Supreme Court's decision in
See 545 U.S. 524, 532 & n. 5, 125 S.Ct. 2641, 162 L.Ed.2d
480 (2005). Yet while Gonzalez held that a Rule 60(b)
motion that is in effect a second or successive habeas petition
is subject to the strict requirements of § 2244(b), it also
recognized that “Rule 60(b) has an unquestionably valid role
to play in habeas cases.”
Id. at 534, 125 S.Ct. 2641.
Even post-Gonzalez, there remains no bar to filing a Rule
60(b) motion that “attacks ... some defect in the integrity
of the federal habeas proceedings.”

Id. at 532, 125 S.Ct.

2

2641. And Gonzalez stated only that a Rule 60(b) movant's
“habeas counsel's omissions ... ordinarily do [ ] not go to
the integrity of the proceedings,”
Gonzalez, 545 U.S. at
532 n. 5, 125 S.Ct. 2641 (emphasis added). It did not hold
that they can never do so. Perhaps this limiting language in
Gonzalez, combined with our long-standing precedent that
“Rule 60(b) is to be given a liberal construction so as to
do substantial justice and ‘to prevent the judgment from
becoming a vehicle of injustice,’ ”
MIF Realty L.P. v.
Rochester Assocs., 92 F.3d 752, 755–56 (8th Cir.1996), would
permit a limited Rule 60(b) motion to reopen an initialreview collateral proceeding: when the Rule 60(b) motion
was the prisoner's first opportunity to present an ineffective
assistance of trial counsel claim, where the prisoner was
otherwise diligent, and where the claim has “some merit.”
See

Martinez, 132 S.Ct. at 1318; see also

Ramirez,

799 F.3d at 851;
Cox v. Horn, 757 F.3d 113, 123–24 (3d
Cir.2014) (holding that Rule 60(b) requires consideration of
defendant-specific equitable principles even post-Gonzalez
). Whether this type of Rule 60(b) motion, post-Martinez
and Trevino, would attack a defect in the federal habeas
proceedings' integrity and therefore constitute a “true” Rule
60(b) motion merits a closer look.
532, 125 S.Ct. 2641; see also

(finding valid a Rule 60(b) motion based in part on postconviction counsel's failure to attach documents necessary to

Gonzalez, 545 U.S. at
Ramirez, 799 F.3d at 850

*275 Even if, as our panel opinion holds, Gonzalez
precludes Lee's Rule 60(b) motion on the particular facts of
this case, I question whether we should foreclose application
of Martinez and Trevino to other § 2255 cases where
the petitioner may bring a more clearly valid Rule 60(b)
motion: for example, cases where the petitioner's counsel
entirely abandoned him or her, as opposed to simply omitting
necessary evidentiary support when filing the petition as Lee's
counsel did. See Williams v. Delo, No. 13–2058 (8th Cir. Sept.
23, 2013) (unpublished) (holding that prisoner filed a “true
§ 2254 petition
Rule 60(b) motion” and not a successive
when he alleged his post-conviction counsel was ineffective
in presenting an ineffectiveness of trial counsel claim);
Mackey v. Hoffman, 682 F.3d 1247, 1253 (9th Cir.2012)
(holding that “when a federal habeas petitioner has been
inexcusably and grossly neglected by his counsel in a manner
amounting to attorney abandonment in every meaningful
sense that has jeopardized the petitioner's appellate rights, a
district court may grant relief pursuant to Rule 60(b)(6).”).
Lee's case presents a difficult procedural issue, with a
potentially meritorious claim of effective assistance of
counsel underlying it. Whether a Rule 60(b) motion such as
his, filed in the course of § 2255 proceedings, could ever
provide a means for bringing meritorious ineffectiveness of
counsel claims to the courts' attention for the first time is
an important question—one that another court of appeals has
answered in the affirmative.
Ramirez, 799 F.3d at 850–52.
I recognize that, in order to succeed in his appeal, Lee would
have to prevail on various other issues—like whether the
district court abused its discretion in denying his Rule 60(b)
motion, and whether his ineffectiveness claim has “some
merit.” See Martinez, 132 S.Ct. at 1318. I do not express a
position on these issues here. I merely suggest that by granting
Lee's request for rehearing, we could give the issues he raises
the consideration I think they warrant.
For these reasons, I respectfully dissent from the denial of the
petition for rehearing by the panel.
All Citations
811 F.3d 272 (Mem)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A85

2

U.S. v. Lee, 811 F.3d 272 (2015)

Footnotes
1

It may be even less problematic to excuse procedural defaults in federal post-conviction proceedings, since
doing so does not implicate concerns about thwarting the states' interests in the finality of their judicial
processes.

Coleman v. Thompson, 501 U.S. 722, 747–48, 111 S.Ct. 2546, 115 L.Ed.2d 640 (1991); see

also
United States v. Doe, 806 F.3d 732, 753 (3d Cir.2015) (noting that § 2255 differs from § 2254 in that
“comity and federalism are irrelevant”). In this case, the procedural rule that arguably barred Lee's attempt
to bring the evidence omitted from his § 2255 petition to the court's attention was a judicially-created federal
one. If we were to excuse it, the only framework of procedural rules we would impinge on is our own, not
another sovereign's.
2

3

§
As an initial matter, it remains an open question whether Gonzalez, which was decided in the context of
2254 proceedings, applies to the same extent to § 2255. Gonzalez itself explicitly stated that it was limiting
§ 2254, rather than § 2255, cases.
Id. at 529 n. 3. And while the majority of the
its consideration only to
courts of appeals have extended Gonzalez to the § 2255 context, see United States v. Arrington, 763 F.3d
17, 22 (D.C.Cir.2014) (collecting cases), those courts were not considering the narrow application of Rule
60(b) to provide for Martinez- and Trevino-like remedies.
It is true that Ramirez's post-conviction counsel also abandoned him on appeal, causing him to miss the
deadline for appealing the denial of his § 2255 motion.
Id. at 849. But his counsel's evidentiary omission
must have been independently sufficient to support the Seventh Circuit's conclusion that his Rule 60(b) motion
was valid, because the court did not simply reinstate the appeal of the denial of his § 2255 motion, but instead
instructed the district court to reopen the § 2255 proceedings so that he could cure the evidentiary omission.
Id. at 856.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

A86

3

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 1 of 20

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
WESTERN DIVISION
CAPITAL CASE
UNITED STATES OF AMERICA
v.

PLAINTIFF
NO. 4:97CR00243-02 JLH

DANIEL LEWIS LEE

DEFENDANT
OPINION AND ORDER

Daniel Lewis Lee is a federal death row inmate. In a 1999 trial over which the Honorable
G. Thomas Eisele presided, Lee and co-defendant, Chevie Kehoe, were convicted of conspiring to
violate and violating the Racketeer Influenced and Corrupt Organizations Act, 18 U.S.C. § 1962(c)(d), and of three murders in aid of racketeering in violation of 18 U.S.C. § 1959(a)(1). During the
penalty phase, the jury first decided that Kehoe should be sentenced to life imprisonment and then,
separately, that Lee should be sentenced to death. The Eighth Circuit affirmed Lee’s conviction and
sentence. United States v. Lee, 374 F.3d 637 (8th Cir. 2004), cert. denied 545 U.S. 1141 (2005).
Lee has now filed a motion to vacate his conviction and sentence under 28 U.S.C. § 2255,
or, in the alternative, for relief under Rule 60 of the Federal Rules of Civil Procedure. In his § 2255
motion – his third such motion – Lee contends that newly discovered evidence demonstrates dueprocess violations under Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10 L. Ed. 2d 215 (1963),
as well as Giglio v. United States, 405 U.S. 150, 92 S. Ct. 763, 31 L. Ed. 2d 104 (1972), and Napue
v. Illinois, 360 U.S. 264, 79 S. Ct. 1173, 3 L. Ed. 2d 1217 (1959). The newly discovered evidence
is contained in the declaration of James Wanker (Document #1297-2) and an Oklahoma court record
– the fee application for a lawyer who represented Lee in a preliminary hearing before a district
judge (Document #1297-4).

A87

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 2 of 20

At trial, Wanker testified that Lee told him that he had committed murder, describing a crime
factually similar to the one at issue. In his present declaration, he says that he did not believe Lee,
that he told federal law enforcement agents, as well as the federal prosecutor, that he did not believe
Lee, that he was instructed to limit his testimony to what he was asked, and that he was instructed
not to give personal opinions. This information was not disclosed to defense counsel.
During the sentencing phase, the United States introduced an Oklahoma court record
showing that Lee had been convicted of robbery. A man named Joey Wavra was killed in
connection with that robbery, and the Government argued that Lee had committed murder. The fee
application, beneath the itemized time records, summarizes the proceeding and states in that
summary that the court found the evidence insufficient to support a charge of first-degree murder.
The initial issue is whether Lee’s motion is second or successive within the meaning of
§ 2255(h) and therefore is subject to that provision’s requirement of authorization by the circuit.
28 U.S.C. § 2255(h); 28 U.S.C. § 2244(b)(3)(A). It is. Because Lee has not obtained authorization
from the Eighth Circuit to file a second or successive § 2255 motion and because he is not entitled
to relief under Rule 60, his motion is denied.
I.

PROCEDURAL HISTORY
Lee has unsuccessfully pursued both direct and collateral review of his conviction and

sentence. After the jury returned a verdict sentencing Lee to death, Judge Eisele granted Lee’s
motion for a new penalty-phase trial based, in part, on the admission of improper futuredangerousness evidence. United States v. Lee, 89 F. Supp. 2d 1017 (E.D. Ark. 2000). Judge Eisele
determined that, based on the scope of direct examination and the Court’s instructions, the
Government improperly cross-examined the defense expert mental-health witness, Dr. Mark
Cunningham, about Lee’s prior bad acts and psychopathy diagnosis. Judge Eisele referred to
2

A88

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 3 of 20

Dr. Cunningham’s testimony that Dr. Thomas Ryan, the Government’s mental-health expert, used
the Hare Psychopathy Checklist-Revised (PCL-R) to determine Lee was a psychopath and therefore
presented a propensity for future dangerousness in prison. Judge Eisele also found that the
Government’s questioning of Dr. Ryan about Lee’s violent nature was improper rebuttal. Id. at
1027-32. The Circuit reversed and reinstated the death sentence, holding that the testimony did not
exceed the permissible scope and that, even if the Government’s examination of expert witnesses
was improper, Lee was not unfairly prejudiced. United States v. Lee, 274 F.3d 485, 494-96 (8th Cir.
2001).
In 2006, Lee filed his first motion to vacate his conviction and sentence under 28 U.S.C.
§ 2255, raising several grounds for relief: he was denied effective assistance of counsel at various
trial stages, including voir dire; his death sentence was unconstitutional; his juvenile conviction was
erroneously admitted; his trial lawyers were unqualified to represent capital defendants; and there
was newly discovered evidence related to a co-defendant, Kirby Kehoe. Document #1118. As part
of an actual-innocence argument, Lee made a general, unsupported Brady allegation and asked the
Government to review its files for any previously undisclosed Brady material. In an ineffectiveness
sub-claim, Lee challenged his trial lawyers’ decision not to seek funding for mtDNA testing of a hair
from a cap linked to the murders; Lee proffered a mtDNA report excluding the discovered hair as
originating from Lee, Document #1138-2. (The jury heard State Crime Laboratory testing showed
the discovered hair was microscopically similar to Lee’s. TR 4722.) In another ineffectiveness
claim, Lee argued that a properly conducted investigation of his involvement in the 1990 murder
of Joseph Wavra – upon which the Government relied to demonstrate Lee’s future dangerousness
at the penalty phase – would have revealed his actual role, placing his actions in a different light and
therefore leading to a different sentence. Judge Eisele denied the post-conviction motion without
3

A89

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 4 of 20

a hearing. United States v. Lee, 2008 WL 4079315 (E.D. Ark. 2008). He held that the jury’s finding
of guilt would not have been different if the mtDNA evidence had been introduced because the
evidence of guilt was overwhelming. Id. at *25. With respect to Lee’s role in the Wavra murder,
Judge Eisele determined “there is nothing before the Court to indicate that [Lee’s] ‘true role’ in the
murders was anything other than portrayed during the sentencing trial.” Id. at *45. He held that
Lee’s arguments did not demonstrate that the federal death penalty was unconstitutional. Id. at *5560. Judge Eisele also rejected Lee’s ineffectiveness arguments that his trial lawyers should have
raised additional objections to Dr. Cunningham’s and Dr. Ryan’s testimony, and to the introduction
of the PCL-R. Id. at *46, 47-48. He recognized the Circuit’s holding that Lee was not unfairly
prejudiced by that evidence. Id. at *48. In a Rule 59(e) motion to alter and amend the § 2255
judgment, Lee revisited his ineffectiveness claim related to the psychopathy-diagnosis testimony,
arguing the PCL-R has no scientific validity in predicting future dangerousness of capital
defendants. Document #1165. For the first time, Lee attached supporting material, including an
affidavit submitted by Dr. Ryan in support of a post-conviction motion in a separate federal capital
case, stating he no longer believed the PCL-R is a reliable indicator of future dangerousness in
prison. Document #1165-4. Denying the Rule 59(e) motion, Judge Eisele found the argument was
successive and lacking in merit. United States v. Lee, 2010 WL 5347174, *5-6 (E.D. Ark. 2010).
Judge Eisele granted a certificate of appealability on whether the death penalty was
constitutionally applied. The Eighth Circuit expanded the certificate to include the question of
whether Lee received ineffective assistance based on his trial lawyers’ use of race-based peremptory
challenges during voir dire. The Eighth Circuit then affirmed Judge Eisele’s denial of the § 2255
petition and the denial of the Rule 59(e) motion. United States v. Lee, 715 F.3d 215 (8th Cir. 2013).

4

A90

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 5 of 20

Lee thereafter filed a Rule 60(b) motion to set aside the judgment denying his § 2255 motion.
He argued that his habeas lawyers were ineffective for failing to challenge the validity of the PCL-R
in predicting future dangerousness. Document #1230. This Court denied the motion without
prejudice, finding the Rule 60(b) motion was a second or successive § 2255 motion for which Lee
had not obtained the required authorization from the Eighth Circuit. United States v. Lee, 2014 WL
1093197 (E.D. Ark. 2014). The Eighth Circuit affirmed. United States v. Lee, 792 F.3d 1021 (8th
Cir. 2015).
II.

EVIDENCE AT TRIAL
Based on the trial record, the Eighth Circuit summarized the events that led to Lee’s

conviction as follows:
The evidence presented at trial showed that Lee, Chevie Kehoe (Kehoe), his
father Kirby Kehoe, his brother Cheyne Kehoe (Cheyne), and Faron Lovelace
participated in a variety of criminal activities to promote and fund a white
supremacist organization known as the Aryan Peoples’ Republic or the Aryan
Peoples’ Resistence (APR). Kehoe formed the APR to establish an independent
nation of white members of the Christian Identity faith in the Pacific Northwest. He
patterned it after an antigovernment, white supremacist organization called the
Order.
Lee met Kehoe in 1995, and Kehoe recruited him into the APR. In January
1996, Lee and Kehoe left Spokane, Washington, and traveled to Arkansas where they
dressed in police raid clothing and went to the home of William Mueller, a gun
dealer near Tilly, Arkansas, who owned a large collection of weapons and
ammunition. Kehoe and his father had robbed Mueller in February of 1995, and
Kehoe expected to find valuable property at his house. The Muellers were not at
home when Lee and Kehoe arrived so they waited. When the Muellers returned, Lee
and Kehoe overpowered and incapacitated Mueller and his wife. Then they
questioned Nancy Mueller’s eight-year-old daughter, Sarah Powell, about where they
could find cash, guns, and munitions. After finding $50,000 in cash, guns, and
ammunition, they shot the three victims with a stun gun, placed plastic bags over
their heads, and sealed the bags with duct tape. They took the victims in Kehoe’s
vehicle to the Illinois Bayou where they taped rocks onto them and threw them into
the bayou. The bodies were discovered in Lake Dardanelle near Russellville,
Arkansas, in late June of 1996.
5

A91

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 6 of 20

Kehoe and Lee returned to Spokane with the stolen property around January
14, 1996. Kehoe traveled to several states to sell the Mueller property at gun shows.
He and Lee were apprehended by law enforcement in 1997 after some of Mueller’s
guns had been traced to Kehoe.
Lee, 374 F.3d at 641-42.
Kehoe’s mother, Gloria Kehoe, testified that Lee and Kehoe separately confessed the
murders to her. She told the jury of the murder details that Kehoe described, and she testified that
Lee told her that Kehoe paid him for his participation with $1000 and a rifle. TR 4971-75. Cheyne
also testified that Kehoe confessed to him. He said Kehoe gave details of the murders, including
Lee’s role, and showed him the raid gear that he and Lee had worn. TR 5326-30. Both testified that
Kehoe admitted killing the child by himself because Lee refused. TR 4974, 5328.
Lee’s and Kehoe’s former neighbors, James and Dalvine Wanker, also testified for the
Government. On direct examination, James said that in May of 1996 he and his wife moved into
an RV park at the Shadows Motel in Spokane, where Lee and Kehoe resided. TR 4078-79. He said
that Lee told him in July of 1996 that “when he went down south somebody had . . . f*** with him
and so he wrapped them up, taped them, and threw them in the swamp.” TR 4081-83. When asked
on cross-examination why he did not call the police after hearing Lee’s claim, James said he “just
kind of blew it off as [Lee] was talking to hear himself talk.” TR 4088. Dalvine similarly testified
that, in response to her concerns about a new tenant at the Shadows Motel, Lee retrieved a firearm
from his trailer and told her that “he wasn’t afraid to use it and that when he had gone down south
and that some people had f*** with him, and that he had taken care of it.” TR 4093.
The Government also presented physical evidence supporting Lee’s conviction. Paint
samples taken from Kehoe’s GMC truck were “consistent, very similar” to metallic blue paint chips
found in duct tape removed from the slain bodies. TR 3658-64, 3678-84. The jury heard that an
6

A92

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 7 of 20

Idaho storage unit rented by Kehoe contained documents naming the Muellers, as well as paperwork
naming Kehoe, or his wife. TR 3479-80, 3610-28. Fibers microscopically similar to the carpet in
the Muellers’ living room and a hair microscopically similar to William Mueller’s were discovered
on the Muellers’ gun display case in the unit. TR 3489-90, 3646-54. Fingerprints inside and outside
display cases matched Kehoe’s and Lee’s. TR 3483-84, 3489-90, 3707-10.
During Lee’s penalty phase, the Government sought to prove five aggravators supporting
a death sentence: he murdered the victims with the expectation of receiving something of pecuniary
value; he murdered the victims after substantial planning and premeditation; the crime involved the
intentional killing of more than one person in a single criminal episode; the risk of future
dangerousness; and the crime involved a particularly vulnerable victim based on her youth.
Document #1297-11; TR 7373.
To justify a death sentence for Lee when Kehoe had been sentenced to life imprisonment,
the Government’s penalty-phase case emphasized the future-dangerousness aggravator. The
Government argued that Lee’s past conduct showed that he was violent and volatile, and that he
would present a danger in prison. TR 7378-84, 7956-75. Focusing on the Wavra murder, the
Government introduced evidence showing Lee’s role in that crime. Brian Compton, who was at the
party when Wavra was killed by John David Patton, testified about Lee’s involvement, TR 7408-18;
the transcript of Lee’s testimony at John David Patton’s Oklahoma preliminary hearing was read
aloud, TR 7418-56; and the responding Oklahoma detective and the forensic pathologist described
Wavra’s wounds and cause of death, TR 7389-98, 7398-407. The jury heard that, at a social
gathering in 1990, Lee, then age seventeen, and his cousin, John David Patton, beat Wavra and
forced him down a manhole into a storm sewer; that Patton went down into the manhole with
Wavra, while Lee retrieved a plastic bag, rope, and knife that he handed down to Patton; that Patton
7

A93

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 8 of 20

handed Wavra’s clothes up to Lee, who put them in the plastic bag; and that Patton then used the
knife to repeatedly stab Wavra and slit his throat. Patton was convicted of first-degree murder in
an Oklahoma state court, while Lee pled to deferred adjudication on a robbery charge. TR 7470.
Other future-dangerousness evidence included (1) Lee’s threatening behavior toward a sheriff’s
deputy, while he was in jail awaiting trial, TR 7463-67, and (2) a 1995 Florida conviction for
carrying a concealed weapon, TR 7469.
In both opening and closing argument, the Government told the jury that Lee “has an earlier
murder under his belt.” TR 7964. It argued that, even though Patton “wielded that knife,” Lee
helped him by giving him the knife and rope. TR 7382. The Government argued Lee knew what
he was doing when he gave the knife to Patton, and that he both “legally and morally” had “the
blood of Joey Wavra” on his hands. TR 7962-63. The Government contended the robbery plea
offer was a “gift” from the Oklahoma prosecutor and an “incredible deal” – and a missed
opportunity for Lee to turn his life around. TR 7383, 7963-64. The jury unanimously found the
Government had established beyond a reasonable doubt the existence of each aggravating
circumstance, except the substantial-planning-and-premeditation aggravator.
Both Judge Eisele and the Eighth Circuit recognized the Wavra evidence as an integral piece
of the Government’s penalty-phase case. In finding that Lee was not unfairly prejudiced by expert
testimony and then reinstating the death penalty, the Eighth Circuit noted that, “none of the evidence
elicited from Dr. Cunningham was likely to inflame the jury as much as testimony about Lee’s
involvement in the murder of Joey Wavra, which had been part of the government’s case.” Lee, 274
F.3d at 494. Similarly, in rejecting Lee’s argument that his trial lawyers should have done more to
investigate the Wavra murder, Judge Eisele acknowledged evidence of Lee’s participation in that

8

A94

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 9 of 20

crime was “powerful and likely contributed to or influenced the jury’s ultimate decision” in favor
of a death sentence. Lee, 2008 WL 4079315, at *45.
III.

LEE’S CURRENT CLAIMS
Lee contends, first, that the Government suppressed material exculpatory evidence that his

lawyers could have used to challenge James Wanker’s guilt-phase testimony in violation of Brady
v. Maryland, Napue v. Illinois, and Giglio v. United States, and, second, that the Government failed
to disclose material exculpatory evidence contradicting the prosecutor’s penalty-phase argument
about his culpability in the Wavra murder in violation of the same three Supreme Court cases.
First, Lee argues the Government failed to disclose the entirety of Wanker’s pretrial
interviews and statements – specifically that Wanker told the investigating agents and the
prosecuting attorney that he did not believe Lee’s claims implicating himself in the Mueller murders.
Lee asserts that his lawyers could have used this favorable evidence to challenge Wanker’s
testimony and that the Government knew or should have known that Wanker’s testimony was
misleading and failed to correct it. Wanker’s guilt-phase testimony was that Lee told him that he
had committed murders and described them as factually similar to the Mueller murders. In his
present declaration, Wanker says that Lee had a habit of falsely claiming responsibility for criminal
acts to make himself seem like a “tough guy.” He says that he repeatedly told law enforcement and
prosecutors that he did not believe Lee’s claims were true. Document #1297-2. Lee proffers copies
of the officers’ reports that do not include Wanker’s statements in which he stated that he doubted
the truthfulness of Lee’s confession. Document #1297-8, #1297-9. Wanker also says that, before
he testified, the Government instructed him to “limit [his] testimony to only what was asked and not
to give personal opinions.” Document #1297-2. Wanker testified on cross-examination that he did
not contemporaneously report Lee’s claim to law enforcement because he thought Lee was “talking
9

A95

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 10 of 20

to hear himself talk.” TR 4088; Document #1297-2. Lee’s lead guilt-phase lawyer attests that if he
had known about Wanker’s interview statements he would have aggressively questioned him further
on this point. Document #1297-3. Wanker says that if anyone had asked him about his beliefs at
trial he would have testified that he continued to hold that opinion, and that he still did not believe
that “[Lee’s] story was anything more than just empty bragging.” Document #1297-2.
Second, Lee argues the Government suppressed the fact that an Oklahoma state court found
at a preliminary hearing that there was insufficient evidence for a first-degree murder charge against
him in the Wavra case. He says this evidence contradicts the Government’s penalty-phase argument
that prosecutors gave him a “gift” by not charging him with murder. TR 7383. Lee contends that,
because the Government consulted with Oklahoma law enforcement officials involved in the Wavra
case, it must have learned about the judicial finding or the officers’ knowledge should be imputed
to the Government. He attaches in support an “Application For Attorney Fees” and “Statement of
Time Expended” filed by the lawyer who represented him at the preliminary hearing. The unsigned
Statement includes this paragraph:
The matter came on for hearing before Judge Hall; District Attorney called witness;
hearing held; Court finds crime of Murder I not established by evidence; Court
recommends a Dismissal of Murder I charges and State consider refiling on charge
of Robbery I.
Document #1297-4.
IV.

WHETHER LEE’S MOTION IS SECOND OR SUCCESSIVE
A “second or successive” § 2255 motion to vacate, correct, or set aside a sentence must be

certified by the Circuit to include:
(1) newly discovered evidence that, if proven and viewed in light of the evidence as
a whole, would be sufficient to establish by clear and convincing evidence that no
reasonable factfinder would have found the movant guilty of the offense; or
10

A96

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 11 of 20

(2) a new rule of constitutional law, made retroactive to cases on collateral review
by the Supreme Court, that was previously unavailable.
28 U.S.C. § 2255(h). See 28 U.S.C. § 2244(b)(2). Because this motion is not Lee’s first-in-time
§ 2255 motion and because Lee has not obtained the certification required by § 2255(h), the
threshold question is whether it is a second or successive application for habeas relief. If so, this
Court lacks jurisdiction to consider the motion.
The Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA) does not define the
term “second or successive.” Crawford v. Minnesota, 698 F.3d 1086, 1089 (8th Cir. 2012). The
United States Supreme Court has recognized the term does not cover all motions “filed second or
successively in time.” Panetti v. Quarterman, 551 U.S. 930, 944, 127 S. Ct. 2842, 2853, 168 L. Ed.
2d 662 (2007). That phrase instead is a “term of art” incorporating the pre-AEDPA abuse-of-thewrit doctrine. Crawford, 698 F.3d at 1089 (citing Slack v. McDaniel, 529 U.S. 473, 486, 120 S. Ct.
1595, 1605, 146 L. Ed. 2d 542 (2000)). AEDPA codified some of the existing limits on successive
petitions and imposed new restrictions. Felker v. Turpin, 518 U.S. 651, 664, 116 S. Ct. 2333, 2340,
135 L. Ed. 2d 827 (1996). See Baranski v. United States, 880 F.3d 951, 955 (8th Cir. 2018) (“In
[AEDPA], Congress imposed stricter limitations on the filing of second and successive § 2255
motions than the abuse-of-the-writ principles . . .”).
In Panetti v. Quarterman, the Supreme Court held that a claim under Ford v. Wainwright,
477 U.S. 399, 106 S. Ct. 2595, 91 L. Ed. 2d 335 (1986), that the defendant is incompetent to be
executed, is not subject to the gatekeeping provisions for second or successive applications for
habeas relief if the claim is promptly raised when ripe. Panetti, 551 U.S. at 945, 127 S. Ct. at 2583.
Limiting its holding to Ford claims, the Supreme Court recognized that, because a petitioner’s
mental condition at the time of the scheduled execution is at issue, Ford claims are generally not
11

A97

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 12 of 20

ripe until after the time for filing an initial habeas petition has passed. Id. at 943, 127 S. Ct. at 2852.
The Court held that its recognition of this exception did not thwart AEDPA’s purposes or allow for
abuse of the writ: “We are hesitant to construe a statute, implemented to further the principles of
comity, finality, and federalism, in a manner that would require unripe (and, often, factually
unsupported) claims to be raised as a mere formality, to the benefit of no party.” Id. at 947, 127 S.
Ct. at 2855.
Citing Panetti, Lee argues that his current § 2255 motion similarly cannot be considered
second or successive because he was unable to raise his Brady1 claims due to the Government’s
concealing the supporting evidence. He also argues that in the Eighth Circuit Brady claims based
on material evidence are not “second or successive” within the meaning of § 2255(h), citing
Crawford v. Minnesota. In Crawford, the Circuit held that a nonmaterial Brady claim raised in a
second-in-time habeas petition was a second or successive application. 698 F.3d at 1090. The
Eighth Circuit recognized that other circuits had held that all second-in-time Brady claims are
subject to § 2255(h)’s preauthorization requirement but did not reach that issue. “While some courts
have concluded that all Brady claims in second habeas petitions are second or successive regardless
of their materiality, that question is not presented here because in this case there was overwhelming
evidence of [guilt].” Id.
Lee also cites United States v. Lopez, 577 F.3d 1053 (9th Cir. 2009), for the same point. In
that case, the Ninth Circuit, like the Eighth Circuit in Crawford, limited its holding to nonmaterial
Brady claims. Lopez, 577 F.3d at 1066-67. More recently, the Ninth Circuit has held that all Brady

1

Because the same analysis applies to Brady and Napue/Giglio claims, Lee’s claims are collectively
referred to as “Brady claims.”
12

A98

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 13 of 20

claims are subject to § 2255(b)’s preauthorization requirement. Brown v. Muniz, 889 F.3d 661, 668,
673 (9th Cir. 2018).
The new guilt-phase evidence upon which Lee relies as a basis for his present motion is that,
when Wanker testified about Lee’s claims related to the Mueller murders, he continued to hold the
opinion that Lee was only posturing. Lee argues Wanker’s testimony gave the false impression that,
while he initially dismissed Lee’s claims as “just talking,” he later changed his assessment and felt
compelled to come forward as a witness. The parties spar over the significance of Wanker’s
testimony in light of other guilt-phase evidence. Lee argues the Kehoes were not credible witnesses;
he says the Government’s timeline does not allow for Kehoe and Lee to murder the victims in
Arkansas and then return to Washington; and he challenges fingerprint evidence, contending there
were opportunities, other than during the Mueller murders, for Lee’s contact with the gun display
cases. These are not new arguments; the jury heard related evidence. Lee also points to the mtDNA
testing conducted in 2007 in connection with his initial § 2255 motion showing that the hair linked
to the crimes was not his. Document #1297-6.
There is no reasonable probability, however, that Wanker’s testimony that he continued to
be skeptical of Lee’s claims would have resulted in a different verdict. The jury heard Wanker
testify that he did not call the police when Lee claimed to have committed murder because he
believed that Lee was “talking to hear himself talk.” His present declaration that at trial he
continued to believe that Lee’s story was “empty bragging” does not materially change his
testimony. Evidence of Wanker’s continued opinion is not enough to overcome the overwhelming
evidence of Lee’s guilt. Thus, as to the Wanker testimony, Lee has not demonstrated that material
evidence was withheld by the Government, so that part of his claim is second or successive under

13

A99

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 14 of 20

Crawford.2 698 F.3d at 1089-90 (citing Lopez, 577 F.3d at 1066). Because the alleged due-process
violations are not based on material evidence, the gatekeeping provision of § 2255(h) applies to
Lee’s claim based on the Wanker testimony.
On the other hand, assuming that the Oklahoma state court held at a preliminary hearing that
the evidence was insufficient to establish probable cause that Lee was guilty of murdering Joey
Wavra,3 that evidence is material. In light of the government’s reliance on the Wavra murder during
sentencing, it is reasonably likely that, if it had been disclosed at trial that the Oklahoma court found
the evidence insufficient to establish that Lee was guilty of murder, the outcome at sentencing would
have been different. Therefore, the Court must address the issue of whether a Brady claim based
on material evidence is subject to § 2255(b)’s preauthorization requirement.
Every circuit that has addressed this issue has held that a subsequent habeas application
asserting a Brady violation, whether material or not, is a second or successive motion that requires

2

Lee says Carter v. Kelley, No. 5:16CV00367-DPM-PSH (E.D. Ark. 2017), is instructive and urges
this Court to order factual development on Brady materiality. In that case, the magistrate judge
recommended dismissal of the petitioner’s habeas petition as second or successive without analysis
of the law surrounding second-in-time Brady claims. No. 12. The district court judge declined the
recommendation and returned the case for a finding on Brady materiality, stating that “[i]f the
[petitioner’s] claim is material, then his petition may not be ‘second or successive’ within the
meaning of AEDPA.” No. 14 (emphasis supplied) (citing Crawford, 698 F.3d at 1089-90 and Lopez,
577 F.3d at 1066-67). The district court judge thereafter reviewed the magistrate judge’s fact
findings and adopted the recommendation that the Brady claim was nonmaterial and therefore an
unauthorized second or successive habeas application. No. 28. As in Crawford, the district court
did not reach the issue of whether all second-in-time Brady claims are second or successive habeas
applications.

3

The only evidence presented on this point is the lawyer’s cursory statement in his fee application.
The Court is assuming that that statement is accurate and that Lee could prove its accuracy at an
evidentiary hearing.
14

A100

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 15 of 20

authorization by the Circuit.4 Blackman v. Davis, 909 F.3d 772, 778-79 (5th Cir. 2018); In re
Wogenstahl, 902 F.3d 621, 626-28 (6th Cir. 2018); Brown, 889 F.3d at 668-74; Quezada v. Smith,
624 F.3d 514, 522 (2d Cir. 2010); In re Pickard, 681 F.3d 1201, 1205 (10th Cir. 2012); Tompkins
v. Sec’y, Dep’t of Corr., 557 F.3d 1257, 1259-60 (11th Cir. 2009); Evans v. Smith, 220 F.3d 306,
322-25 (4th Cir. 2000). Distinguishing Panetti, the circuits have held that, unlike competency-to-beexecuted claims, a Brady violation occurs at trial or at sentencing and is therefore ripe when the first
habeas application is filed; and they have recognized that the statutory scheme governing second
or successive petitions accounts for circumstances, such as a Brady claim, where new evidence is
discovered after the first habeas petition. In re Wogenstahl, 902 F.3d at 627-28; Brown, 889 F.3d
at 668, 672-74; Tompkins, 557 F.3d at 1259-60. See Evans, 220 F.3d at 323 (“[T]he standards that
Congress has established for the filing of second or successive petitions account for precisely the
type of situation Evans alleges.”). As the Ninth Circuit recently recognized, “whether a claim is ripe
under AEDPA turns on whether the factual predicate existed, not whether the petitioner knew it
existed at the time of his initial habeas petition.” Brown, 889 F.3d at 674 (emphasis in original)
(citing United States v. Buenrostro, 638 F.3d 720, 725 (9th Cir. 2011)).
Lee cites Douglas v. Workman, 560 F.3d 1156 (10th Cir. 2009), and Scott v. United States,
890 F.3d 1239 (11th Cir. 2018), but those cases are not on point. In Douglas, the Tenth Circuit,
under the “unique circumstances” presented, treated the Brady claim raised in a second habeas
petition as a supplement to the related prosecutorial-misconduct claim in the pending habeas
application. 560 F.3d at 1187-90. Unlike the Douglas petitioner, Lee does not have an open or
4

While 28 U.S.C. § 2255(h) governs second or successive habeas motions filed pursuant to a federal
court judgment, it incorporates by reference § 2244 governing habeas petitions challenging statecourt judgments. In Crawford, a § 2254 case, the Eighth Circuit interpreted § 2254 as though it
were identical to § 2255 when it relied on Lopez, which was a § 2255 case.
15

A101

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 16 of 20

pending habeas application. Since Douglas, the Tenth Circuit has recognized a second-in-time
Brady claim as second or successive under § 2255(h). In re Pickard, 681 F.3d at 1205; see also
Brown, 889 F.3d at 673 n.10 (distinguishing Douglas). In Scott, an Eleventh Circuit panel applied
Tompkins to hold the petitioner’s second-in-time § 2255 motion was barred as second or successive,
but “urged the Court to take this case en banc so we can reconsider Tompkins’ reasoning.” 890 F.3d
at 1249-589. The Circuit, however, summarily denied the petition for rehearing en banc, with no
Eleventh Circuit judge requesting the court be polled. Scott v. United States, Nos. 15-1137, 1611950 (11th Cir. Aug. 16, 2018). See also Jimenez v. Fla. Dep’t of Corr., No. 18-15128, 2018 WL
6584113, *3 (11th Cir., Dec. 13, 2018) (following Tompkins).
Based on the unanimous authority from the circuits that have decided the issue, as well as
the plain language of the statute, the Brady claims asserted in Lee’s current § 2255 motion constitute
a second or successive habeas application that requires authorization from the Eighth Circuit. A
Brady violation occurs when the evidence is favorable to the accused, that evidence was suppressed
by the State, and prejudice ensued. Strickler v. Greene, 527 U.S. 263, 281-82, 119 S. Ct. 1936,
1948, 144 L. Ed. 2d 286 (1999). A Napue/Giglio violation requires a new trial when the
Government solicits or fails to correct false testimony, or makes a misleading argument, that is
material. United States v. Bigeleisen, 625 F.2d 203, 208-09 (8th Cir. 1980). Because all these
components occurred prior to or during Lee’s trial, the alleged constitutional violations were ripe
when his first habeas motion was filed.
That the circuits are unanimous is not surprising because the habeas statutory scheme
expressly provides for cases in which newly discovered evidence is raised in a second or successive
application. 28 U.S.C. § 2255(h); 28 U.S.C. § 2244(b)(2). The statute does not except Brady
claims. Section 2255(h) therefore applies to Lee’s claims; he is entitled to file a second or
16

A102

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 17 of 20

successive habeas motion only if he receives certification from the Eighth Circuit. Because Lee has
not obtained the required authorization, this Court does not have jurisdiction to consider his
application for relief.
V.

WHETHER LEE IS ENTITLED TO RELIEF UNDER RULE 60
Lee alternatively asks this Court to consider his application as a motion for relief pursuant

to Rule 60 of the Federal Rules of Civil Procedure and reopen his first § 2255 proceeding in light
of new evidence. Lee’s § 2255 motion contends that the Government violated its duties under
Brady, Giglio, and Napue at trial; his Rule 60 motion contends that the Government violated its
duties during the § 2255 proceedings. Cf. Pickard, 681 F.3d at 1205-06.
In evaluating a Rule 60(b) motion, the initial inquiry is whether the allegations amount to
a second or successive habeas application under § 2255 or § 2244. Boyd v. United States, 304 F.3d
813, 814 (8th Cir. 2002). A Rule 60(b) motion is treated as a second or successive habeas
application if it contains a claim, defined as an “‘asserted federal basis for relief from a state court’s
judgment of conviction’ or as an attack on the ‘federal court’s previous resolution of the claim on
the merits.’” Ward v. Norris, 577 F.3d 925, 933 (8th Cir. 2009) (emphasis in original) (quoting
Gonzales v. Crosby, 545 U.S. 524, 530, 532, 125 S. Ct. 2641, 2647-48, 162 L. Ed. 2d 480 (2005)).
The motion is considered under Rule 60(b) when it challenges “‘some defect in the integrity of the
federal habeas proceeding.’” Id. Courts have applied this same analysis to Rule 60(d) motions.
See United States v. Robinson, No. 4:10CR00032-01, 2013 WL 6195749, *1 (E.D. Ark., Nov. 26,
2013).
Lee contends the Government committed “fraud . . . , misrepresentation, or misconduct” in
violation of Rule 60(b)(3), or committed “fraud on the court” in violation of Rule 60(d)(3). He says
that the Government made misrepresentations in its habeas responsive brief: (1) a footnote, stating
17

A103

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 18 of 20

“[a] huge amount of ‘discovery’ materials were provided,” Document #1126 at 45 n.165; and (2) in
response to Lee’s ineffectiveness claim related to the Wavra murder, statements that the
Government was “at a loss to understand that which Lee now argues his trial counsel should have
done,” and that it was “difficult to imagine” how more investigation would have placed Lee’s role
in the Wavra murder in a different light. Docket #1126 at 75-76. Lee argues that the Government’s
misrepresentations impeded the district court from evaluating his habeas claims and therefore
created a defect in the integrity of his initial § 2255 proceeding. He argues that his general Brady
allegation and ineffectiveness claim related to the Wavra murder would have been viable if the
Government had disclosed supporting material: Wanker’s opinion statements and the finding of the
district judge at the preliminary hearing in the Wavra case. The district court denied relief on the
ineffectiveness claim and did not address the unsupported Brady allegation; a certificate of
appealability was not granted on either point. Lee, 2008 WL 4079315, at *45; Lee, 715 F.3d at 217.
Assuming that Lee has properly asserted a Rule 60 motion as opposed to a second or
successive habeas petition, he is not entitled to relief under either Rule 60(b)(3) or (d)(3). A Rule
60(b)(3) motion must be filed no more than a year from the order or judgment that it seeks to set
aside. Fed. R. Civ. P. (60)(c)(1). The Court has no authority to extend that deadline. Fed. R. Civ.
P. 6(b)(2). As Lee argues, this time limit is not jurisdictional. Dill v. Gen. Am. Life Ins. Co., 525
F.3d 612, 618-19 (8th Cir. 2008). But that means only that the benefit of the time limit may be
forfeited if it is not timely raised. Id. If the time limit is properly raised, the rules assure that the
time limit will be enforced. Id. The Government has properly asserted the one-year time limit. This
5

Lee refers to Footnote 16 as being part of the Government’s response to his general, unsupported
Brady allegation. Document #1118 at 7. Footnote 16, however, was in the response to Lee’s
ineffectiveness claim challenging his trial lawyers’ failure to oppose the Government’s motion
seeking restrictions on his personal discovery access. Document #1126 at 45, n.16.
18

A104

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 19 of 20

Court entered the order denying Lee’s first § 2255 petition in 2008. Lee, 2008 WL 4079315. Lee’s
request for relief under Rule 60(b)(3) therefore is untimely.
Lee, moreover, has not demonstrated the “exceptional circumstances” required for relief.
Atkinson v. Prudential Property Co., Inc., 43 F.3d 367, 371 (8th Cir. 1994) (quotations omitted).
For Rule 60(b)(3) relief, Lee must show by clear and convincing evidence that the Government
“engaged in fraud or other misconduct and that this conduct prevented [him] from fully and fairly
presenting his case.” Cook v. City of Bella Villa, 582 F.3d 840, 855 (8th Cir. 2009) (quotations
omitted). Lee has not met this burden. While failure to produce evidence requested in discovery
may under some circumstances be grounds for vacating a judgment, the moving party must show
that the failure was due to misconduct by the party that should have produced the evidence.
Atkinson, 43 F.3d at 373. Lee has not alleged facts to show that the omission of any evidence during
his § 2255 proceeding was due to the Government’s misconduct or that the Government
intentionally misrepresented any facts. Nor has he demonstrated that any failure to disclose
Wanker’s opinions or the Oklahoma judicial finding prevented him from fully and fairly litigating
his initial § 2255 claim. “This is not a case in which [the Government] withheld information that
they alone possessed.” Id. Lee could have interviewed Wanker before filing his first habeas
petition; and the Oklahoma court record upon which he now relies is public information.
Likewise, Lee’s allegations do not meet the standard for fraud on the court under Rule
60(d)(3). Fraud on the court is narrowly defined as “fraud which is directed to the judicial
machinery itself and is not fraud between the parties or fraudulent documents, false statements or
perjury.” Superior Seafoods, Inc. v. Tyson Foods, Inc., 620 F.3d 873, 878 (8th Cir. 2010) (quoting
United States v. Smiley, 553 F.3d 1137, 1144-45 (8th Cir. 2009) (quotations omitted)). “A finding
of fraud on the court is justified only by the most egregious misconduct directed to the court itself,
19

A105

Case 4:97-cr-00243-JLH Document 1313 Filed 02/26/19 Page 20 of 20

such as bribery of a judge or jury or fabrication of evidence by counsel.” Greiner v. City of
Champlin, 152 F.3d 787, 789 (8th Cir. 1998) (quotations omitted). “[I]t is necessary to show a
deliberately planned scheme designed to improperly influence the court in its decision.” Heim v.
Comm’r of Internal Revenue, 872 F.2d 245, 249 (8th Cir. 1989). Lee’s allegations do not clear this
high bar. See Tyler v. Purkett, 413 F.3d 696, 700-01 n.7 (8th Cir. 2005) (“Claims that a party did
not disclose to a court certain facts allegedly pertinent to the matter before it, however, do not
normally constitute fraud on the court.”).
CONCLUSION
Daniel Lewis Lee’s Brady claims in his present motion constitute a second or successive
habeas petition under 28 U.S.C. § 2255 for which Eighth Circuit authorization is required. Lee is
not entitled to relief under Federal Rule of Civil Procedure 60. Therefore, the motion is denied
without prejudice. No certificate of appealability will be issued.
IT IS SO ORDERED this 26th day of February, 2019.

J. LEON HOLMES
UNITED STATES DISTRICT JUDGE

20

A106

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 19-2432
___________________
Daniel Lewis Lee
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
______________________________________________________________________________
Appeal from U.S. District Court for the Eastern District of Arkansas - Little Rock
(4:18-cv-00649-JLH)
______________________________________________________________________________
JUDGMENT

Before COLLOTON, KELLY, and ERICKSON, Circuit Judges.

The application for a certificate of appealability has been considered by the court and is denied.

November 04, 2019

KELLY, Circuit Judge, dissenting.

I would grant a certificate of appealability. I believe jurists of reason could disagree about
whether Lee’s newly discovered evidence is material for purposes of Brady. See United States v.
Kehoe, 310 F.3d 579, 591 (8th Cir. 2002); Martin v. State, 57 S.W.3d 136, 139–40 (Ark. 2001). I
also believe jurists of reason could disagree about whether a material Brady claim in a second
habeas motion qualifies as a “second or successive motion” subject to the gatekeeping
requirements of 28 U.S.C. § 2255(h). See Panetti v. Quarterman, 551 U.S. 930, 942–47 (2007);
Scott v. United States, 890 F.3d 1239, 1243 (11th Cir. 2018); Crawford v. Minnesota, 698 F.3d
Appellate Case: 19-2432

Page: 1

A107

Date Filed: 11/04/2019 Entry ID: 4848685

1086, 1090 (8th Cir. 2012); see also Barefoot v. Estelle, 463 U.S. 880, 893 (1983) (explaining that
in a death-penalty case, “the nature of the penalty is a proper consideration” in deciding whether
to certify an issue for appeal).

______________________________

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans

Appellate Case: 19-2432

Page: 2

A108

Date Filed: 11/04/2019 Entry ID: 4848685

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
___________________
No: 20-2351
___________________
Daniel Lewis Lee
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
__________________________________________________________________
Appeal from U.S. District Court for the Eastern District of Arkansas - Central
(4:18-cv-00649-KGB)
__________________________________________________________________
AMENDED JUDGMENT

Before COLLOTON, KELLY and ERICKSON, Circuit Judges.
Lee’s motion for stay of execution pending appeal has been considered by the
court and is denied. The application for a certificate of appealability and alternative
motion for authorization to file a second or successive motion under 28 U.S.C. §
2255 are also denied.
Judge Kelly would grant the motion for stay of execution and the application
for a certificate of appealability.
KELLY, Circuit Judge, dissenting.
I would grant Lee’s application for a certificate of appealability because I
believe jurists of reason could debate whether the district court correctly denied
Lee’s Rule 60(b) motion. See Miller-El v. Cockrell, 537 U.S. 322, 342 (2003); Slack
v. McDaniel, 529 U.S. 473, 483–84 (2000). Lee argued in his Rule 60(b) motion
Appellate Case: 20-2351

Page: 1

A109

Date Filed: 07/12/2020 Entry ID: 4932692

that misconduct and misrepresentations by the government caused a defect in the
integrity of his initial post-conviction proceedings under 28 U.S.C. § 2255. See Fed.
R. Civ. P. 60(b)(3), (6). Specifically, Lee alleged the government suppressed
evidence that law enforcement conducted a polygraph examination of Paul
Humphrey—an individual whom police initially suspected of murdering the Mueller
family and who testified favorably for the government at trial. Lee alleged that the
polygraph results showed Humphrey was involved in the Mueller murders. Lee
argued the government violated its Brady obligations by failing to turn over this
evidence prior to trial. He also contended the government made false statements,
during both his trial and § 2255 proceedings, that it had provided all relevant Brady
material pertaining to Humphrey. The government does not deny it violated its s28
Brady obligations.
Nevertheless, the district court denied Lee’s Rule 60(b) motion. Relying on
Smith v. Clarke, 458 F.3d 720, 725 (8th Cir. 2006), the court concluded that, to gain
relief under Rule 60(b)(3), Lee was required to demonstrate that the government
made intentional or deliberate misrepresentations. Jurists of reason could debate
whether this decision was correct. Prior to Smith, we explained that a party moving
under Rule 60(b)(3) need only “establish that the adverse party engaged in fraud or
other misconduct and that this conduct prevented the moving party from fully and
fairly presenting its case.” E.F. Hutton & Co. v. Berns, 757 F.2d 215, 216–17 (8th
Cir. 1985). In my view, Lee has arguably shown the government’s alleged Brady
violation and misrepresentations prevented him from fully and fairly litigating his
initial § 2255 motion. See id.; see also In re Pickard, 681 F.3d 1201, 1204 (10th Cir.
2012) (holding that a “claim of prosecutorial misconduct in the § 2255 proceedings
is a proper Rule 60(b) claim”); United States v. Williams, 753 F. App’x 176, 177
(4th Cir. 2019) (same).
It is not obvious that Smith set a different standard for Rule 60(b)(3) relief.
But even if it did, jurists of reason could debate whether Lee adequately established
that the government made intentional or deliberate misrepresentations during his
trial and initial § 2255 proceedings. Lee plausibly contends the government
suppressed Humphrey’s polygraph results because those results did not fit with its
theory of Lee’s guilt. These are not Lee’s first allegations of government
misconduct. Rather, they are part of allegations regarding a broader pattern of the
Appellate Case: 20-2351

Page: 2

A110

Date Filed: 07/12/2020 Entry ID: 4932692

government repeatedly failing to abide by its Brady obligations and its own policies
and procedures, as well as employing tactics at sentencing that even the district court
found concerning. I would evaluate Lee’s application in light of that pattern and the
extraordinary nature of the proceedings against him. See Cornell v. Nix, 119 F.3d
1329, 1332 (8th Cir. 1997) (holding that a Rule 60(b) motion “should be liberally
construed when substantial justice will thus be served”); see also Barefoot v. Estelle,
463 U.S. 880, 893 (1983) (explaining that in a death-penalty case, “the nature of the
penalty is a proper consideration” in deciding whether to certify an issue for appeal).
Viewed in their totality, Lee’s allegations show an arguable case of intentional
government misconduct and an extraordinary case in which the risk of injustice to
Lee and the threat of undermining the public’s confidence in the judicial process
potentially merit relief. See Buck v. Davis, 137 S. Ct. 759, 777–78 (2017)
(discussing Fed. R. Civ. P. 60(b)(6)).
***
In 1999, Lee and his co-defendant, Chevie Kehoe, proceeded to trial together
on charges of racketeering and murder in aid of racketeering. United States v. Lee,
374 F.3d 637, 641 (8th Cir. 2004). The murder charges stemmed from the brutal
killings of William and Nancy Mueller, and Nancy’s eight-year-old daughter, Sarah
Powell. Id. at 641–42. The government alleged Kehoe led a group of people
working to establish a white-supremacist nation in the Pacific Northwest. United
States v. Lee, No. 4:97-CR-243-(2) GTW, 2008 WL 4079315, at *2–3 (E.D. Ark.
Aug. 28, 2008). Lee was one of Kehoe’s “assistants.” Id. Or, in the dehumanizing
words of the government’s closing argument to the jury: “Chevie Kehoe is the leader
of this enterprise. . . . Danny Lee is like the faithful dog.” Id. at *32. The
government’s evidence showed that, although Lee had participated in the murder of
William and Nancy Mueller, he “would have no part in the killing of Sarah Powell,”
so Kehoe killed the child himself. Lee, 374 F.3d at 642. As presiding District Judge
G. Thomas Eisele put it: “There was no question that Kehoe was the more culpable
of the two.” DCD 1353 Ex. A.
The jury convicted Kehoe and Lee as charged. Lee, 374 F.3d at 643. The
government then sought the death penalty for both defendants before the same jury.
Id. Kehoe’s penalty phase proceeded first. Recognizing the clear disparity in
Appellate Case: 20-2351

Page: 3

A111

Date Filed: 07/12/2020 Entry ID: 4932692

culpability between Kehoe and Lee, the government informed the district court and
Lee’s counsel that “if the jury sentenced Defendant Kehoe to life imprisonment, it
would not pursue the death penalty for Defendant Lee.” United States v. Lee, 89 F.
Supp. 2d 1017, 1032 (E.D. Ark. 2000). The jury ultimately sentenced Kehoe to life
without release, and the United States Attorney for the Eastern District of Arkansas
requested to withdraw the death notice in Lee’s case. Lee, 374 F.3d at 643. But the
Deputy Attorney General denied this request. Id. And, despite his being undeniably
less culpable than Kehoe, Lee was sentenced to death.
Lee’s death sentence is controversial. In the years that followed the jury’s
verdict, Lee raised numerous concerns with his sentence, including allegations of
government misconduct. He asserted that the government improperly introduced
evidence during his penalty phase that he had been diagnosed a “psychopath” and
thus had an alleged propensity for future dangerousness. Lee, 89 F. Supp. 2d at
1026–27. The prosecution “had affirmatively stated to [Lee] and the [district court]
that it would not introduce mental health evidence in its case-in-chief.” Id. at 1027–
28. However, the government instead introduced damning mental health evidence
“through the ‘back door.’” Id. at 1028. During its cross-examination of Lee’s
mitigation expert, the government elicited testimony that its own expert had
previously diagnosed Lee as a “psychopath” using a tool called the Hare
Psychopathy Checklist-Revised (PCL-R). Id. The government then argued that
because Lee is a “psychopath” according to the PCL-R, he posed a grave risk of
future dangerousness. This was the thrust of the government’s argument for
executing Lee. Id.
But, as the district court explained, the government’s introduction of “such
aggravating evidence against Defendant Lee through his own mental health expert
during his ‘defense’ was fundamentally unfair in that Defendant Lee had no
opportunity to respond.” Id. The government’s “back-door” tactic deprived Lee of
the notice to which he was entitled so that he could adequately prepare for his
mitigation defense. Id. In the words of presiding Judge Eisele: “The unfairness is
patent.” Id. at 1029.
More fundamentally, however, Lee has presented evidence that the PCL-R’s
psychopathy finding was wholly irrelevant to any issue before the jury. The jury
Appellate Case: 20-2351

Page: 4

A112

Date Filed: 07/12/2020 Entry ID: 4932692

had two options at the penalty phase: it could sentence Lee either to life in prison or
to death. Yet the PCL-R has no predictive value with respect to whether a person
will be dangerous in an institutional setting like a prison; it predicts only future
dangerousness in the community. Indeed, the government’s own mental health
expert who testified during Lee’s penalty phase later disavowed using the PCL-R in
capital cases due to its unreliability. United States v. Lee, No. 4:06-cv-1608 GTE,
2010 WL 5347174, at *5–6 (E.D. Ark. Dec. 22, 2010). The district court concluded
“it is very questionable whether the jury would have given Defendant Lee the death
penalty” had the government not relied on the PCL-R’s psychopathy finding. Lee,
89 F. Supp. 2d at 1031. This court has similarly reasoned that “the jury sentenced
the two defendants differently” because it believed Kehoe would not be a future
danger but that Lee would. United States v. Lee, 715 F.3d 215, 223 (8th Cir. 2013).
Therefore, Lee has argued, the government’s use of the PCL-R’s irrelevant
psychopathy finding led directly to his death sentence.
Lee has also alleged that the government misled the jury about his role in a
separate murder. During Lee’s penalty phase, the government told the jury that Lee,
as a juvenile, had murdered someone named Joseph John Wavra in Oklahoma. Lee,
89 F. Supp. 2d at 1031. The only reason Lee was not charged with murder, the
government argued, was by the grace of the Oklahoma state prosecutors. United
States v. Lee, No. 4:97-cr-243-02 KGB, 2020 WL 3618709, at *5 (E.D. Ark. July 2,
2020). But in fact, a state court judge had dismissed the murder charge for a lack of
evidence. Id. Lee later filed a motion to vacate his death sentence, arguing the
government had suppressed an Oklahoma state-court document reflecting the true
reason he was not charged with murder. See DCD 1313. The district court
recognized that, “[i]n light of the government’s reliance on the Wavra murder during
sentencing, it is reasonably likely that, if it had been disclosed at trial that the
Oklahoma court found the evidence insufficient to establish that Lee was guilty of
murder, the outcome of the sentencing would have been different.” Id. at 14.
Despite this, the court ultimately denied Lee’s motion as an unauthorized successive
habeas application. Id. at 20 (citing 28 U.S.C. §§ 2244(b)(3), 2255(h)).
Lee’s execution also raises real concerns about the arbitrary application of the
death penalty. Nearly fifty years ago, the Supreme Court halted executions because
of the death penalty’s arbitrary application. Furman v. Georgia, 408 U.S. 238, 239–
Appellate Case: 20-2351

Page: 5

A113

Date Filed: 07/12/2020 Entry ID: 4932692

40 (1972). Justice Brennan highlighted the constitutional and moral requirement
that the government must not, “without reason, . . . inflict[ ] upon some people a
severe punishment that it does not inflict upon others.” Id. at 274 (Brennan, J.,
concurring). Indeed, “the very words ‘cruel and unusual punishments’ imply
condemnation of the arbitrary infliction of severe punishments.” Id. Justice White
cautioned against a death-penalty regime where “there is no meaningful basis for
distinguishing the few cases in which it is imposed from the many cases in which it
is not.” Id. at 313 (White, J., concurring). And Justice Stewart concluded that the
Constitution “cannot tolerate the infliction of a sentence of death under legal systems
that permit this unique penalty to be so wantonly and so freakishly imposed.” Id. at
310 (Stewart, J., concurring).
Four years later, the Court allowed executions to proceed, satisfied that newly
enacted state statutes would “provide guidance to the sentencing authority and
thereby reduce the likelihood that it will impose a sentence that fairly can be called
capricious and arbitrary.” Gregg v. Georgia, 428 U.S. 153, 194–95 (1976). Despite
Gregg’s promise of a rational, balanced, and fair system of executions, Lee’s case
underscores how the death penalty continues to be arbitrarily applied. Everyone
agrees that Kehoe was far more culpable than Lee, yet Kehoe was sentenced to life
in prison while Lee was sentenced to death.
Lee’s case is extraordinary. The trial judge and the lead prosecutor, as well
as members of the victims’ family have all expressed their beliefs that it would be
unjust to execute Lee. As Judge Eisele noted, “All who review the record will
recognize the unequal and disparate roles that Kehoe and Lee played in their horrific
crime spree, which Kehoe directed and Lee joined intermittently.” DCD 1353 Ex.
A. Judge Eisele expressed particular concern about the government’s use of the
PCL-R psychopathy finding and the role it played in the jury’s ultimate verdict,
writing “the end result leaves me with the firm conviction that justice was not
served.” Id. Yet Lee remains on death row.
Dan Stripling, the Assistant United States Attorney who prosecuted Lee’s
case, finds it “very disturbing the randomness with which defendants are charged,
convicted, and sentenced in capital cases. [Lee’s] case perfectly illustrates this
unexplainable randomness.” DCD 1353 Ex. B. “Kehoe is intelligent, appeared
Appellate Case: 20-2351

Page: 6

A114

Date Filed: 07/12/2020 Entry ID: 4932692

clean cut, and had support of convincing witnesses who genuinely supported him.
Lee had none of the benefits. If this was the reason for the jury’s decision, life should
not be taken because of these disparities.” Id.
Kimma Gurel, who is Nancy Mueller’s sister and Sarah Powell’s aunt, wrote:
Even though he was the leader, Chevie Kehoe was sentenced to life in
prison. However, Daniel Lee got the death sentence. Maybe the jurors
based their decision on Daniel Lee’s looks; having a swastika neck
tattoo and a blind eye made him look pretty scary. Chevie Kehoe was
a clean-cut young man with a wife and four kids who would lose their
father. Whatever the reason, it was not fair or just for Daniel Lee
to be sentenced to death, and none of the reasons I come up with
make me feel any better.
DCD 1353 Ex. C (emphasis in original).
There is no question that the death penalty is unique in its severity and
irrevocability. Gregg, 428 U.S. at 187. With Lee’s life at stake, courts must be
“particularly sensitive to insure that every safeguard is observed.” Id. The
sentencing disparity between Kehoe and Lee, along with serious questions about the
evidence presented to the jury at both trial and sentencing and the government’s
course of conduct during Lee’s post-conviction proceedings, underscores how
denying relief to Lee—who faces execution to carry out a sentence of death—risks
severe injustice. At a minimum, the unjust and arbitrary result in the case of United
States v. Daniel Lewis Lee threatens to undermine the public’s confidence in the
judicial process on which we all rely.
I dissent.
______________________________
July 12, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
____________________________________
/s/ Michael E. Gans
Appellate Case: 20-2351

Page: 7

A115

Date Filed: 07/12/2020 Entry ID: 4932692

Case 2:19-cv-00468-JPH-DLP Document 1-13 Filed 09/26/19 Page 2 of 3 PageID #: 193

IN THE DISTRICT COURT OF

~~LAHOMA

--1,.J ··:::::;:> ,..-- ......
:"("t\,\

COUNTY

STATE OF ~0KLAHO~~\~. OK
THE STATE OF OKLAHOMA ,

c

Plaintiff ,
CF-90 - 5292

vs.
DANIEL LOUIS GRAHAM
Defendant .
APPLICATION FOR ATTOR NEY FEES

COMES NOW, Kenneth C . Watson, Attorney at Law, and shows to
this Court that he was appointed by Judge Susan
of the District Court of Oklahoma County,

w.

Bragg, Judge

to represent the

defendant, Daniel Louis Graham, in the above- captioned c ause.
That on the 2nd , day of October, 1990, the defendant , Daniel
Louis Graham was determined by this Court to be an indigent
person and counsel was appointed same.

Said defendant has been

duly de fended , and counsel respectfully requests that this Court
grant compensation from the Court Fund of Oklahoma County in the
amount o f $750.00.
WHEREFORE ,

Kenneth C. Watson, attorney for defendant, prays

this Court for an Order directing payment of the sum of $750.00
as and for compensation

counsel

th C.
atson, OBA # 9393
rney for Defendant
N. Harvey, Sui te 100
Oklahoma City, OK 73102
(405) 232-1515

A116

Case 2:19-cv-00468-JPH-DLP Document 1-13 Filed 09/26/19 Page 3 of 3 PageID #: 194

STATEMENT OF TIME EXPENDED
District Court Case No.

CRF-90-5292

Date

Service Performed

10-16-90

Conference w/Client

1.5

10-19-90

Preliminary Hearing Announcement

1. 0

10-15-90

Conference w/District Atto r ney

1. 0

11-08-90

Conference w/Client & Parent

2.0

12-07-90

Preliminary Hearing Conference

1. 5

12-08-90

Conference w/Client

1.0

12-13-90

Preliminary Hearing

6.0

TOTAL TIME EXPENDED

14 . 0

Time Expended

The matter came on for hearing before J udge Hall· District Attorney called
witness; hearing held; Court finds crime of Murder I not established by
evidence; Court reccomends

a

Dismissal of Murder I charges and State

consider refiling on charge of Robbery I .

A117

7470
Stipulation

1

THE COURT:

2

MR. LIROFF:

All right.•

T".ne sec-ond matter, l-107, iS' a proof of

3

birth in Santa Ana, California, for DanieL Lewis Lee,

4

birthdate of January 31, 1973.

5

THE COURT:

6

MR. LIROFF:

w~th

Very we.llr

The next item, No.

11~8,

is a judgment

7

and sentence in the District Court of Oklahoma County, the

8

State of Oklahoma, fo-r Daniel Lewis Lee, for the crime of

9

robbery.
THE COURT:

l-1.

12
13

A11 right the Exhibits 1106, - 07, and' -08

are r-eceived by agreement of the p-arties.

{Government Exhibits 1106, 1107, 1108 received in

evidence • }
MR~

LIROFF:

And the last exhibit, Your Monor, is

15-

1109 1 which is- a conviction f .or John Patton in the

16

Oklahoma for the crime of: firs-t degree murder.

17

18
19

THE COURT:

2Z

23

State~

of

Conv·i ction of John. Patton. all right.

will be received al.so.
(Government Exhibit 1109- received in evidence-.}

20

Zl

a

MR •. L:IROFF:

One last stipulation,

the stipulation is that the -- I ' l l wai-t

Your Honor..

forMs~

And

Compton.

{Off-the-record discussi-on between Ms. Compton and Mr.
Lassiter.)

24

MR., hiROFF:

25

MS., COMPTON:-

Whenever you're ready.

I'm sorry?

A118

It

7963
Closing: Argument - Liroff
1

w~eld

2

does any of u.s not know that by taking: the- knife and giving it

3

to him what he was doing?

4

and morally the blood of Joey Wavra's hands is on Danny Lee.

that

knife ~

I'm not suggesting to you that he did.

one important aspect

5

I

But

would suggest to you both legall-y

of this is: this..

When this happened,

6

Lee got this incredibl.e, this incredible- deal., this plea

7

bargain in the end, pled guilty to a robbery.

8

how many of you in your life have thought back.

9

are younger.

Some of us are older.

How many of you,
Some of you

And sometimes in the

10

middle of the night you sit. back and you think about- things

11

that. you've done, places you've bee-n, self-confession time.

Sometimes I think about a junior high school dance that I

12

afra~d

to -.walk across the dance floor and ask a

13

was too

14

part.~cular

15

silly.

16

point I'm trying to make.

17

sometimes: we think about forks in the road where we've been.

18

We've gone right.

19

you think, my God, should I have- gone left?

20

we used to ca.ll it a do over.

21

3oey Wavra murder that I want to talk to you about.

22

you commit a murde-r, and you get sent away for a very long

23

time.

And you don't get an opportunity for a do over.

24-

done.

You made a. horrible mistake, and you can't do anyth.ing

25

about it.

girl to dance.

I think about that, and that.' s

But that's,- that's a small thing to ill.ustrate the

What I'm trying to talk. about is

We didn't go left.

Then you thi-nk back, and
When we were- kids

This: is the one aspect of the

Usually

It's

And you c-an"t say, Gee, I wish I hadn't done that so

Elaine Hinson, RMR, CCR
United States court RePOrter

A119

7964

Closing Argument - L-iroff
1

I could get back on my life and have an opportunity to make

2

amends •

l

say', my God, what have I done?

4

had the opportunity to say,

5

opportun~ty

6

monumental.,

Danny Lee got a do over..

I,

He got the opportunity to

LOok where all this led

made a: mistake, but

to turn myself around.

I

me~

He

got an

And that's incredibly

It is rare for a murderer like Danny Lee to stand before a

7

8

jury who is about to determine his death penalty, who has an

g

earl-ier murder under his belt, who has a prior victim--s blood

10

on his hands.

You know the expression.

11

you.

12

of this Wavra murder that I think is terribly important and I

13

think you- should consider in distinguishing- Lee from Kehoe

14

because Lee has been here before.

15

ot justice.

16

had that opportunity to change his ways.

Fool me twice, s-hame on me.

Fool me once, shame on,

And that's the first aspect

Lee has: stood in the- court

Lee has had the opportunity to regret, and Lee haa

17

The other aspect of the Wavra murder that's of absolute

18

importance is because it communicates: to you, and it says to

19

you something about that aggravating factor of future

20

dangerousness~

21

you are back at that- scale, that's one of the places you put

22

it~

.

I'm plugging that back into t-he law, so when

23

Now, let me shift gears for just a

24

about some of these mltigatinq factors.

25

are things, that the defense thinks they've proven.

moment~

I want to

ta~k

The mitigating factors
Your job is;

Elaine Hinson, RMR, CCR
United States court Reoorter

A120

Fifth Amendment, United States Constitution
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in the
Militia, when in actual service in time of War or public danger; nor
shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be
a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for
public use, without just compensation.

A121

Sixth Amendment, United States Constitution
In all criminal prosecutions, the accused shall enjoy the right to a
speedy and public trial, by an impartial jury of the State and district
wherein the crime shall have been committed, which district shall have
been previously ascertained by law, and to be informed of the nature
and cause of the accusation; to be confronted with the witnesses against
him; to have compulsory process for obtaining witnesses in his favor,
and to have the Assistance of Counsel for his defence.

A122

28 U.S.C. § 2255
§ 2255. Federal custody; remedies on motion attacking sentence
(a) A prisoner in custody under sentence of a court established by Act of Congress
claiming the right to be released upon the ground that the sentence was imposed in
violation of the Constitution or laws of the United States, or that the court was
without jurisdiction to impose such sentence, or that the sentence was in excess of
the maximum authorized by law, or is otherwise subject to collateral attack, may
move the court which imposed the sentence to vacate, set aside or correct the
sentence.
(b) Unless the motion and the files and records of the case conclusively show that
the prisoner is entitled to no relief, the court shall cause notice thereof to be served
upon the United States attorney, grant a prompt hearing thereon, determine the
issues and make findings of fact and conclusions of law with respect thereto. If the
court finds that the judgment was rendered without jurisdiction, or that the
sentence imposed was not authorized by law or otherwise open to collateral attack,
or that there has been such a denial or infringement of the constitutional rights of
the prisoner as to render the judgment vulnerable to collateral attack, the court
shall vacate and set the judgment aside and shall discharge the prisoner or
resentence him or grant a new trial or correct the sentence as may appear
appropriate.
(c) A court may entertain and determine such motion without requiring the
production of the prisoner at the hearing.
(d) An appeal may be taken to the court of appeals from the order entered on the
motion as from a final judgment on application for a writ of habeas corpus.
(e) An application for a writ of habeas corpus in behalf of a prisoner who is
authorized to apply for relief by motion pursuant to this section, shall not be
entertained if it appears that the applicant has failed to apply for relief, by motion,
to the court which sentenced him, or that such court has denied him relief, unless it
also appears that the remedy by motion is inadequate or ineffective to test the
legality of his detention.
(f) A 1-year period of limitation shall apply to a motion under this section. The
limitation period shall run from the latest of—
(1) the date on which the judgment of conviction becomes final;
(2) the date on which the impediment to making a motion created by
governmental action in violation of the Constitution or laws of the United

A123

States is removed, if the movant was prevented from making a motion by
such governmental action;
(3) the date on which the right asserted was initially recognized by the
Supreme Court, if that right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on collateral review; or
(4) the date on which the facts supporting the claim or claims presented
could have been discovered through the exercise of due diligence.
(g) Except as provided in section 408 of the Controlled Substances Act, in all
proceedings brought under this section, and any subsequent proceedings on review,
the court may appoint counsel, except as provided by a rule promulgated by the
Supreme Court pursuant to statutory authority. Appointment of counsel under this
section shall be governed by section 3006A of title 18.
(h) A second or successive motion must be certified as provided in section 2244 by
a panel of the appropriate court of appeals to contain—
(1) newly discovered evidence that, if proven and viewed in light of the
evidence as a whole, would be sufficient to establish by clear and convincing
evidence that no reasonable factfinder would have found the movant guilty
of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable.

A124

28 U.S.C. § 2241
§ 2241. Power to grant writ
(a) Writs of habeas corpus may be granted by the Supreme Court, any justice
thereof, the district courts and any circuit judge within their respective
jurisdictions. The order of a circuit judge shall be entered in the records of the
district court of the district wherein the restraint complained of is had.
(b) The Supreme Court, any justice thereof, and any circuit judge may decline to
entertain an application for a writ of habeas corpus and may transfer the
application for hearing and determination to the district court having jurisdiction to
entertain it.
(c) The writ of habeas corpus shall not extend to a prisoner unless—
(1) He is in custody under or by color of the authority of the United States or
is committed for trial before some court thereof; or
(2) He is in custody for an act done or omitted in pursuance of an Act of
Congress, or an order, process, judgment or decree of a court or judge of the
United States; or
(3) He is in custody in violation of the Constitution or laws or treaties of the
United States; or
(4) He, being a citizen of a foreign state and domiciled therein is in custody
for an act done or omitted under any alleged right, title, authority, privilege,
protection, or exemption claimed under the commission, order or sanction of
any foreign state, or under color thereof, the validity and effect of which
depend upon the law of nations; or
(5) It is necessary to bring him into court to testify or for trial.
(d) Where an application for a writ of habeas corpus is made by a person in
custody under the judgment and sentence of a State court of a State which contains
two or more Federal judicial districts, the application may be filed in the district
court for the district wherein such person is in custody or in the district court for
the district within which the State court was held which convicted and sentenced
him and each of such district courts shall have concurrent jurisdiction to entertain
the application. The district court for the district wherein such an application is
filed in the exercise of its discretion and in furtherance of justice may transfer the
application to the other district court for hearing and determination.
(e)(1) No court, justice, or judge shall have jurisdiction to hear or consider an
application for a writ of habeas corpus filed by or on behalf of an alien detained by

A125

the United States who has been determined by the United States to have been
properly detained as an enemy combatant or is awaiting such determination.
(2) Except as provided in paragraphs (2) and (3) of section 1005(e) of the Detainee
Treatment Act of 2005 (10 U.S.C. 801 note), no court, justice, or judge shall have
jurisdiction to hear or consider any other action against the United States or its
agents relating to any aspect of the detention, transfer, treatment, trial, or
conditions of confinement of an alien who is or was detained by the United States
and has been determined by the United States to have been properly detained as an
enemy combatant or is awaiting such determination.

A126

Rule 60. Relief from a Judgment or Order
(a) Corrections Based on Clerical Mistakes; Oversights and Omissions. The court
may correct a clerical mistake or a mistake arising from oversight or omission
whenever one is found in a judgment, order, or other part of the record. The court
may do so on motion or on its own, with or without notice. But after an appeal has
been docketed in the appellate court and while it is pending, such a mistake may be
corrected only with the appellate court's leave.
(b) Grounds for Relief from a Final Judgment, Order, or Proceeding. On motion
and just terms, the court may relieve a party or its legal representative from a final
judgment, order, or proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence, could not
have been discovered in time to move for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or extrinsic),
misrepresentation, or misconduct by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged; it is based on an
earlier judgment that has been reversed or vacated; or applying it
prospectively is no longer equitable; or
(6) any other reason that justifies relief.
(c) Timing and Effect of the Motion.
(1) Timing. A motion under Rule 60(b) must be made within a reasonable
time—and for reasons (1), (2), and (3) no more than a year after the entry
of the judgment or order or the date of the proceeding.
(2) Effect on Finality. The motion does not affect the judgment's finality or
suspend its operation.

A127

(d) Other Powers to Grant Relief. This rule does not limit a court's power to:
(1) entertain an independent action to relieve a party from a judgment, order,
or proceeding;
(2) grant relief under 28 U.S.C. §1655 to a defendant who was not
personally notified of the action; or
(3) set aside a judgment for fraud on the court.
(e) Bills and Writs Abolished. The following are abolished: bills of review, bills in
the nature of bills of review, and writs of coram nobis, coram vobis, and audita
querela.

A128

